           Report No. D2008-032                      December 6, 2007




     Acquisition of the Surface-Launched Advanced
            Medium Range Air-to-Air Missile




                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
  Additional Copies

  To obtain additional copies of this report, contact Mr. John E. Meling at (703) 604-
  9091 (DSN 664-9091) or Mr. Harold C. James at (703) 604-9088 (DSN 664-9088)
  or contact the Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-
  8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                              ODIG-AUD (ATTN: Audit Suggestions)
                              Department of Defense Inspector General
                              400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms

AMRAAM                Advanced Medium-Range Air-to-Air Missile
CJCS                  Chairman of the Joint Chiefs of Staff
CMDS                  Cruise Missile Defense System
CPD                   Capability Production Document
DCD                   Director of Combat Developments
DCMA                  Defense Contract Management Agency
DIACAP                DoD Information Assurance Certification and Accreditation
                         Process
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
IFCS                  Integrated Fire Control Station
LOD                   Letters of Delegation
LRIP                  Low-Rate Initial Production
MOA                   Memorandum of Agreement
SEP                   System Engineering Plan
SEMP                  System Engineering Management Plan
SLAMRAAM              Surface-Launched Advanced Medium-Range Air-to-Air Missile
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                                  INSPECTOR GENERAL

                                DEPARTMENT OF DEFENSE

                                   400 ARMY NAVY DRIVE

                              ARLINGTON, VIRGINIA 22202-4704

                                                                              December 6, 2007

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT '
                 AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on the Acquisition of Surface-Launched Advanced Medium-Range
         Air-to-Air Missile (Report No, D-2008-032)


        We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report, This
report addresses the Army's management of the Surface-Launched Advanced Medium­
Range Air-to-Air Missile Program,

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Acting Director, Defense Contract Management Agency nonconcurred with
Recommendation C.2. Additionally, the Army Chief Information Officer did not respond
to Recommendation D.l. and the Product Manager, Surface-Launched Advanced
Medium-Range Air-to-Air Missile did not respond to Recommendation D.2. Therefore
we request that the Acting Director, Defense Contract Management Agency provide
additional comments on Recommendation C.2. and that the Army ChiefInformation
Officer and the Product Manager, Surface-Launched Advanced Medium-Range Air-to­
Air Missile provide comments on Recommendations D.l. and D.2. respectively by
January 8, 2008.

        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDACMlaJdodig,mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Harold C. James at (703) 604-9088 (DSN 664-9088). See Appendix D for the
report distribution. The team members are listed inside the back cover.

                                  By direction ofthe Deputy Inspector GeneralIpr Auditing:




                                              Richard B. Jolliffe

                                        Assistant Inspector General

                                    Acquisition and Contract Management


                                         Special Warning

This report contains information that is designated "FOR OFFICIAL USE ONLY," in accordance
with the Freedom of Information Act nnder exemptions 3, 4, and 5. Section 1905, title 18, United
States Code, and section 423, title 41, United States Code, provide specific penalties for the
unauthorized disclosure of company confidential or proprietary information. This report must be
safeguarded in accordance with DoD Regulation 5400.7-R.


                           FOR OFFICIAL USE ONLY
               Department of Defense Office of Inspector General
Report No. D-2008-032                                                    December 6, 2007
   (Project No. D2007-D000AE-0060.000)

                Acquisition of the Surface-Launched Advanced
                      Medium-Range Air-to-Air Missile

                                 Executive Summary

Who Should Read This Report and Why? Defense officials responsible for
generating, processing, and approving acquisition requirements and managing weapon
system acquisitions should read this report. This report discusses defining capability
requirements, planning the systems engineering effort, defining responsibilities of the
Defense Contract Management Agency (DCMA), and establishing information assurance
requirements in support of the low-rate initial production decision for the Surface-
Launched Advanced Medium-Range Air-to-Air Missile (SLAMRAAM).

Background. The SLAMRAAM is an air defense system the Army is developing to
protect U.S. and friendly forces from aerial surveillance and air attack by cruise missiles,
unmanned aerial vehicles, unmanned combat aerial vehicles, and rotary- and fixed-wing
aircraft. The SLAMRAAM will provide the Army the means to prevent enemies from
penetrating friendly forces, while freeing commanders to synchronize movement and
firepower. The Army will employ the SLAMRAAM in units that are

                       As of July 2007, the program’s funding to develop and procure the
system totaled $622.5 million, with $208.3 million in research, development, test, and
evaluation funds and $414.2 million for procurement of hardware (including 69 fire units,
35 integrated fire control stations, 55 Advanced Medium-Range Air-to-Air Missiles, and
30 sensor kits to be installed on the Sentinel Radar).

Results. We determined that the Army could have more cost effectively prepared the
program for the low-rate initial production decision as evidenced by the need for the
SLAMRAAM Program Office to rebaseline the development contract because of
contractor technical difficulties and program funding shortfalls that resulted in increased
contract costs. Specific areas needing management attention are discussed below.

The Director of Combat Developments, U.S. Army Air Defense Artillery School had not
yet sufficiently defined capability requirements for the SLAMRAAM in the draft
capability production document being prepared to support the low-rate initial production
decision planned for FY 2010. Until the Director of Combat Developments adheres to
policy for defining system capability requirements, the Army will be hindered in its
ability to ensure that the SLAMRAAM satisfies essential warfighter capability
requirements (finding A).

The Product Manager for SLAMRAAM began developing a systems engineering plan
but did not use it to support its systems engineering management approach for the
SLAMRAAM. Instead, the product manager was using the contractor-developed
systems engineering management plan. By not using a systems engineering plan that


                          FOR OFFICIAL USE ONLY
included entrance and success criteria for planned technical reviews and defined the
applied systems engineering processes, the product manager did not avail the program
office with a system engineering management approach needed to cost effectively
manage, develop, and integrate the system to fully meet program requirements
(finding B).

The Commander, DCMA Space Sensors and Communications Operations, Raytheon
Integrated Defense Systems, and the Project Manager, Cruise Missile Defense System
established a memorandum of agreement for the SLAMRAAM program that did not
reference current DCMA policy and fully establish links between the memorandum of
agreement performance metrics and the project manager’s desired outcomes.
Additionally, the commander did not fully describe DCMA activities to support the
SLAMRAAM program in the surveillance plan nor establish letters of delegation with
other DCMA contract management offices for surveillance of all SLAMRAAM
subcontractors. Until the commander and the project manager implement those actions,
the commander will not be able to provide the project manager with the most informed
recommendations regarding contractor progress towards attaining contract cost, schedule,
and performance requirements (finding C).

The SLAMRAAM Product Office changed to an information assurance strategy that does
not comply with issued and approved DoD information assurance requirements.
Specifically, the product office, as directed, was following the DoD Information
Assurance Certification and Accreditation Program guidance that was in coordination
within DoD but not approved for implementation in DoD. The DoD Information
Technology Security Certification and Accreditation Process remains the official DoD
information assurance guidance. Until the DoD Information Assurance Certification and
Accreditation Program guidance is properly coordinated and approved, the product office
places the information contained in the SLAMRAAM system at greater risk of loss,
misuse, unauthorized access, or modification (finding D).

The problems described in our findings resulted from material internal control
weaknesses in the management of the SLAMRAAM. The Background section discusses
these material internal control weaknesses.

Management Comments and Audit Response. We received comments from the
Acting Director, Defense Contract Management Command; the Army Project Manager,
Cruise Missile Defense System; and the Army Director of Combat Developments, U.S.
Army Air Defense Artillery School. We did not receive comments from the Army Chief
Information Officer.

The Acting Director, Defense Contract Management Agency and the Project Manager,
Cruise Missile Defense System concurred with, or proposed actions meeting the intent of,
recommendations for updating the memorandum of agreement between their
organizations to reference current policy and guidance and to establish an annex linking
performance metrics and standards to the customer-desired outcome for the
SLAMRAAM. The Acting Director nonconcurred with making surveillance plans or
activity annexes a mandatory part of the memorandums of agreement with acquisition
program managers. He stated that the Defense Contract Management Agency would
instead use strategies contained in the individual performance plans of functional
specialists to ensure execution of activities to achieve performance commitments. The
Army Project Manager, Cruise Missile Defense System concurred with revising the draft
systems engineering plan to include entrance and success criteria for planned technical
reviews and a full description of the systems engineering processes applied to the
SLAMRAAM. The project manager did not provide comments on a recommendation to
                                           ii
                        FOR OFFICIAL USE ONLY
return to following the DoD Information Technology Security Certification and
Accreditation Process in developing the SLAMRAAM. Though not required to
comment, the project manager concurred with revising the draft capability production
document for the SLAMRAAM to establish measurable and testable capability
requirements but nonconcurred with defining the ******************************
*********************************** as a key performance parameter. The Army
Director of Combat Developments, U.S. Army Air Defense Artillery School concurred
with revising the draft capability production document to define ******************
********************************************************************and
to establish measurable and testable capability requirements.

In response to the Acting Director, Defense Contract Management Agency comments, we
provided additional information concerning the advantages of including surveillance
plans or activities annexes in memorandums of agreement with acquisition program
managers. See the Findings Section of the report for a discussion of management
comments on the recommendations and Appendix C for a discussion of management
comments on the report.

Accordingly, we request that the Acting Director, Defense Contract Management
Agency; the Army Chief Information Officer; and the Product Manager, Surface-
Launched Advanced Medium-Range Air-to-Air Missile comment on the final report by
January 8, 2008.
∗




∗
    Freedom of Information Act Exemption Number 5, which includes internal advice, recommendations, and
    subjective evaluations, as stated in Army Regulation 25-55, “The Department of the Army Freedom of
    Information Act Program,” November 1, 1997.

                                                   iii
Table of Contents 


Executive Summary                                                               i


Background                                                                      1


Objectives                                                                      2


Review of Internal Controls                                                     2


Findings
     A. Defining Capability Requirements                                        4

     B. Planning for Systems Engineering                                        9

     C. Establishing Defense Contract Management Agency Support 

          Responsibilities                                                     13
     D. Implementing Information Assurance Guidance                            20 


Appendixes
     A.    Scope and Methodology                                               24 

     B.    Measurable and Testable Capability Requirements                     25 

     C.    Audit Response to Management Comments on the Report                 29 

     D.    Report Distribution                                                 36 


Management Comments
     Defense Contract Management Agency                                        39 

     Department of the Army 

          Project Manager, Cruise Missile Defense System                       45 

          Director of Combat Developments, U.S. Army Air Defense Artillery 

          School                                                               57




                       FOR OFFICIAL USE ONLY

                 Source: SLAMRAAM Product Office

Fire Unit With AMRAAMs, IFCS, Sentinel Radar, and IFCS Cockpit
(clockwise from top left)




              FOR OFFICIAL USE ONLY

Background
    The Army Surface-Launched Advanced Medium-Range Air-to-Air Missile
    (SLAMRAAM) is a major system that is in the system development and
    demonstration phase of the acquisition process; a low-rate initial production
    (LRIP) decision is planned for FY 2010.

    Mission and System Description. The SLAMRAAM is an air defense system
    that the Army is developing to protect U.S. and friendly forces from aerial
    surveillance and air attack by cruise missiles, unmanned aerial vehicles,
    unmanned combat aerial vehicles, and rotary- and fixed-wing aircraft. The
    SLAMRAAM will provide the Army with the means to prevent enemies from
    penetrating friendly forces, while freeing commanders to synchronize movement
    and firepower. The Army will employ the SLAMRAAM in units that are
    integrated in a netted and distributed architecture linked to other Army,
    interagency, joint, and multinational forces.

    The SLAMRAAM includes four subsystems: the fire unit, the integrated fire
    control station (IFCS), the Advanced Medium-Range Air-to-Air Missile
    (AMRAAM), and the Sentinel Radar. The Product Manager for SLAMRAAM is
    developing the fire unit and the IFCS and integrating the AMRAAM and the
    Sentinel Radar into the SLAMRAAM as Government-furnished equipment.

           •   Fire Unit. The fire unit, a highly mobile and transportable launcher,
               will consist of a ready-to-fire missile load of   AIM-120 series
               AMRAAMs mounted on a high-mobility multipurpose wheeled
               vehicle. The fire unit will be manned by two combat-equipped
               soldiers.

           •   IFCS. The IFCS, which will perform battle management functions,
               consists of a shelter, with two workstations, mounted on a high-
               mobility multipurpose wheeled vehicle.

           •   AMRAAM. The SLAMRAAM will fire AIM-120 series AMRAAM
               missiles that are currently used in air-to-air combat engagements. The
               AMRAAM is a supersonic, guided missile that uses active radar target
               acquisition, proportional navigation guidance, and active target
               tracking.

           •   Sentinel Radar.



    The Army plans to incrementally replace Stinger-based air defense systems in
    inventory with SLAMRAAMs to provide an increased battlespace defense against
    cruise missiles, unmanned aerial vehicles, fixed-wing, and rotary-wing aircraft.

    Program Management. The Product Manager for SLAMRAAM is developing
    the SLAMRAAM for the Project Manager, Cruise Missile Defense Systems
    (CMDS). The project manager is responsible for equipping the transformation of
                                         1
                      FOR OFFICIAL USE ONLY
           the existing maneuver air and missile defense capability into an integrated air and
           missile defense system of systems. In addition to SLAMRAAM, the following
           CMDS programs will be part of this system of systems: Joint Land Attack Cruise
           Missile Defense Elevated Netted Sensor System, Stinger-Based Avenger and
           Man-Portable Air Defense System, and directed energy applications. The Army
           Acquisition Executive delegated the milestone decision authority responsibility
           for the SLAMRAAM Program to the Program Executive Officer, Air and Space
           Missile Defense,1 on September 16, 2003.

           Program Rebaseline. As a result of schedule delays, the Product Manager for
           SLAMRAAM is in the process of rebaselining and replanning the SLAMRAAM
           Program. In January 2006, the SLAMRAAM Program was scheduled for an
           LRIP decision in FY 2009, but the LRIP decision has now slipped to FY 2010.
           The SLAMRAAM staff stated that the factors causing the LRIP decision slip
           were contractor difficulties in following established engineering processes,
           Congress denying requests for additional funding in July and September 2006,
           and funding losses resulting from the U.S. Marine Corps leaving the
           SLAMRAAM Program in September 2006.

           Funding and Contract Data. As of July 2007, the program’s funding to develop
           and procure the system totaled $622.5 million, with $208.3 million in research,
           development, test, and evaluation funds and $414.2 million for procurement of
           hardware (including 69 fire units, 35 IFCSs, 55 AMRAAMs, and 30 sensor kits to
           be installed on the Sentinel Radar). The U.S. Army Aviation and Missile
           Command awarded a contract to Raytheon on February 26, 2004, for $127 million
           to develop the SLAMRAAM. Through November 2006, the Army increased the
           contract value to $181.8 million through 86 contract modifications.


Objectives
           The audit objective was to evaluate the overall management of the Army
           SLAMRAAM Program. Because the program is in the system development and
           demonstration phase, we determined whether management was cost effectively
           preparing the program for the LRIP decision program review. We also evaluated
           the manager’s internal controls as they related to the audit objectives. See
           Appendix A for a discussion of the audit scope and methodology.


Review of Internal Controls
           We determined that material internal control weaknesses existed in the
           management of the SLAMRAAM, as defined by DoD Instruction 5010.40,
           “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. The
           DoD 5000 series of guidance requires the product manager to exercise discretion

1
    In January 2005, Program Executive Office for Air, Space and Missile Defense merged with the Program
    Executive Office for Tactical Missiles to become the Program Executive Office for Missiles and Space.

                                                     2
                               FOR OFFICIAL USE ONLY
and prudent business judgment in structuring a tailored, responsive, and
innovative program. Planning the progression of SLAMRAAM from
development into LRIP without having the user fully defining system capability
requirements, completing system engineering planning requirements, efficiently
and effectively using the program surveillance resources of the Defense Contract
Management Agency (DCMA), and planning to use, as directed, unapproved
information assurance guidance comprise less than prudent business practices.
Implementing our recommendations will improve internal controls by ensuring
that the Army more cost effectively and efficiently readies the SLAMRAAM
program for LRIP. We will provide a copy of this report to the senior Army
official responsible for internal controls in the Department of the Army.




                                    3
                 FOR OFFICIAL USE ONLY
            A. Defining Capability Requirements

            The Director of Combat Developments (DCD), U.S. Army Air Defense
            Artillery School had not yet sufficiently defined capability requirements
            for the SLAMRAAM in the draft capability production document (CPD)
            being prepared for Army staffing to support the LRIP decision program
            review planned for FY 2010. Specifically, the draft CPD did not identify
            system effectiveness as a key performance parameter, and did not fully
            define measurable and testable capability requirements for


                           The shortfalls in defining system capabilities in the draft
            CPD occurred because the DCD staff did not adhere to established
            Chairman of the Joint Chiefs of Staff (CJCS) policy for defining system
            capability requirements. Without CPD revision, the Army will be
            hindered in its ability to ensure that the SLAMRAAM satisfies essential
            warfighter capability requirements.


Policies, Procedures, and Guidance for Defining Capability
  Requirements
     The DoD has established policies, procedures, and guidance for defining
     capability requirements for developing weapon systems.

     Policies and Procedures. CJCS Instruction 3170.01F, “Joint Capabilities
     Integration and Development System,” May 1, 2007, and CJCS Instruction
     6212.01D, “Interoperability and Supportability of Information Technology and
     National Security Systems,” March 8, 2006, establish DoD policies and
     procedures for defining system capability requirements through the Joint
     Capabilities Integration and Development System.

     Guidance. CJCS Manual 3170.01C, “Operation of the Joint Capabilities
     Integration and Development System,” May 1, 2007, provides guidance and
     procedures for implementing the Joint Capabilities Integration and Development
     System.


Defining Requirements in the Capability Production
  Document
     As of July 2007, DCD was developing the draft “Capability Production
     Document for SLARMRAAM Increment I,” (undated) for Army staffing to
     support the LRIP decision planned for FY 2010. As drafted, the CPD did not

                                          4
                      FOR OFFICIAL USE ONLY
identify system effectiveness as a key performance parameter nor fully define
measurable and testable capability requirements.

System Effectiveness as a Key Performance Parameter. The CJCS Manual
3170.01C states that key performance parameters are performance attributes of a
system considered critical or essential to the development of an effective military
capability and make a significant contribution to the key characteristics of the
program. The manual states that failure to meet the threshold or minimum
performance value of a key performance parameter may result in management
revaluating the program or modifying production increments.

Although system effectiveness is essential to developing a military capability for
SLAMRAAM,




             These probabilities comprise:




During the audit, DCD staff stated that they intended for system effectiveness to
be a key performance parameter but that the SLAMRAAM Product Office
questioned this intention. DCD staff stated that the SLAMRAAM Product Office
questioned establishing system effectiveness as a key performance parameter
because SLAMRAAM system effectiveness was directly related to proven
capabilities of the Government-furnished AMRAAM, which the product office
had no influence over.



                                     5
                  FOR OFFICIAL USE ONLY
    Because system effectiveness is an extremely important performance attribute, the
    combined probability
    which the product manager can influence, needs to be included as a key
    performance parameter in the CPD. The SLAMRAAM could fully meet all key
    performance parameters identified in the draft CPD,
                                                                             and still
    be of little value, if it cannot meet system effectiveness requirements.

    Measurable and Testable Capability Requirements. CJCS Instruction
    3170.01F requires that the CPD define projected capabilities with sufficient
    accuracy to begin production. Additionally, the CJCS Manual 3170.01C states
    that the CPD should present performance attributes in measurable and testable
    terms. However, as drafted, the CPD did not contain measurable and testable
    requirements for portions of two key performance parameters and six other
    performance attributes that are identified in Appendix B. This condition occurred
    because the DCD staff did not adhere to guidance in the CJCS Manual 3170.01C
    for defining key performance parameters and performance attributes. DCD still
    has time to better define these capability requirements because it still has not
    forwarded the draft CPD to the U.S. Army Training and Doctrine Command for
    review. Appendix B provides descriptions of the key performance parameters
    and performance attributes that DCD needs to define in measurable and testable
    terms in the draft CPD.


Conclusion
    Imprecisely defined capability requirements in the draft CPD would hinder the
    Army in its ability to ensure that the SLAMRAAM satisfies essential warfighter
    capability requirements before the LRIP decision. By identifying the probability
    of                                                        as a key performance
    parameter, rather than a performance attribute, Army acquisition managers can
    increase the value given to system performance when making the LRIP program
    decision. Further, defining capability requirements in the CPD in measurable and
    testable terms will enable the Army to fully verify that the SLAMRAAM will
    provide the capabilities the warfighter needs before the LRIP program decision.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our response are in
    Appendix C.




                                        6
                     FOR OFFICIAL USE ONLY
Recommendation, Management Comments, and Audit
  Response
    A. We recommend that the Director of Combat Developments, U.S. Army
    Air Defense Artillery School revise the draft capability production document
    for the Surface-Launched Advanced Medium-Range Air-to-Air Missile in
    accordance with policy in Chairman Joint Chiefs of Staff Instruction
    3170.01F, “Joint Capabilities Integration and Development System,” May 1,
    2007, to define the probability of
               as a key performance parameter; and to establish measurable and
    testable capability requirements for



    Director of Combat Developments Comments. The Director of Combat
    Developments, U.S. Army Air Defense Artillery School partially concurred,
    stating that implementing the recommendations would address the reported
    weaknesses in capability development. Specifically, the director concurred with
    revising the draft CPD to define the probabilities of
                           as a key performance parameter and to establish
    measurable and testable capability requirements for

                                                 The director partially concurred with
    establishing measurable and testable capability requirements for
    stating that the                  in the draft CPD should include




    Audit Response. The director’s planned revisions to the draft CPD are
    responsive to the recommendation.

    Project Manager, Cruise Missile Defense System Comments. Although not
    required to comment, the Project Manager, CMDS stated that, while
                                          do contribute to system effectiveness, they
    do not need to be a key performance parameter. The project manager stated that
    making                                             a key performance parameter
    would be of marginal value since the Army has not demonstrated the performance
    of these elements within a SLAMRAAM system. Thus, the project manager
    stated that system effectiveness should remain a performance attribute that the
    Army will quantify at the LRIP decision as end-to-end performance, including the
    sensor and missile performance. The project manager further stated that he
    agreed that the CPD should state all capability requirements in measurable,
    testable terms.

    Audit Response. As we discuss in the finding, CJCS Manual 3170.01C states
    that key performance parameters are critical or essential performance attributes in
    the development of an effective military capability and significantly contribute to
    the key characteristics of a program. Because system effectiveness is essential to

                                         7
                      FOR OFFICIAL USE ONLY
developing a military capability for the SLAMRAAM, the project manager’s
statement that the performance of the
has not been demonstrated within a SLAMRAAM system does not support
keeping systems effectiveness as a performance attribute. Instead, the project
manager’s comments could support an argument to make overall system
effectiveness a key performance parameter, since the Army has not demonstrated
the performance of the SLAMRAAM system.




                                   8
                 FOR OFFICIAL USE ONLY
           B. Planning for Systems Engineering 

           The Product Manager for SLAMRAAM was in the process of developing
           a systems engineering plan (SEP) to support its systems engineering
           management approach for SLAMRAAM. In the meantime, the product
           manager was using the contractor’s systems engineering management plan
           (SEMP) that did not include key information needed to effectively manage
           the contractor’s systems engineering efforts. Specifically, the SEMP did
           not define entrance and success criteria for planned technical reviews.
           Additionally, the SEMP did not fully define the systems engineering
           processes the product manager was applying. These conditions occurred
           because the product manager did not timely implement DoD guidance for
           developing a SEP to manage its systems engineering. As a result, the
           product manager did not avail the program office with a systems
           engineering management approach needed to cost effectively manage,
           develop, and integrate the system to fully meet program requirements.


Systems Engineering Policy and Guidance
    Policy. DoD acquisition systems engineering policy is provided in DoD
    Directive 5000.1, “The Defense Acquisition System,” May 12, 2003; DoD
    Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12,
    2003; and in two memorandums that the Under Secretary of Defense for
    Acquisition, Technology, and Logistics [USD(AT&L)] issued in 2004 to clarify
    systems engineering policy. The two policy memorandums are planned for
    inclusion in the next update of DoD Instruction 5000.2.

           DoD Directive 5000.1. The directive requires that program managers
    apply a systems engineering approach that optimizes system performance and
    minimizes ownership costs to manage acquisition programs.

            DoD Instruction 5000.2. The instruction emphasizes the requirement for
    using systems engineering to operate and support the system in the most cost-
    effective manner over its total life cycle. It states that the effective sustainment of
    weapon systems begins with the design and development of reliable and
    maintainable systems through the continuous application of a robust systems
    engineering methodology.

            USD(ATL) Memorandum, “Policy for Systems Engineering in DoD,”
    February 20, 2004. The memorandum requires that program managers for all
    acquisition programs develop a SEP integrated with the acquisition strategy for
    all milestone decisions. Specifically, the memorandum states that all programs,
    regardless of acquisition category, shall apply a robust systems engineering
    approach that balances total system performance and total ownership costs within
    the family-of-systems context. The SEP should describe the program’s overall
    technical approach, applicable performance incentives, and success criteria for
    technical reviews.

                                           9
                      FOR OFFICIAL USE ONLY
            USD(ATL) Memorandum, “Policy Addendum for Systems
    Engineering,” October 22, 2004. The memorandum requires that the SEP
    contain event-driven, rather than schedule-driven, criteria for holding technical
    reviews that evaluate program progress. Specifically, the memorandum requires
    that program managers conduct technical reviews only when the system under
    development meets the review entrance criteria documented in the SEP.

    Guidance. In addition to the above policy, the USD(AT&L) issued the guidance
    memorandum, “Implementing Systems Engineering Plans in DoD – Interim
    Guidance,” March 30, 2004, to help program managers in preparing SEPs. The
    memorandum recommends that program managers establish the SEP early in the
    program’s life cycle to guide all technical aspects of an acquisition program and
    then update the plan as the program progresses through the acquisition
    milestones. In addition, the memorandum states that the SEP supports program
    management by defining comprehensive Government and contractor systems
    engineering activities and responsibilities. The memorandum further states that
    the SEP describes the program’s overall technical approach by defining the
    systems engineering processes, metrics, use of technical reviews, and criteria for
    successful technical reviews.


Developing the Systems Engineering Plan
    Early during the audit, in November 2006, SLAMRAAM Product Office
    personnel stated they did not have a SEP to support the systems engineering
    process for the SLAMRAAM in accordance with USD(AT&L) guidance. The
    SLAMRAAM Product Office staff stated that while they had started working
    towards a SEP, they did not have a draft version of the SEP for us to review. In
    the meantime, the SLAMRAAM Product Office staff was using the contractor-
    developed “Surfaced Launched AMRAAM (SLAMRAAM) Systems Engineering
    Management Plan (SEMP),” October 10, 2005, to support the systems
    engineering process for the program. This SEMP did not fully meet the
    requirements of the SEP because it did not include key information that DoD
    systems engineering policy and guidance requires or encourages project managers
    to define. Specifically, the SEMP did not include event-driven entrance and
    success criteria for planned technical reviews, as required respectively by the
    October 22, 2004, and the February 20, 2004, USD(AT&L) policy
    memorandums. Additionally, the SEMP did not fully define systems engineering
    processes that the product manager was applying as specified in the March 2004
    USD(AT&L) memorandum regarding the contents of the SEP. The limitations of
    the contractor-developed SEMP as compared to the requirements in the DoD
    policy and guidance are discussed below.

    Technical Reviews. The SEMP did not define event-driven entrance and success
    criteria for planned technical reviews, including a system requirements review, a
    system design review, a critical design review, and a test readiness review.
    Technical reviews measure contractor progress toward attaining well-defined
    technical, cost, and schedule goals; assess system technical maturity and risk; and
    provide information to support program decisions. Including entrance and
    success criteria for the technical reviews specified in the SEMP would help the
                                        10
                      FOR OFFICIAL USE ONLY
    product manager to better ensure that technical reviews are held only when
    program accomplishments make them warranted and meaningful in measuring
    program results.

    Systems Engineering Process. The contractor-developed SEMP did not fully
    define all systems engineering processes applied to the SLAMRAAM.
    Specifically, the SEMP only identified the processes that the contractor initially
    planned to complete during the system development and demonstration phase of
    the acquisition process and the contractor had not updated it to implement the
    results of the completed engineering processes, such as the system requirements
    review. Prepared and validated as required, the product office SEP would have
    identified key systems engineering processes during the system development and
    demonstration phase, included updates based on completed technical reviews, and
    described how the systems engineering process would support the technical
    products of each acquisition phase.


Product Manager Actions Since November 2006
    The SLAMRAAM Product Manager prepared a draft, “Surface Launched
    Advanced Medium Air-to-Air Missile System (SLAMRAAM) Systems
    Engineering Plan (SEP) Revision 0 Supporting Milestone C,” that was dated
    June 18, 2007. As written, however, the draft SEP did not comply with
    USD(ATL) policy and guidelines because it did not include event-driven
    technical reviews, with entrance and success criteria and did not fully describe the
    systems engineering processes applied to the SLAMRAAM.


Factors Affecting Development of the SEP
    Because the system development and demonstration decision for SLAMRAAM
    was held in September 2003 and pre-dated the February 2004 requirements to
    develop a SEP, the Product Manager, SLAMRAAM chose to rely on the
    contractor’s SEMP to manage the systems engineering process. Since
    February 2004, the product manager did not respond to USD(AT&L) guidance
    issued in 2004 by timely and proactively establishing a SEP early in the
    program’s life cycle to guide all technical aspects of the program.


Conclusion
    As a result of not developing a SEP to manage systems engineering, the product
    manager did not avail the program office with a systems engineering management
    approach needed to cost effectively manage, develop, and integrate the system to
    fully meet program requirements. While the February 20, 2004, USD(AT&L)
    policy memorandum did not require the product manager to complete a SEP until
    the next acquisition milestone review (LRIP is planned in FY 2010 for
    SLAMRAAM), the March 30, 2004, guidance memorandum clearly explained the
                                         11
                      FOR OFFICIAL USE ONLY
    benefits of preparing a SEP early in the program’s life cycle. Specifically, a SEP
    would provide the product manager with a well-defined systems engineering
    process for the SLAMRAAM. In addition, a SEP would include event-driven
    technical reviews with defined entrance and success criteria, thus helping the
    product manager to more effectively manage the systems engineering process.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our response are in
    Appendix C.


Recommendation, Management Comments, and Audit
  Response
    B. We recommend that the Product Manager, Surface-Launched Advanced
    Medium-Range Air-to-Air Missile revise the draft systems engineering plan
    to establish a comprehensive systems engineering plan (in accordance with
    Under Secretary of Defense for Acquisition, Technology, and Logistics
    memorandums, “Policy for Systems Engineering in DoD,” February 20,
    2004; “Policy Addendum for Systems Engineering,” October 22, 2004; and
    “Implementing Systems Engineering Plans in DoD – Interim Guidance,”
    March 30, 2004) that includes planning for technical reviews that are event-
    driven, with entrance and success criteria, and fully describes the systems
    engineering processes applied to the Surface-Launched Advanced Medium-
    Range Air-to-Air Missile.

    Management Comments. The Project Manager, Cruise Missile Defense System,
    responding for the Product Manager, Surface-Launched Advanced Medium-
    Range Air-to-Air Missile, concurred. He stated that the SEP has been and will
    continue to be prepared in accordance with Under Secretary of Defense for
    Acquisition, Technology, and Logistics memorandums: “Policy for Systems
    Engineering in DoD,” February 20, 2004; “Policy Addendum for Systems
    Engineering,” October 22, 2004; and “Implementing Systems Engineering Plans
    in DoD – Interim Guidance,” March 30, 2004.

    Audit Response. The project manager’s commitment to preparing the SEP in
    accordance with applicable policy and guidance is responsive to the
    recommendation.




                                        12
                     FOR OFFICIAL USE ONLY
    C. Establishing Defense Contract
    Management Agency Support Responsibilities
           The Commander, Defense Contract Management Agency (DCMA), Space
           Sensors and Communications Operations, Raytheon Integrated Defense
           Systems and the Project Manager, Cruise Missile Defense System
           (CMDS) did not adequately establish and document needed DCMA
           support in the memorandum of agreement (MOA) for the SLAMRAAM
           Program. Specifically, the MOA did not reference current DCMA policy
           and fully establish links between the MOA performance metrics and the
           project manager’s desired outcomes for the SLAMRAAM Program.
           Additionally, the commander did not fully describe DCMA activities to
           support the SLAMRAAM Program in a surveillance plan and establish
           letters of delegation (LOD) with other DCMA contract management
           offices for surveillance at three of four SLAMRAAM subcontractors.
           These conditions occurred because the commander did not completely
           adhere to provisions in the Federal Acquisition Regulation, the DCMA
           Instruction, and the DCMA Guidebook for preparing an MOA,
           formulating a surveillance plan, and establishing LODs. As a result,
           DCMA did not have information needed to provide the project manager
           with the most informed recommendations regarding contractor progress
           toward attaining contract cost, schedule, and performance requirements.


Regulations and Guidance for Defense Contract Management
  Agency Support
    Federal and DCMA regulations and guidance define the DCMA role in
    supporting the program manager’s development of weapon systems.

    Federal Acquisition Regulation. Federal Acquisition Regulation 42.302,
    “Contract Administration Functions,” specifies the contract administration
    functions that Federal organizations normally delegate to contract administration
    offices. Those contract administration functions include program status reporting;
    assessing contractor compliance with contract terms; surveilling contractor
    engineering efforts and management systems; and reviewing and evaluating the
    contractor’s logistic support, maintenance, and modification programs.

    DCMA Policy and Guidance. The DCMA Instruction and Guidebook provide
    mandatory policy and guidance for performing the contract management
    functions listed in the Federal Acquisition Regulation. Specifically, they provide
    the DCMA staff with direction for performing outcome-based program
    management support for DoD acquisition programs, including direction for:

           •	 establishing MOAs with program managers that focus on desired
              program outcomes,


                                        13
                     FOR OFFICIAL USE ONLY
                 •	 establishing surveillance plans detailing the tasks necessary to meet
                    the provisions of the MOA, and

                 •	 establishing and managing program support teams led by program
                    integrators to carry out the tasks documented in the surveillance plan.


Defense Contract Management Agency Support for
  SLAMRAAM
          The DCMA provided the Project Manager, CMDS with program status reports in
          accordance with the May 2006 MOA. However, the commander and the project
          manager did not adequately establish and document needed DCMA support in the
          May 2006 MOA for the SLAMRAAM Program. Specifically, the MOA did not
          reference the current DCMA regulation and guidance or include required links
          between the MOA performance metrics and the project manager’s desired
          program outcomes. Additionally, the commander did not fully describe DCMA
          activities to support the program in a surveillance plan and establish LODs with
          other contract management offices for surveillance at three subcontractors.

          Preparing the Memorandum of Agreement. The approved “Memorandum of
          Agreement Between the Cruise Missile Defense Systems (CMDS) Project Office,
          Redstone Arsenal, AL and the DCMA Raytheon Integrated Defense Systems –
          Tewksbury and Andover, MA,” May 1, 2006, did not conform to the DCMA
          Instruction. Specifically, the MOA referenced the expired One Book2 rather than
          the current DCMA Instruction and DCMA Guidebook, and did not include an
          annex showing the cause-and-effect analysis that links each MOA performance
          metric and standard to the customer desired outcomes.

                  Applicable Policy and Guidance. On May 24, 2004, DCMA transitioned
          from the DCMA One Book to the DCMA Instruction and DCMA Guidebook for
          performing contract management functions. DCMA officials stated that the new
          DCMA program guidance allowed DCMA to implement performance-based
          management in accomplishing its program support function. The DCMA officials
          stated that performance-based management enables DCMA to more efficiently
          use limited resources to support program managers by establishing performance
          metrics and standards in the MOA to focus and measure DCMA’s efforts in
          helping customers meet their desired outcomes. Accordingly, the commander and
          the project manager need to update the MOA to reference and apply the
          appropriate DCMA policy and guidance to more efficiently use resources in
          support of the SLAMRAAM Program.

                  Cause-and-Effect Analysis Annex. The DCMA Instruction requires
          MOAs to include an annex that documents a cause-and-effect analysis to link
          MOA performance metrics and standards to customer-desired outcomes. The
          MOA did not include a cause-and-effect analysis that linked performance metrics
          to customer-desired outcomes for the SLAMRAAM Program. As a result,
2
    The DCMA One Book that contained DCMA policy was cancelled in May 2004.

                                               14
                            FOR OFFICIAL USE ONLY
DCMA could better support the program manager by focusing its limited
resources on performance metrics and standards to help the customer achieve its
desired outcomes and enable the project manager to provide informed
recommendations on contractor performance.

Describing Activities to Support Program. The DCMA Guidebook
recommends that surveillance plans, as part of the MOA, prioritize DCMA
support of an acquisition program, and identify what, when, where, and how the
DCMA staff will support the program manager. The DCMA Instruction also
recommends that the MOA include performance metrics, performance standards,
and activities to support surveillance in activity annexes in the MOA. While the
MOA contained performance metrics and activities needed to support DCMA
surveillance, it did not prioritize DCMA efforts in support of the SLAMRAAM
Program, include performance standards to implement the performance metrics,
nor specify who was responsible for specific activities.

Actions to Improve the Quality of Surveillance Plans. To help DCMA
contract management offices plan and track surveillance support activities,
DCMA Headquarters was developing the Electronic Data Management System, a
Web-based management tool that will link surveillance plan policies, processes,
methods, standards, and controls to assure accountability, integration, and
configuration control. DCMA staff stated that contract management offices will
be required to use the Electronic Data Management System, but will be able to
tailor the surveillance plan for their acquisition programs.

DCMA was developing and integrating the Electronic Data Management System
in three phases. In the first phase, DCMA will store commitments, resource
requirements, and program objective memorandum data. In the second phase,
DCMA will distribute the application to contract management offices and refine
deficiencies. In the third phase, DCMA headquarters will set policies,
procedures, and controls for the integration of all management systems and
databases. Further, DCMA will integrate the systems and databases to support
contract management office surveillance of acquisition programs by including
applications that record performance metrics, performance commitments, and
activities. DCMA staff stated that implementation of the three phases will take at
least 5 years.

Because full implementation of the Electronic Data Management System is at
least 5 years away, DCMA plans to continue using surveillance plans or activity
annexes as part of MOAs to describe surveillance activities to support acquisition
programs. Although DCMA plans to require contract management offices to use
the Electronic Data Management System to link surveillance activities for all
acquisition programs supported under MOAs, DCMA did not establish a
mandatory requirement for contract management offices to use surveillance plans
or activity annexes in the interim. To ensure that program offices obtain needed
contractor administration surveillance support, DCMA needs to require contract
management offices to include a surveillance plan or activity annexes, tailored to
the acquisition program supported, as part of all MOAs until the Electronic Data
Management System is implemented. Without a tailored surveillance plan or
activity annexes in the MOA, contract management offices cannot ensure that
DCMA resources are used effectively to achieve customer-desired outcomes.
                                    15
                 FOR OFFICIAL USE ONLY
Establishing Letters of Delegation. The DCMA Instruction states that LODs
will specify the administrative requirements, performance commitments, and
support between DCMA contract management offices. The DCMA staff at Space
Sensors and Communications Operations did not establish LODs to support the
SLAMRAAM Product Manager with DCMA contract management offices
located at or near three of the four SLAMRAAM subcontractor facilities.

       •	 Boeing Huntsville. Boeing Huntsville developed the prototype IFCS.
          DCMA staff stated that the commander did not approve a draft LOD
          with DCMA, Boeing Huntsville because it was not written in
          customer-desired outcome terms. In February 2007, the DCMA
          Program Integrator for SLAMRAAM stated that Boeing had
          completed the current contract, as Boeing had delivered the five IFCS
          prototypes under contract. The original contract cost for developing
          the IFCS prototypes was $18.9 million and the actual cost was
          $31.5 million.

       •	 Raytheon Network Centric Systems. Raytheon Network Centric
          Systems was developing the software for integration of the enhanced
          position location reporting system radio. DCMA staff stated that an
          LOD was not established with Raytheon Network Centric because the
          subcontractor was developing software for use on Government-
          furnished equipment. DCMA staff stated that Raytheon Network
          Centric Systems cost at completion was $4.2 million, but were unable
          to provide documentation to support this statement.

       •	 Thales Raytheon Systems. Thales Raytheon Systems was developing
          software for integration of the Sentinel Radar as part of the
          SLAMRAAM. DCMA staff stated that an LOD was not established
          with Thales Raytheon Systems because the subcontractor was also
          developing software for use on Government-furnished equipment.
          DCMA stated that the cost at completion was $4.0 million, but were
          unable to provide documentation to support this statement.

With regard to the Boeing subcontract, the DCMA Program Integrator for
SLAMRAAM stated that through an LOD she could have provided more
complete reporting and analysis on the IFCS to the Project Manager, CMDS.
Specifically, while a DCMA support program integrator at Boeing Huntsville
stated that he provided the project manager with regular reports and analysis of
Boeing’s progress on the IFCS, he stated that, without an approved LOD, his
reporting was informal and did not include earned value management cost and
schedule analysis. Although the Raytheon subcontractors were working on
Government-furnished equipment, they were developing the software for
integration of the equipment in the SLAMRAAM Program. Therefore, we
believe that the formalized reporting, to include earned value management, that
the DCMA support program integrator at Boeing Huntsville could have provided




                                   16
                 FOR OFFICIAL USE ONLY
    under an LOD would have given the project manager more meaningful
    information on the subcontractors’ progress towards satisfying SLAMRAAM
    cost, schedule, and performance requirements.

    The staff at DCMA Space Sensors and Communications Operations did establish
    an LOD with DCMA International Northern Europe to oversee the development
    of software by Kongsberg Defence and Aerospace. As a result, the DCMA
    Program Integrator for SLAMRAAM was kept up-to-date on Kongsberg Defence
    and Aerospace’s cost, schedule, and performance against contract requirements.


Conclusion
    Without a focused and comprehensive MOA, supported by a surveillance plan
    and LODs, DCMA staff were not in a position to provide the Project Manager,
    CMDS with the most timely and meaningful insights and recommendations
    regarding the contractor progress toward attaining cost, schedule, and
    performance contract requirements for SLAMRAAM. The project manager needs
    this information to make informed decisions concerning the SLAMRAAM
    Program.


Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our response are in
    Appendix C.


Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Commander, Defense Contract Management
    Agency and the Project Manager, Cruise Missile Defense Systems revise the
    memorandum of agreement for the Surface-Launched Advanced Medium-
    Range Air-to-Air Missile to:

           a. Reference the current Defense Contract Management Agency
    Instruction and Defense Contract Management Agency Guidebook; and

           b. Include an annex that documents a cause-and-effect analysis
    linking Defense Contract Management Agency performance metrics and
    standards to the customer-desired outcome, in accordance with the Defense
    Contract Management Agency Instruction.

    Defense Contract Management Agency Comments. The Acting Director,
    Defense Contract Management Agency responding for the Commander,
    concurred. He stated that DCMA, Space Sensors and Communications

                                      17
                    FOR OFFICIAL USE ONLY
Operations, Raytheon Integrated Defense Systems was updating the MOA in
accordance with the current agency guidelines and instructions. The acting
director estimated that the MOA would be updated and completed by the first
quarter of FY 2008.

Army Comments. The Project Manager, Cruise Missile Defense System,
responding for the Product Manager, Surface-Launched Advanced Medium-
Range Air-to-Air Missile, concurred, stating that CMDS and DCMA were
establishing a new MOA, based on 2007 DCMA guidance, which will reflect the
more recent changes DCMA has made to the performance-based management
process since the MOA was issued in May 2006.

Audit Response. The acting director’s and project manager’s plans to establish
an updated MOA, based on current DCMA guidelines and instructions, are
responsive to the recommendation.

C.2. We recommend that the Acting Director, Defense Contract
Management Agency update the Defense Contract Management Agency
Instruction to require that memorandums of agreement with acquisition
program managers to include surveillance plans or activity annexes that
prioritize Defense Contract Management Agency support; performance
metrics and standards; and identify what, when, where, and how the Defense
Contract Management Agency staff provides surveillance until the
Electronic Data Management System is completed.

Management Comments. The Acting Director, Defense Contract Management
Agency nonconcurred. He stated that DCMA policy does not require the
inclusion of the performance commitment strategy (surveillance plan) in the
MOAs they execute with their customers, because their commitment is not to the
activities that make up the strategy, but to the results noted in the body of the
MOA. He stated that, if DCMA made the inclusion of Annex E mandatory, then
DCMA would be committed not only to the desired results, but to a strategy that
may need to change, if analysis shows that progress toward the desired results
was not satisfactory. He stated that, while the inclusion of Annex E is not
mandatory in the MOA, DCMA does require that contract management offices
execute strategies to achieve their performance commitments. Therefore, he
stated that DCMA chose to use strategies contained in the individual performance
plans of its functional specialists to ensure execution of the activities needed to
achieve performance commitments. By documenting the strategies in this
fashion, the acting director stated that DCMA makes execution a direct linkage
between the organizational performance commitments and the factors that
determine performance of the DCMA workforce. He stated that this linkage of
organizational and individual performance makes the DCMA’s performance-
based management approach focused on appropriate priorities and “self-
governing.”

Audit Response. The acting director’s comments did not adequately address the
recommendation. The use of surveillance plans or activity annexes offers
significant advantages over using the strategies contained in the individual
performance plans of the functional specialists to ensure that the specialists
execute the activities needed to achieve performance commitments. The
                                    18
                  FOR OFFICIAL USE ONLY
surveillance plan, or activities annex, enhances the MOA by providing an overall
consolidated strategy for the DCMA program integration staff, including
functional specialists, to follow in performing required support functions.
Conversely, using the individual performance plans of functional specialists
fragments strategies into the contributions of individual functional specialists. As
a further complication, individual functional specialists often support multiple
acquisition programs, each with a different MOA containing tailored performance
commitments. Additionally, if analysis shows that program progress toward the
desired results is not satisfactory and strategy changes are needed, the DCMA
would have to change multiple individual performance plans, versus one
surveillance plan or activity annex. In summary, using the surveillance plan or
activity annex as part of the MOA provides the DCMA Program Integrator with a
more efficient means for ensuring that functional specialists perform necessary
activities to meet commitments to acquisition program managers. As an
additional consideration, the acting director’s comments to the above
recommendation are not consistent with his comments on a recommendation in
another recent DoD Inspector General Report. Specifically, in DoD Inspector
General Report No. D-2007-084, “Acquisition of the Navy Rapid Airborne Mine
Clearance System,” April 11, 2007, the acting director concurred with a
recommendation to establish a surveillance plan for the Rapid Airborne Mine
Clearance System Program. Accordingly, we request that the acting director
reconsider his position and provide comments in response to the final report.

C.3. We recommend that the Commander, Defense Contract Management
Agency, Space Sensors and Communications Operations, Raytheon
Integrated Defense Systems establish letters of delegation with supporting
Defense Contract Management Agency contract management offices for
subcontractor surveillance at Raytheon Network Centric Systems and Thales
Raytheon Systems subcontractors, in accordance with the Defense Contract
Management Agency Instruction.

Management Comments. The Acting Director, Defense Contract Management
Agency partially concurred, stating that DCMA Raytheon Integrated Defense
Systems will establish an LOD at Thales Raytheon Systems to support the
upcoming software qualification testing. He stated that the software qualification
testing at Thales was currently delayed, based on the late delivery of
Government-furnished equipment but will be completed before the end of the
second quarter FY 2008. He further stated that Raytheon Network Centric
Systems had completed work and that any future delegations would be limited to
rework or repair of the items delivered to Raytheon Integrated Defense Systems.
Therefore, he concluded that a formal delegation for Raytheon Net Centric
Systems was not necessary or cost effective.

Audit Response. The acting director’s commitment to establish an LOD at
Thales Raytheon Systems, the remaining active subcontractor, was responsive to
the recommendation.




                                     19
                  FOR OFFICIAL USE ONLY
           D. 	Implementing Information Assurance
               Guidance
           The SLAMRAAM Product Office changed to an information assurance
           strategy that does not comply with issued and approved DoD information
           assurance requirements. Specifically, the product office, at the direction
           of the U.S. Army Chief Information Officer, began following the
           unapproved DoD Information Assurance Certification and Accreditation
           Process (DIACAP) guidance that was in coordination within DoD, but not
           approved for implementation. The DoD Information Technology Security
           Certification and Accreditation Process (DITSCAP) remains the official
           DoD information assurance guidance. This occurred because the
           Assistant Secretary of Defense for Networks and Information
           Integration/DoD Chief Information Officer issued interim information
           assurance guidance, DIACAP, before proper coordination and review by
           the Director, Administration and Management, Office of the Secretary of
           Defense. The Army Chief Information Officer then directed the product
           office to follow this interim information assurance guidance. Until the
           DIACAP guidance is properly coordinated and reviewed, the product
           office places the information contained in the SLAMRAAM system at
           greater risk of loss, misuse, or unauthorized access to or modification of
           the information contained in the system.

Information Assurance Policy
    DoD Directive 5025.1. DoD Directive 5025.1, “DoD Directives System,” 

    July 14, 2004, provides policy and responsibilities governing DoD directives,

    instructions, and publications. The directive requires the Director, Administration 

    and Management to review and coordinate DoD issuances. 


    DoD Instruction 5200.40. DoD Instruction 5200.40, “DoD Information 

    Technology Security Certification and Accreditation Process (DITSCAP),” 

    December 30, 1997, requires the heads of the DoD Components to implement the 

    DITSCAP for security certification and accreditation of DoD Components and 

    DoD contractor information technology systems and networks.


Information Assurance Requirements
    While the SLAMRAAM Product Office did have an information assurance
    strategy and a contract statement of work that specified the contractor using
    DITSCAP for the information assurance requirements as mandated in DoD
    Instruction 5200.40, the SLAMRAAM Product Office changed this strategy.
    SLAMRAAM information assurance personnel stated that the Army Chief
    Information Officer directed them to use the interim DIACAP guidance to certify
    and accredit the information system portion of the SLAMRAAM Program.


                                        20
                      FOR OFFICIAL USE ONLY
Properly Coordinating Interim Guidance 

    In directing the SLAMRAAM Product Office to use interim DIACAP guidance,
    the Army Chief Information Officer reacted to an interim guidance memorandum
    from the DoD Chief Information Officer. Specifically, on July 6, 2006, the
    Assistant Secretary of Defense for Networks and Information Integration/DoD
    Chief Information Officer issued the memorandum, “Interim Department of
    Defense (DoD) Information Assurance (IA) Certification and Accreditation
    (C&A) Process Guidance,” that established interim guidance, including a draft
    instruction, for the DIACAP. Although proper coordination and review by the
    Director, Administration and Management had not occurred, the Assistant
    Secretary stated that the interim guidance superseded the DITSCAP and
    established procedures for information assurance certification and accreditation of
    DoD information systems to identify, design, test, and monitor information
    assurance capabilities and services.

    DoD Directive 5025.1 requires proposed DoD issuances and cancellations to be
    formally coordinated with heads of DoD Components to solicit their views. In
    addition, the directive requires issuances to be coordinated with the DoD General
    Counsel; the Inspector General, DoD; and reviewed by the Director,
    Administration and Management. On August 2, 2006, a representative for the
    Washington Headquarters Services sent an e-mail to the Office of the Assistant
    Secretary of Defense for Networks and Information Integration stating that the
    DIACAP interim guidance could not supersede the DITSCAP guidance because
    the Office of the Assistant Secretary did not properly coordinate the interim
    guidance in accordance with DoD Directive 5025.1.

    As part of the coordination process under DoD Directive 5025.1, the DoD Office
    of Inspector General nonconcurred with the April 2006 version of the DIACAP
    interim guidance and draft instructions. In DoD Inspector General memorandum,
    “Coordination of Draft DoD Instruction 8510.bb, DoD Information Assurance
    Certification and Accreditation Process (DIACAP),” May 25, 2007, the Principal
    Deputy Inspector General listed 15 comments, which provided the basis for the
    nonconcurrance. The DoD Directive further states that concerned parties should
    resolve nonconcurrances before approving and publishing an issuance. Key
    among the 15 comments that the DoD Inspector General provided were that the
    draft instruction did not:

           •	 include specific benchmarks or criteria for certifying and accrediting
              DoD compliance with the statutory requirements of the Chief
              Financial Officer’s Act and the Federal Information Security
              Management Act,

           •	 include DoD contractors and agents within its applicability and scope,
              nor

           •	 establish a configuration control and management process to guide
              DoD implementation of the instruction.


                                        21
                     FOR OFFICIAL USE ONLY
    According to a representative from Washington Headquarters Services, until the
    DIACAP interim guidance and the proposed draft instruction are coordinated and
    reviewed by the Director, Administration and Management, the DITSCAP
    remains the official DoD information assurance certification and accreditation
    policy.

Effect of Improper Information Assurance Guidance
    The improperly issued interim DoD information assurance guidance caused the
    Army Chief Information Officer to improperly issue his own direction to follow
    DIACAP guidance in preparing the SLAMRAAM Program for the LRIP decision
    program review. In addition, issuance of DIACAP guidance before proper
    coordination, review, and implementation could place systems, such as
    SLAMRAAM, at a greater risk of loss, misuse, or unauthorized access to or
    modification of the information contained in the systems.

    We reported a similar problem with premature implementation of DIACAP in
    DoD Inspector General Report No. D2007-103, “Air Force KC-X Aerial
    Refueling Tanker Aircraft Program,” May 30, 2007. The report recommended
    that:
           The Director, Administration and Management, according to his
           authority, and in coordination with the Assistant Secretary of Defense
           for Networks and Information Integration/DoD Chief Information
           Officer issue formal authoritative information assurance policy in
           accordance with DoD Directive 5025.1, “DoD Directives System,”
           July 14, 2004, or issue guidance to the Air Force regarding applicable
           information assurance certification and accreditation processes for
           inclusion in its KC-X contractual documents.

    The Director, Administration and Management provided comments to the final
    report stating that the Director, Administration and Management does not have
    the authority to issue policy or guidance on information assurance. The DoD
    official with the responsibility and authority to issue information assurance policy
    and guidance is the Assistant Secretary of Defense for Networks and Information
    Integration/DoD Chief Information Officer. Until the Assistant Secretary
    properly coordinates new DoD-wide policy and guidance that cancels DoD
    Instruction 5200.40 and DoD Manual 8510.l-M, “Department of Defense
    Information Technology Security Certification and Accreditation Process
    (DITSCAP) Application Manual,” July 31, 2000, the Director stated that
    DITSCAP still constitutes the official DoD information assurance policy.

Conclusion
    To ensure consistent information assurance certification and accreditation
    guidance within DoD, the Director, Administration and Management must
    “review and coordinate all DoD issuances.” Further, the Assistant Secretary of
    Defense of Networks and Information Integration/DoD Chief Information Officer

                                            22
                       FOR OFFICIAL USE ONLY
    must submit any information assurance guidance that has the effect of canceling
    DoD issuances to the Director, Administration and Management for coordination
    and review.

    Since the Director, Administration and Management must coordinate and review
    any official DoD information assurance certification and accreditation policy that
    has the effect of canceling DoD issuance, the SLAMRAAM Product Office
    should not follow the interim DIACAP guidance instead of DITSCAP.

Recommendations
    D.1. We recommend that the Army Chief Information Officer rescind all verbal
    or written direction given to Army acquisition program managers to follow the
    interim guidance on DoD Information Assurance Certification and Accreditation
    Program in developing weapon systems.

    Management Comments Required. The Army Chief Information Officer did
    not provide comments on the recommendation. We request that the Army Chief
    Information Officer provide comments on the final report.

    D.2. We recommend that the Product Manager, Surface-Launched Advanced
    Medium-Range Air-to-Air Missile return to following the DoD Information
    Technology Security Certification and Accreditation Process in developing the
    Surface-Launched Advanced Medium-Range Air-to-Air Missile, as documented
    in the information assurance strategy and in accordance with DoD Instruction
    5200.40, “DoD Information Technology Security Certification and Accreditation
    Process (DITSCAP),” December 30, 1997.

    Management Comments Required. The product manager did not provide
    comments on the recommendation. We request that the product manager provide
    comments on the final report.




                                        23
                     FOR OFFICIAL USE ONLY
Appendix A. Scope and Methodology 

    We conducted this performance audit in accordance with generally accepted
    government auditing standards from October 2006 through August 2007. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our audit
    objectives.

    During the audit, we evaluated whether management was cost effectively
    developing and readying the program for the low-rate initial production phase of
    the acquisition process. We reviewed requirements and capabilities, testing,
    systems engineering, contracting, acquisition strategy, and funding documents
    dated from May 1999 through June 2007. We interviewed staff from offices of
    the Director, Operational Test and Evaluation; the Army Director of Combat
    Development; the Project Manager, Cruise Missile Defense Systems; the Product
    Manager, Surface-Launched Advanced Medium-Range Air-to-Air Missile; the
    Commander, Army Test and Evaluation Command; and the Director, Defense
    Contract Management Agency.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. An electrical engineer and a computer engineer
    from the Electronics Engineering and Information Technology Branches,
    Technical Assessment Directorate of Policy and Oversight, Department of
    Defense Office of Inspector General assisted in the audit. The engineers
    evaluated and reviewed systems engineering, software, and other acquisition
    planning-related documents in the SLAMRAAM Program.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the “DoD Weapons Systems Acquisition” high-risk area.


Prior Coverage
    No prior coverage has been conducted on the overall management of the
    SLAMRAAM Program during the last 5 years.




                                        24
                     FOR OFFICIAL USE ONLY
Appendix B. 	Measurable and Testable Capability
             Requirements
     The Chairman of the Joint Chiefs of Staff (CJCS) Manual 3170.01C states that
     the capability production document (CPD) should define each performance
     attribute in measurable and testable terms. However, as drafted, the CPD did not
     contain measurable and testable requirements for two key performance
     parameters and six other performance attributes as discussed below.


Key Performance Parameters
     Net-Ready. CJCS Instruction 6212.01D requires CPDs to include 16 integrated
     architecture products that provide operational, system, and technical standard
     views that describe the system and its interfaces with external systems. The CJCS
     Instruction states that the descriptions of architecture products are an element of
     the net-ready key performance parameter and that sponsors use this key
     performance parameter to define system characteristics and key performance
     metrics for the timely, accurate, and complete exchange of information.
     However, the draft CPD did not contain architectural product descriptions to
     support the net-ready key performance parameter. The following table lists the
     descriptions of the architecture products, which CJCS Instruction 6212.01D
     requires program sponsors to include in CPDs.

                        Description of Architecture Products

Framework   Framework Product
                                       General Description
 Products   Name
            Overview and Summary       Scope, purpose, intended users, environment depicted, and
  AV-1
            Information                analytical findings.
            High-Level Operational
  OV-1                                 High-level graphical/textual description of operational concept.
            Concept Graphic
            Operational Node           Operational nodes, operational activities performed at each node,
  OV-2
            Connectivity Description   connectivity, and information exchange lines between nodes.
            Operational Information    Information exchanged between nodes and the relevant attributes
  OV-3
            Exchange Matrix            of that exchange.
            Organizational
  OV-4                                 Organizational role or other relationships among organizations.
            Relationships Chart
            Operational Activity       Operational activities, relationships among activities, inputs, and
  OV-5
            Model                      outputs.
                                       One of three products used to describe operational activity
            Operational Event-Trace
  OV-6c                                sequence and timing—traces actions in a scenario or sequence of
            Description
                                       events and specifies timing of events.
                                       System data requirements and structural business process rules of
  OV-7      Logical Data Model
                                       the operational view.
            System Interface           Identification of systems nodes, systems, and system items and
  SV-1
            Description                their interconnections, within and between nodes.

                                              25
                        FOR OFFICIAL USE ONLY
               Description of Architecture Products (Continued)

           System Communications
  SV-2                               Systems nodes and their related communications lay-downs.
           Description
           System Functionality      Functions performed by systems and the information flow among
  SV-4
           Description               system functions, including information assurance functions.
           Operational Activity to
                                     Mapping of systems back to operational capabilities or of system
  SV-5     Systems Function
                                     functions back to operational activities.
           Traceability Matrix
  SV-6     Systems Data Exchange     Provides details of systems data being exchanged.
                                     Physical implementation of Logical Data Model entities; for
  SV-11    Physical Schema
                                     example, message format, file structures, and physical schema.
           Technical Standards       Extraction of standards that apply to the given architecture,
  TV-1
           Profile                   including information assurance functions.
                                     Emerging standards that are not currently approved. The TV-2
           Technical Standards
  TV-2                               should also be used to document technical issues affecting
           Forecast
                                     program implementation.


     According to DCD staff, they were working to develop the above architectural
     products but had not included them in the draft CPD. The DCD staff stated that
     they planned to include the architectural views in an updated draft of the CPD.




Other Performance Attributes




                                           26
                       FOR OFFICIAL USE ONLY
         27
FOR OFFICIAL USE ONLY
         28
FOR OFFICIAL USE ONLY
Appendix C. 	Audit Response to Management
             Comments on the Report
    Our detailed responses to the comments from the Project Manager, Cruise Missile
    Defense System and the Acting Director, Defense Contract Management Agency
    on statements in the draft report follow. The complete text of the management
    comments is in the Management Comments section of this report.


Project Manager, Cruise Missile Defense Systems Comments
  and Audit Response
    Management Comments. The project manager provided comments on the
    “Background” section of the report, as well as on Findings A, B, and C.

            Background. The project manager stated that the draft report incorrectly
    asserted that factors causing the program rebaselining and associated cost increase
    included the Army not sufficiently defining capability requirements in the
    operational requirements document used to develop the draft capability
    production document (CPD), contractor difficulties in understanding and
    allocating system requirements to subcontractors, and the DCMA Commander not
    completely adhering to policy and guidance. The project manager stated that
    there is no evidence to support any correlation between these factors and the need
    to rebaseline the SLAMRAAM Program. The project manager asserted that the
    rebaseline occurred because of the following: the contractor failed to follow
    established engineering processes, Congress denied Army requests during 2006
    for additional funding to cover contractor overruns, and the Marine Corps
    withdrew from the program in 2006.

            Audit Response. We revised the “Background” section to state that
    engineering and funding problems, along with the Marine Corps withdrawing
    from the program, were the primary reasons for the program rebaseline.
    However, we also believe that the Army’s shortfalls in defining capability
    requirements in the operational requirements document, contractor difficulties in
    allocating system requirements to subcontractors, and the DCMA Commander not
    adhering to policy and guidance also contributed to the cost and schedule
    overruns leading to the rebaselining.

           Finding A. The project manager provided comments on the finding
    paragraph and the finding section, “System Effectiveness as a Key Performance
    Parameter.”

                    Finding Paragraph. The project manager disagreed with the
    statement that the Director of Combat Developments, U.S. Army Air Defense
    Artillery School did not sufficiently define capability requirements for the
    SLAMRAAM in the draft CPD being prepared for Army staffing to support the
    LRIP decision program review planned for FY 2010. The project manager stated
                                        29
                     FOR OFFICIAL USE ONLY
that the July 2007 draft CPD that the audit team reviewed required additional
information and was not meant to be the final product. He explained that the
Army finalizes the CPD after the design readiness review, validation, and
approval before the LRIP acquisition decision. He further stated that the CJCS
Manual 3170.01C, “Operation of the Joint Capabilities Integration and
Development System,” May 1, 2007, does not require system effectiveness to be a
key performance parameter. He further stated that the CJCS Manual provides
that, because a CPD is finalized after the design readiness review and after the
majority of capability development, it is normally not appropriate to introduce
new requirements at this point.

                 Audit Response. We recognize that the draft CPD was not a final
product and still required additional information. Therefore, we revised the report
to state that the DCD had not yet (versus “did not”) sufficiently defined capability
requirements in the draft CPD. With regard to systems effectiveness, the report
does not state that system effectiveness is required as a key performance
requirement. Rather the report cites the CJCS Manual 3170.01C definition of key
performance parameters as performance attributes of a system that are considered
critical or essential to the development of an effective military capability and
make a significant contribution to the key characteristics of the program. Also, in
elevating system effectiveness to a key performance parameter, we are not
introducing a new requirement. We are simply placing additional emphasis and
oversight on an existing requirement.

                System Effectiveness as a Key Performance Parameter. The
project manager disagreed with our assertion that DCD encountered resistance
from the SLAMRAAM Product Office in establishing system effectiveness as a
key performance parameter. He stated that there was no resistance and that he
recognizes system effectiveness as an important requirement for the warfighter.
He further stated that system effectiveness is contained in the system performance
specification for the SLAMRAAM and flows down to all elements of the
SLAMRAAM system. The project manager’s other comments on system
effectiveness as a key performance parameter are discussed in the management
comments section to Recommendation A.

                 Audit Response. During the audit, DCD staff clearly stated that
they had earlier discussed establishing system effectiveness as a key performance
parameter with the SLAMRAAM Product Office and that the product office staff
had questioned this proposed change. For tonal purposes, we have revised the
report to state that the product office staff questioned, rather than resisted,
establishing system effectiveness as a key performance parameter.

       Finding B. The project manager provided comments that addressed the
finding sections, “Developing a Systems Engineering Plan,” “Technical
Reviews,” “Technical Baseline Approach,” and “Systems Engineering Process.”

               Developing a Systems Engineering Plan. The project manager
disagreed with report statements concerning the requirement to have a SEP and
the contractor SEMP not fully meeting the requirements of the SEP.


                                    30
                  FOR OFFICIAL USE ONLY
                       Requirements for Having a SEP. The project manager
disagreed with stating that SLAMRAAM Product Office personnel did not have a
SEP to support the systems engineering process for the SLAMRAAM in
accordance with USD(AT&L) policy and guidance that was issued in 2004
concerning preparation of a SEP early in the program life cycle. The project
manager stated that the SLAMRAAM program did not have a completed draft
version of the SEP because the program underwent a system development and
demonstration acquisition decision in September 2003, and was not required to
follow the USD(AT&L) memorandum, “Policy for Systems Engineering in
DoD,” February 20, 2004. In addition, the project manager stated that the LRIP
decision is scheduled for early FY 2010 and a completed version of the draft SEP
should be ready for review by March 2008.

                      Audit Response. We acknowledged in the finding that a
USD(AT&L) policy did not require the SLAMRAAM Program to have a
completed SEP until the LRIP decision planned for early FY 2010. However, the
USD(AT&L) memorandum, “Implementing Systems Engineering Plans in DoD –
Interim Guidance,” March 30, 2004, recommended that acquisition managers
develop a SEP early in the program’s life cycle. Therefore, we revised the report
to state that the SLAMRAAM Program did not have a SEP to support the systems
engineering process for the SLAMRAAM in accordance with USD(AT&L)
guidance.

                       Contractor SEMP. The project manager disagreed with
reporting that the SLAMRAAM Product Office staff was using the contractor-
developed “Surface Launched AMRAAM (SLAMRAAM) Systems Engineering
Management Plan (SEMP),” October 10, 2005, which did not fully meet the
requirements of the SEP because it did not include key information that DoD
systems engineering policy and guidance requires or encourages project managers
to define. He stated that the contractor-developed SEMP, released in April 2004,
did address the areas contained in the USD(AT&L) memorandum, “Policy for
Systems Engineering in DoD,” February 20, 2004, including the systems
engineering processes to be applied to the program, the system’s technical
baseline approach, and the integration of systems engineering into the program’s
integrated product teams. Specifically, he stated that the SEMP contains the
program description, technical baseline planning and controls, program planning
and controls, the integrated product team structure, systems engineering
processes, engineering specialty integration, and product transition.

                      Audit Response. As discussed below under “Technical
Baseline Approach,” we revised the report to delete statements that the SEMP did
include the systems technical baseline approach. As discussed subsequently
under “Systems Engineering Process,” we did not revise our position on the
SEMP not fully defining the systems engineering process.

                Technical Reviews. The CMDS Project Manager disagreed with
the statement that the SEMP did not include event-driven technical reviews.
Specifically, the project manager stated that technical reviews were specified in
the SEMP and in the Integrated Master Schedule. While the project manager
acknowledged that the SEMP did not state entrance and success criteria for the
technical reviews, he stated that the following documents, referenced in the
                                    31
                 FOR OFFICIAL USE ONLY
SEMP, did detail the event-driven technical review process from program start to
closure: Raytheon’s Integrated Defense System “Systems Engineering Practices
and Procedures,” and Raytheon’s “Integrated Product Development System.”
The project manager further stated that the technical review process contains a
series of 10 “gates” containing entry and exit criteria for conducting technical
reviews, with gates 1 through 4 for reviews internal to Raytheon and gates
5 through 10 for Government reviews. In addition, the project manager stated
that the SLAMRAAM Product Manager issued the Design Review Campaign
Plan for Raytheon to use to address the design review process, including design
review entry and exit criteria. The project manager stated that the SLAMRAAM
Product Office followed Program Executive Office Policy 04-36, “Program
Executive Office Management Control Checklist” for conducting event-driven
reviews and ensuring that the contractor met review entry and exit criteria.
Lastly, the product manager stated that our report implied that the SLAMRAAM
Product Manager did not tie technical reviews to event-driven criteria. As proof
to the contrary, the project manager cited a March 9, 2005, letter in the contract
that stated that Raytheon had not met entrance criteria for a preliminary design
review, and therefore could not proceed with development effort until it met these
prerequisites.

             Audit Response. We revised the report to clarify that, while the
SEMP does specify the following technical reviews: system requirements review,
system design review, critical design review, and test readiness review, it did not
provide entrance and exit criteria for these reviews. We also revised the report to
emphasize the importance of including entrance and exit criteria for the technical
reviews specified in the SEMP, rather than imply that the product manager never
tied technical reviews to event-driven criteria. We did not revise the report to
state that the project manager had established entry and exit criteria for
SLAMRAAM technical reviews through the documents and policies he
referenced in his comments. While these documents and policies did describe the
event-driven technical review process, they did not provide specific entry and exit
criteria for the technical reviews included in the SEMP. The “SLAMRAAM
Program Manager’s Guidelines for Conducting Design Reviews,” August 2005,
which documents the Design Review Campaign Plan, provides an example of the
process description. This document states that the program manager requires
integrated product teams to develop comprehensive entry and exit criteria for his
approval before each review, but does not include any specific entry and exit
criteria. We also reviewed the following five additional documents the project
manager provided in response to the draft report:

   •	 “Part, Material and Process (PMP) Plan,” June 1, 2005;

   •	 “Draft Fire Unit CDR Readiness Review,” August 19, 2005;

   •	 “CDR Program Risk Assessment Checklist,” August 1, 2004;

   •	 “Integrated Product Development System - IPDS Brochure,” (no date);
      and

   •	 “Independent Review 8 (IR8) Checklist - Detailed Design (Build

      Readiness),” October 31, 2003. 

                                    32
                 FOR OFFICIAL USE ONLY
With the exception of the “Draft Fire Unit CDR Readiness Review,” August 19,
2005, which contained entry and exit criteria for conducting the critical design
review on the fire unit, none of the above documents included specific entrance or
exit criteria for planned program technical reviews.

                 Technical Baseline Approach. The CMDS Project Manager
stated that the SEMP outlines the technical baseline approach in summary form,
while the technical performance baseline is contained in Government-controlled
system performance specifications and various contractor specifications. He
stated that this documentation was available in the SLAMRAAM Integrated Data
Environment through the requirements database tools.

                Audit Response. We revised the report by deleting the discussion
of the technical baseline approach. While the SEMP did not specifically mention
technical baseline approach, the section “Technical Planning and Control” did
describe procedures for establishing a baseline, controlling baseline changes,
tracing system requirements, and using technical performance measures to
monitor and control the program’s performance. Therefore, the SEMP did meet
the intent of guidance in the USD(AT&L) memorandum, “Implementing Systems
Engineering Plans in DoD – Interim Guidance,” March 30, 2004, for defining the
technical baseline approach.

                Systems Engineering Process. The CMDS Project Manager
disagreed with our assertion that the contractor-developed SEMP did not fully
define all systems engineering processes applied to the SLAMRAAM. He stated
that the SEMP, together with Raytheon’s “Systems Engineering Practices and
Procedures” and “Integrated Product Development System,” the joint
Raytheon/Government “gate” review process and Design Review Campaign Plan,
Program Executive Officer policies, the independent assessment team, and the
Government-controlled technical baseline, met the intent of the SEP guidance and
provided him with a well-defined systems engineering process and technical
baseline approach for the SLAMRAAM. The CMDS Project Manager further
stated that the systems engineering processes allowed SLAMRAAM to recover
from a major contractor performance shortfall to a highly successful critical
design review some 15 months later.

              Audit Response. We did not revise the report to state that
documents and policies the project manager discusses together met the intent of
the SEP guidance for defining the systems engineering process. The
USD(AT&L) memorandum, “Implementing Systems Engineering Plans in DoD –
Interim Guidance,” March 30, 2004, states that the SEP should be a living
document that includes updates of program progress, such as the results of
completed technical reviews. The SEMP had not been updated to reflect the
systems engineering progress since October 2005.

Finding C. The project manager provided comments that addressed the finding
paragraph and the finding sections “Establishing Letters of Delegation,” and
“Conclusion.”

        Finding Paragraph. The project manager disagreed with our assertion
that the Commander, Defense Contracting Management Agency did not fully
                                    33
                 FOR OFFICIAL USE ONLY
describe DCMA activities to support the SLAMRAAM Program in a surveillance
plan and establish letters of delegation with other DCMA contract management
offices for surveillance at three of four SLAMRAAM subcontractors. The project
manager stated that DCMA provided excellent support and kept the
SLAMRAAM Product Manager informed on progress regardless of the content or
structure of the MOA or the existence of LODs.

        Audit Response. We did not revise the report based on the project
manager’s comments. The report correctly states that the commander did not
fully describe DCMA activities to support the SLAMRAAM Program in a
surveillance plan and establish letters of delegation with other DCMA contract
management offices for surveillance at three of four SLAMRAAM
subcontractors. While the project manager may claim satisfaction with DCMA
support, establishing a surveillance plan and LODs, as discussed in the finding,
would have helped DCMA contract management offices to better plan and track
surveillance support activities. Additionally, the DCMA Instruction requires an
outcome-oriented LOD when the prime contractor contracts to a subcontractor to
work on specified tasks.

        Establishing Letters of Delegation. The project manager disagreed that
an LOD with the DCMA Support Program Integrator at Boeing Huntsville, which
required formal reports and earned value management, would have provided the
project manager with more meaningful information towards satisfying
SLAMRAAM cost, schedule, and performance requirements. He stated that the
SLAMRAAM Program received cost, schedule, and performance information
from a DCMA Support Program Integrator at the Boeing Huntsville, Alabama,
plant and that this program integrator was listed in Annex D of the MOA. He
additionally stated that the support program integrator and SLAMRAAM Product
Office personnel interfaced on a nearly daily basis. In summary, the project
manager stated that, even without an LOD in place, the SLAMRAAM Product
Manager received the required level of support from DCMA on the Boeing
subcontract and that there was no evidence to suggest that the lack of an LOD
affected the quality or quantity of information concerning subcontractor progress
or status.

        Audit Response. We did not revise the report based on the project
manager’s comments. The lack of an LOD with DCMA Boeing did have an
impact on reporting to the SLAMRAAM Program. Specifically, we spoke to the
DCMA Boeing Program Integrator listed in Appendix D of the MOA concerning
the impact of not having an LOD with DCMA Boeing. He stated that the
SLAMRAAM Program Integrator did request him to provide earned value
management support on Boeing’s cost and schedule progress, but, without an
approved LOD, he was not able to assign personnel resources to support earned
value reporting to the SLAMRAAM Program.

        Conclusion. The project manager disagreed with our assertion that,
without a focused and comprehensive MOA supported by a surveillance plan and
LODs, DCMA staff was not in a position to provide the Project Manager, CMDS
with timely and meaningful insights and recommendations regarding the
contractor progress toward attaining cost, schedule, and performance contract
requirements for SLAMRAAM. The project manager stated that there was no
                                   34
                 FOR OFFICIAL USE ONLY
    quantifiable evidence to show that any issues with the MOA affected the support
    provided by DCMA or the quality or quantity of information provided concerning
    contractor progress and status. He further stated that the quality of an MOA did
    not necessarily equate to quality support, nor can one conclude that problems with
    an MOA automatically equate to problems with the support.

            Audit Response. We recognize that it is difficult to quantify exactly how
    much better DCMA support would have been, had there been a focused and
    comprehensive MOA, supported by a surveillance plan and LODs. Therefore, we
    revised the report to state that DCMA staff were not in a position to provide the
    Project Manager, CMDS with the most timely and meaningful insights and
    recommendations on contractor progress toward attaining cost, schedule, and
    performance contract requirements for SLAMRAAM. The statements of the
    Boeing program integrator under “Establishing Letters of Delegation” above did
    provide one example of a specific negative impact on program reporting with
    regard to earned value. While we recognize that a quality MOA does not
    necessarily equate to quality support, DCMA officials stated that establishing
    performance metrics and standards in the MOA to focus and measure DCMA’s
    efforts in meeting customer-desired outcomes enables DCMA to more efficiently
    use limited resources to support program managers.


Acting Director, Defense Contract Management Agency
  Comments and Audit Response
    Management Comments. The acting director provided comments on the
    “Background” section of the report and on Finding C.

           Report Background. The acting director stated that it was probably an
    overstatement to state that the DCMA Commander’s lack of adherence to policy
    was one of the primary causes of the program rebaselining.

            Audit Response. As stated earlier, we revised the Report Background to
    state that engineering and funding problems, along with the Marine Corps
    withdrawing from the program, were the primary causes for the program
    rebaseline.

    Finding C. The acting director provided comments that addressed the finding
    section, “Actions to Improve the Quality of Surveillance Plans.” Specifically, the
    acting director suggested that we delete the statement that DCMA did not
    establish a mandatory requirement for contract management offices to use
    surveillance plans or activity annexes in the interim until full implementation of
    the Electronic Data Management System.

    Audit Response. We did not make the suggested change as DCMA did not
    establish a mandatory requirement for contract management offices to use
    surveillance plans or activity annexes in the interim until full implementation of
    the Electronic Data Management System.


                                         35
                      FOR OFFICIAL USE ONLY
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation


Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Director of Combat Developments, Army Air Defense Artillery School
Project Manager, Cruise Missile Defense System
   Product Manager, Surface-Launched Advanced Medium-Range Air-to-Air Missile

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget



                                          36
                        FOR OFFICIAL USE ONLY
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      37
                      FOR OFFICIAL USE ONLY
Defens                                    e                      Contrac                                                                                                                                           t                    Managemen                                                                                                                                                                                                                                                                       t                 Agenc                                                                                                                                       y




Comment                                                                                 s




                  [DoD            Seal]                                                                                           DEFENS                                                                                                                        E          CONTRAC                                                                                                     T             MANAGEMEN                                                                                                                                          T           AGENC                                                                         Y




                                                                                                                                                                                                                                                                                                     636                        0       WALKER                                                  LANE                                                     ,   SUIT                           E          300



                                                                                                                                                                                                                                                                                                           ALEXANDRIA                                                                                          ,   V             A         22310-324                                                                1




          IN     REPL    Y




               REFER         TO                              DCMA-DM                                                                  I                                                         OC                                                                                                                                                                                                                                                                                                                                                                                                                                T           1                   5       2007




                                                             MEMORANDU                                                                                                M                FO                          R               PROGRA                                                                           M                     DIRECTOR                                                                                                   ,       ACQUISITIO                                                                                                                  N           AN                                   D             CONTRAC                                               T




                                                                                                                                                                                                                                                                     MANAGEMENT                                                                                                                                        ,        DEPARTMEN                                                                                                                       T             O                  F             DEFENS                                                                 E




                                                                                                                                                                                                                                                                     INSPECTO                                                                                      R       GENERAL                                                                                                  ,       OFFIC                                                           E             O                  F            TH                          E           DEPUT                                           Y




                                                                                                                                                                                                                                                                    INSPECTO                                                                                       R       GENERA                                                                                             L




                                                                 SUBJECT                                                      :      Departmen                                                                             t       o              f    Defens                                                   e           -               Inspecto                                                                        r     Genera                                                         L           Draf                                  t   Report                                                       ,    Projec                                       t     Numbe                         r




                                                                                                                                               D2007-D000AE-0060                                                                                                                                            ,            Repor                                                 t      o                    n           th                  e     Acquisitio                                                                                   n         o             f           Surface-Launche                                                                                                 d




                                                                                                                                               Advance                                                   d       Medium-Rang                                                                                                                   e       Air-to-Ai                                                                           r     Missil                                                      e




                                                                                                      Reference                                                              :   DoDI                                          G                draf                              t       audi                                      t     report                                            c       Projec                                                     t       Numbe                                                          r           D2007-D0O0AE-006                                                                                                                                    0




                                                        subjec                      t         a                s   above                                      .




                                                                                                      W              e       hav                          e        attache                                             d               th                e          Headquarter                                                                                        s           Defens                                                            e        Contrac                                                             t         Management                                                                                                Agenc                                   y




                                                  respons                                         e       an                 d        technica                                                       l   comment                                                                      s          t    o             th                         e          findings                                                                             recommendation                                                                                                                                                   s       cite                            d     i       n          th       e




                                                  subjec                        t           report                                         ,




                                                Point                      of                                       contac                                                         t        i                                      s        |                        |                                                                                                                          a                           t    (703                                     }       530-||o                                                                                            r




                                               @dcma.mil.




                                                                                                                                                                                                                                                                                                                                                                                                    KEIT                                             H             D                    .       ERNS                                                    T




                                                                                                                                                                                                                                                                                                                                                                                                    Actin                                        g            Directo                                                         r




                                              ATTACHMEN                                                                                            T




                                          A              s




                                                                                                                                                                                                                                                                                                                                                                           3                    9




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  b[6   )
                                                                                                                                                              FO                                             R                     OFFICIA                                                                                                                                                             L                          US                                                             E                          ONL                                                                                     Y
                SUBJECT                                                                                                                         :    Acquisitio                                                                                                                                                                   n                     o                        f               th                           e                 Surface-Launche                                                                                                                                                                                                                                                d            Advance                                                                                                                   d                  Medium-Rang                                                                                                                                                                                             e            Air-to-AI                                                                                           r




                Missil                                                             e                 [Projec                                                                                                      t           Numbe                                                                                                                                 r        D2007-D000AE-0060                                                                                                                                                                                                                                                                                                         )




                FINDIN                                                                                     G                      C                              :            Establishin                                                                                                                                                                                g                       Defens                                                                                                  e                   Contrac                                                                                                              t       Managemen                                                                                                                                                                  t           Agency                                                                                            Suppor                                                                                                                    t




                Responsibilitie                                                                                                                                                                               s




              Th                                e             Commander                                                                                                                                                                       ,           Defens                                                                                                                                  e           Contrac                                                                                                                   t       Managemen                                                                                                                                                                            t           Agenc                                                                                   y                 (DCMA                                                                                                  )             Spac                                                                                 e




           Sensor                                                                                      s         an                                          d                     Communication                                                                                                                                                                                                                                                s               Operations                                                                                                                                                           ,           Raytheo                                                                                                                  n                Integrate                                                                                                                 d            Defens                                                                                                           e                 System                                                                                        s             an                               d




           th                            e            Projec                                                                                t       Manager                                                                                                                                               ,           Cruis                                                                                          e             Missil                                                                                      e                Defens                                                                                                        e              Syste                                                                                    m                    (CMDS                                                                                              )               di                       d                     no                                       t            adequatel                                                                                                                      y




           establis                                                                                        h             an                                              d                  documen                                                                                                                                                            t        neede                                                                                                d             DCM                                                                                    A                      suppor                                                                                                t    I                n                   th                            e             memorandu                                                                                                                                                              m                        of                                                agreement




           (MOA                                                                    )            fo                            r         th                                    e                  SLAMRAA                                                                                                                                                                                 M                           program                                                                                                                        .            Specifically                                                                                                                                                    ,        th                              e                 MOA did not                                                                                                                                                                   referenc                                                                                                              e                   curren                                                                    t




           DCM                                                             A                   polic                                                                 y                  an                                            d                   full                                                            y                   establis                                                                                                               h             link                                                         s                    betwee                                                                                                  n                th                                 e                   MO                                                A                performanc                                                                                                                                                      e                 metric                                                                                        s             an                          d                    th                         e




           projec                                                                      t        manager'                                                                                                                                      s                desire                                                                                                             d                    outcome                                                                                                                          s                   fo                                   r            th                         e                SLAMRAA                                                                                                                                                 M                      program                                                                                                                      .         Additionally                                                                                                                                                  ,   th                                      e




          commande                                                                                                                                   r           di                                      d                    no                                         t           full                                                                  y             describ                                                                                                       e             DCM                                                                                        A                  activitie                                                                                                     s               t                o               suppor                                                                                        t        th                                e           SLAMRAA                                                                                                                                                          M                    progra                                                                           m




          I        n             a                        surveillanc                                                                                                                                             e                 pla                                                           n                       an                                                 d                    establis                                                                                                           h                 letter                                                                              s    o                             f           delegatio                                                                                                                    n               (LOD                                                                           )            wit                                         h                 othe                                                                   r           DCM                                                               A




          contrac                                                                                      t       managemen                                                                                                                                                                                          t               office                                                                                      s             fo                                     r           surveillanc                                                                                                                                                    e              a                             t       thre                                                       e             o                     f      fou                                                r           SLAMRAA                                                                                                                                                             M




          subcontractors                                                                                                                                                                                      .           Thes                                                                                                    e                     condition                                                                                                                               s                occurre                                                                                                         d                    becaus                                                                                                      e               th                              e              commande                                                                                                                                                r           di                                        d                no                                  t           completel                                                                                                     y




          adher                                                                e                 t              o                 provision                                                                                                                                      s                    I                        n                       th                                    e            Federa                                                                                                         l     Acquisitio                                                                                                                                        n                 Regulation                                                                                                                                          ,        th                            e                    DCM                                                                       A                     Instruction                                                                                                                                 ,       an                             d




      th                         e                  DCM                                                               A                     Guideboo                                                                                                                                                          k                    fo                                        r           preparin                                                                                                                        g                  a                             n                    MOA                                                                    ,      formulatin                                                                                                                                 g                a                           surveillanc                                                                                                                                           e                   plan                                                             ,     an                               d




      establishin                                                                                                                               g                LODs                                                                                            .           A                                        s                   a                              result                                                                                 ,            DCM                                                                            A                         di                               d        no                                           t           hav                                                         e           Informatio                                                                                                                               n              neede                                                                                         d                   t                    o            provid                                                                        e                th                        e




          projec                                                                   t           manage                                                                                                                     r         wit                                                   h                       informe                                                                                                                       d                   recommendation                                                                                                                                                                                                                                  s            regardin                                                                                                                  g             contracto                                                                                                                            r        progres                                                                                                    s           towar                                                               d




          attainin                                                                                     g         contrac                                                                                                              t           cost                                                                                ,               schedule                                                                                                                             ,        an                                          d                        performanc                                                                                                                                                      e                    requirements                                                                                                                                                                     .




      RECOMMENDATIO                                                                                                                                                                                                                                                                               N                               C1                                                             a           &                              b




      W                              e              recommen                                                                                                                                             d                    tha                                                     t           th                                                   e                Commander                                                                                                                                                                                ,           Defens                                                                                                  e                 Contrac                                                                                                    t         Managemen                                                                                                                                                                             t




     Agenc                                                                                 y           Spac                                                                             e                Sensor                                                                                                                           s                    an                                         d               Communication                                                                                                                                                                                                                           s          Operations                                                                                                                                                  ,            Raytheo                                                                                                               n               Integrate                                                                                                                        d        Defens                                                                              e




     System                                                                                            s        an                                           d                     th                                     e               Projec                                                                                                                    t       Manager                                                                                                                              ,           Cruis                                                                                 e           Missil                                                                                   e                Defens                                                                                          e                     System                                                                                                       s           revis                                                                            e           th                                  e




      memorandu                                                                                                                                                  m                           o                                f     agreemen                                                                                                                                                                     t       fo                                     r            th                              e                 Surface-Launche                                                                                                                                                                                                                                    d                 Advance                                                                                                                   d            Medium-Rang                                                                                                                                                                                        e            Air-to                                                                 -




     Ai                      r               Missil                                                                  e                 to                                      :




                                 a              .         Referenc                                                                                                                       e               th                                       e              curren                                                                                                                      t        Defens                                                                                                     e                 Contrac                                                                                                                t           Managemen                                                                                                                                                              t             Agenc                                                                                        y




                                                               Instructio                                                                                                               n                an                                                d                 Defens                                                                                                                          e                Contrac                                                                                                                   t            Managemen                                                                                                                                                                           t      Agenc                                                                                      y              Guidebook                                                                                                                                                    .




                                 b              .         Includ                                                                        e                a                               n               anne                                                                                     x                       tha                                                        t               document                                                                                                                                           s                 a                              cause-and-effec                                                                                                                                                                                                     t       analysi                                                                                           s                     linkin                                                                                g




                                                               Defens                                                                                e                       Contrac                                                                                                                              t            Managemen                                                                                                                                                                                       t            Agenc                                                                                        y                performanc                                                                                                                                                     e                metric                                                                                  s                    and




                                                              standard                                                                                                             s             t                    o               th                                         e                    customer-desire                                                                                                                                                                                                                                                d                 outcome                                                                                                                      ,        i               n                 accordanc                                                                                                                                  e              wit                                                h           th                                     e




                                                              Defens                                                                                 e                   Contrac                                                                                                                                  t            Managemen                                                                                                                                                                                       t            Agenc                                                                                        y                Instruction                                                                                                                                         .




 DCMA                                                                          COMMENTS                                                                                                                                                                                                       :               Concur                                                                                                                                    .           Concu                                                                                                                  r    wit                                      h                    th                               e                   recommendation                                                                                                                                                                                                                  s               a                             s                stated                                                                                    .        DCM                                                              A




 ID                              S                    i            s           i                 n             proces                                                                                                     s               o                          f           updatin                                                                                                                             g             th                                        e             MO                                                               A                     i                  n             accordanc                                                                                                                                          e            wit                                           h               th                             e             curren                                                                                         t           agenc                                                                                      y                guideline                                                                                            s




 an                                      d            Instructions                                                                                                                                                    .            Targe                                                                                                          t         dat                                                  e                fo                                     r        completio                                                                                                                                     n                 o                          f       thi                                         s               tas                                            k          (MO                                                              A                 update                                                                                                 )             i               s               Firs                                                     t         Quarter




 FY08                                                                  .




RECOMMENDATIO                                                                                                                                                                                                                                                                               N                                 C                                          2




We                                            recommen                                                                                                                                               d                tha                                                        t        th                                                  e                     Actin                                                                           g                Director                                                                                                                   ,         Defens                                                                                                    e            Contrac                                                                                                     t             Managemen                                                                                                                                                                       t       Agenc                                                                                  y       updat                                                                   e




th                       e                    DCM                                                                A                    Instructio                                                                                                                                          n                       t                           o                    requir                                                                                   e                tha                                                   t        memorandum                                                                                                                                                                                               s           o                          f        agreemen                                                                                                                              t            wit                                               h                acquisitio                                                                                                                  n




progra                                                                             m                       manager                                                                                                                                    s              Includ                                                                                                              e              surveillanc                                                                                                                                                           e                plan                                                               s          o                             r        activit                                                                           y               annexe                                                                                              s           tha                                                    t           prioritiz                                                                                                   e           Defens                                                                               e




 Contrac                                                                                               t    Managemen                                                                                                                                                                                             t               Agenc                                                                                                 y                   suppor                                                                                                       t            tha                                        t       wil                                              l    b                            e             provide                                                                                                 d                  t              o             a                           n         acquisitio                                                                                                                                        n             program                                                                                           ,




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          1            o                     f        5




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              4                  0




                                                                                                                                                                                                                                                                                 FO                                                                                              R                                       OFFICIA                                                                                                                                                                                                                                                                   L                                 US                                                                                 E                                       ONL                                                                                                                                       Y
          SUBJECT                                                                                                                                     :           Acquisitio                                                                                                                                                                          n                 o                                    f               th                                      e               Surface-Launche                                                                                                                                                                                                                                                                                                            d                Advance                                                                                                                                                                 d                 Medium-Rang                                                                                                                                                                                                                                             e               air-to-air




          Missil                                                                    e                   (Projec                                                                                                             t         Numbe                                                                                                                                         r                D2007-D000AE-0060                                                                                                                                                                                                                                                                                                                                                                                          )




           performanc                                                                                                                                                      e                 metric                                                                                                                    s                    an                                                   d                           standards                                                                                                                                                                     ,          an                                                  d                     identif                                                                                                                  y                   what                                                                                            ,         when                                                                                                              ,           where                                                                                                 ,         an                                                d                     ho                                         w                     th                                       e




           Defens                                                                                         e             Contrac                                                                                                                              t               Managemen                                                                                                                                                                                                                                 t         Agenc                                                                                                                    y                       staf                                                                       f               wil                                                 l           perfor                                                                                                                m                                activitie                                                                                                                                 s           t                        o                     suppor                                                                                                     t




          surveillanc                                                                                                                                         e                 unti                                                            l            th                                                    e                    electroni                                                                                                                                                  c                       Dat                                                                         a              Managemen                                                                                                                                                                                                                            t           Syste                                                                                                                m                      i                               s                     completed                                                                                                                                                                     ,




          DCM                                                               A                       COMMENTS                                                                                                                                                                                                                            :             Nonconcur                                                                                                                                                                                                                           .            DCM                                                                                                     A                    doe                                                                                  s                    no                                                         t            concu                                                                                                            r                wit                                                       h                  th                                   e                     recommendation                                                                                                                                                                                                                                               .




      W                     e                       hav                                                        e                a                             metho                                                                                                              d                        o                                  f             Implementatio                                                                                                                                                                                                                                          n                        alread                                                                                                                        y                    i                     n                plac                                                                                 e                      tha                                                         t         w                                             e                       believ                                                                                              e                      i                s                 mor                                                              e                 effectiv                                                                                                   e




     tha                                        n                 requirin                                                                                                                   g                tha                                                            t               th                                             e                     note                                                                                      d                informatio                                                                                                                                                                       n                           b                            e                    a                                            mandator                                                                                                                                                                          y                par                                                                  t               o                        f           th                                      e                MOA                                                                                             .




          DCM                                                           A                       polic                                                                           y                doe                                                                     s                           no                                                       t        requir                                                                                                    e                     th                                                    e                Inclusio                                                                                                                                 n                    o                                        f            th                                     e                     performanc                                                                                                                                                                                                                e                commitmen                                                                                                                                                                            t         strateg                                                                                                            y




     (surveillanc                                                                                                                                                          e                 plan                                                                        )                   i                         n                    th                                      e                        MOA                                                                                           s                     w                                        e                        execut                                                                                                              e                    wit                                                                     h                ou                                                          r           customers                                                                                                                                                                                        .             Inclusio                                                                                                                                    n              o                    f               th                                   e




     strateg                                                                                        y              (Anne                                                                                                    x             E                                          o                                     f        th                                          e                    MOA                                                                                               )               i                         s                discretionar                                                                                                                                                                                                       y                     unles                                                                                                      s                     requeste                                                                                                                                                          d                  b                                y            th                                           e                customer                                                                                                                                      .       Th                                                        e




          reaso                                                                     n                   tha                                               t           w                                   e                 d                        o                           no                                                              t         mak                                                                                     e                 th                                            e                     Inclusio                                                                                                                                 n                 o                               f               Anne                                                                                                       x                 E                                            mandator                                                                                                                                                                    y                  i                    s               tha                                                           t   ou                                                 r   commitmen                                                                                                                                                                             t




      i        s     no                                            t        t                       o           th                                    e                    activitie                                                                                                                                       s                tha                                                                  t            ar                                         e               th                                                  e                   strategy                                                                                                                                      ,           bu                                                             t            t                 o                    th                                             e                       result                                                                                                s                           (performanc                                                                                                                                                                                                      e




     commitments                                                                                                                                                                                      )           note                                                                                        d                     i                       n                th                                               e                    bod                                                                      y                        o                            f               th                                       e            MOA                                                                                                      .               Thi                                                                   s                    distinctio                                                                                                                                                                  n                        i                s                th                                     e               ver                                                            y                 hear                                                                   t           o                          f             DCM                                                                           A




     performance-base                                                                                                                                                                                                                                                                    d                    management                                                                                                                                                                                                                                             .        I                                   f           w                               e                       mad                                                                                        e                     th                                          e                       inclusio                                                                                                                                    n                       o                                     f        Anne                                                                                         x              E                                   mandatory                                                                                                                                                     ,




     the                                        n             w                                     e           woul                                                                              d                 b                           e                        committin                                                                                                                                                                                   g               no                                                              t           only                                                                          t                  o                       th                                    e                        result                                                                                                            s                     desired                                                                                                                                   ,                bu                                                t         t                     o               a                                Strateg                                                                                                  y                       (se                                                    t       o                        f




     activities                                                                                                            )            tha                                                       t           ma                                                         y                        nee                                                                           d                    t                             o                   chang                                                                                                              e                        i              f               th                                  e                        analysi                                                                                                                               s                 show                                                                                                    s                    tha                                                                 t            progres                                                                                                                              s                     towar                                                                               d                 th                                           e




     result                                                                     s               wa                                                s               no                                                t            satisfactory                                                                                                                                                                                                          .            Th                                                                   e                   preferenc                                                                                                                                                              e                            fo                                                 r        results                                                                                                                       I                        s                  bot                                                                   h                   logica                                                                                              l         an                                              d                   consisten                                                                                                                                     t




 wit                                h                    th                                     e              inten                                                                              t           o                           f         th                                                   e                      Budge                                                                                                                       t        an                                                     d                            Performanc                                                                                                                                                                                                      e                        Integratio                                                                                                                                                                        n                  directio                                                                                                                                   n               i                    n                  th                                   e                        President'                                                                                                                                          s




     Managemen                                                                                                                                                                      t            Agenda                                                                                                                                               ,           th                                             e                     Lean/Si                                                                                                                                        x                Sigm                                                                                           a                    initiativ                                                                                                                                   e                     o                                    f         th                                          e                 US                                                                         D                    (AT&L                                                                                                             )       an                                                 d       othe                                                                            r           Do                                                D




 initiative                                                                                                        s                t                     o                   reorien                                                                                                                         t                th                                       e                       managemen                                                                                                                                                                                                                         t            o                              f           th                                    e                    Departmen                                                                                                                                                                                                                 t        towar                                                                                                         d                 performanc                                                                                                                                                                      e                        results                                                                                                 .




     Whil                                                     e                 the                                                     inclusio                                                                                                                         n                           o                                  f            Anne                                                                                                  x              E                                    i                         s                   no                                               t           mandator                                                                                                                                                                             y             i                         n                    th                                            e                  MOA                                                                                                   ,          DCM                                                                                         A                    doe                                                                         s                  requir                                                                                     e                 tha                                               t




     contrac                                                                                              t     managemen                                                                                                                                                                                                                   t             office                                                                                                    s            execut                                                                                                                           e                        th                                         e                 strategie                                                                                                                                                              s                     (ak                                                                   a                 surveillanc                                                                                                                                                                                   e                   plans                                                                                )           t                     o                achiev                                                                                                    e




 thei                                               r         performanc                                                                                                                                                                       e                         commitments                                                                                                                                                                                                                                             .                   W                                                     e                      chos                                                                                      e                       anothe                                                                                                                               r               wa                                                                y                o                          f           ensurin                                                                                                                                g                     tha                                                        t            th                          e                       activitie                                                                                                            s




 tha                                    t           mak                                                                 e                     u                                p                 th                                   e              strategie                                                                                                                                                                         s                   ar                                      e                       executed                                                                                                                                                               .            Th                                                            e                     activitie                                                                                                                                      s                    tha                                                         t               compris                                                                                                                                      e                      th                                  e                   strategie                                                                                                                s                   ar                                           e




 containe                                                                                                              d                  I                       n                 th                                  e                 Individua                                                                                                                                                                           l        Performanc                                                                                                                                                                                                   e                     Plan                                                                                               s                    (IPP                                                                               )               o                                  f         th                                            e                functiona                                                                                                                                                         l           specialists                                                                                                                                                       .            B                                 y




 documentin                                                                                                                                                            g                    th                                    e                 strategie                                                                                                                                                                      s                   I                     n               thi                                                         s               fashion                                                                                                                           ,           w                                             e                       mak                                                                               e                     executio                                                                                                                                                                n               a                              direc                                                                                  t            linkag                                                                                       e                betwee                                                                                                             n




 th                     e                   organizationa                                                                                                                                                                                                        l       performanc                                                                                                                                                                                                            e                           commitment                                                                                                                                                                                                                s                           an                                                      d                     th                                            e                        factor                                                                                                   s                     tha                                                             t            determin                                                                                                                                 e




     performanc                                                                                                                                                    e                    o                           f            th                                       e                           DCM                                                                                                A                             workforce                                                                                                                                                                          .                T                                      o                 ensur                                                                                                                e                    tha                                                                t            th                                               e                    strategie                                                                                                                                                 s               ar                                                e            alway                                                                                            s




     maximall                                                                                                               y                 effectiv                                                                                                                           e                       w                                       e                     hav                                                                             e                 mad                                                                                     e                    th                                          e                organizationa                                                                                                                                                                                                                                             l         performanc                                                                                                                                                                                                         e               commitment                                                                                                                                                                                         s                 critica                                                                                       l




jo                  b                   element                                                                                                                           s              o                          f            th                                       e                           IP                                                  P                     o                                        f         th                                        e                individual                                                                                                                                                                  s                    wh                                                                o                       supervis                                                                                                                                                      e                       thos                                                                                      e                   executin                                                                                                                                    g                     th                          e                    activitie                                                                                                            s               o                               f




 th                  e                      strategies                                                                                                                                                .           Thi                                                                            s                 linkag                                                                                                                  e                    o                        f         organizationa                                                                                                                                                                                                                                         l               an                                                      d                 individua                                                                                                                                                           l       performanc                                                                                                                                                                                                e                     make                                                                                s                     ou                                         r




 PB                                         M                      approac                                                                                                                                h                 on                                                       e                       tha                                                            t           i                            s                 focuse                                                                                                                    d                    o                               n                        appropriat                                                                                                                                                                                e                     priorities                                                                                                                                          an                                                                         d                   "self-governing.                                                                                                                                                                                                                                   "             Wha                                                                           t




 need                                                               s               t                     o             b                             e                       achieve                                                                                                                                          d                     (th                                                     e                     results                                                                                                                       )         an                                                          d            wha                                                                             t               need                                                                                                   s                   to                                             b                                e                    don                                                                              e                   t                    o                  achiev                                                                                                        e                        thos                                                              e              result                                                                                      s




 i         s        ingraine                                                                                                                      d                   i                     n                 ou                                             r               norma                                                                                                                           l               cours                                                                                              e                        o                                    f        doin                                                                           g                   busines                                                                                                                                                  s                 an                                                          d                     i                    n                th                                              e                       ratin                                                                        g                    schem                                                                                                   e                    fo                                   r               bot                                                h




 ou                         r               organizationa                                                                                                                                                                                                            l       an                                                              d                    individua                                                                                                                                                          l           performanc                                                                                                                                                                                                      e                        assessments                                                                                                                                                                                                                                          .




 RECOMMENDATIO                                                                                                                                                                                                                                                                                                             N                          C                                                  3




 W                      e                    recommen                                                                                                                                                               d                 tha                                                                      t               th                                       e                       Commander                                                                                                                                                                                                                     ,            Defens                                                                                                                                        e                  Contrac                                                                                                                                                t               Managemen                                                                                                                                                                                                                   t




Agenc                                                                                   y                Spac                                                                                     e                Sensor                                                                                                                                         s                 an                                                         d                    Communication                                                                                                                                                                                                                                                                    s                           Operations                                                                                                                                                                                                     ,        Raytheo                                                                                                                                                      n                Integrate                                                                                                                                      d                Defens                                                                                                            e




 System                                                                                                  s             establis                                                                                                                          h                       letter                                                                                                     s                o                                     f            delegatio                                                                                                                                                              n            wit                                                            h                supportin                                                                                                                                                                                 g                   Defens                                                                                                                                     e                    Contrac                                                                                                                          t                Managemen                                                                                                                                                                            t




Agenc                                                                                   y                contrac                                                                                                                  t           managemen                                                                                                                                                                                                                              t         office                                                                                                         s                   fo                                      r               subcontracto                                                                                                                                                                                                                                  r              surveillanc                                                                                                                                                                                    e                   a                                t                Raytheo                                                                                                                      n




 Networ                                                                                             k           Centri                                                                                                  c                 System                                                                                                                                                s                    an                                                      d               Thale                                                                                                            s                    Raytheo                                                                                                                                                         n                    System                                                                                                                                             s            subcontractors                                                                                                                                                                                                                                                 ,            I                  n           accordanc                                                                                                                                                         e




wit                             h                       th                                  e                 Defens                                                                                                              e                 Contrac                                                                                                                                                              t         Managemen                                                                                                                                                                                                              t           Agenc                                                                                                                                 y                Instruction                                                                                                                                                                                       .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      o                f                5




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                4                                1




                                                                                                                                                                                                                                                                                                         FO                                                                                              R                                                  OFFICIA                                                                                                                                                                                                                                                                                                                                        L                                        US                                                                                                                 E                                         ONL                                                                                                                                                                                Y
 SUBJECT                                                                   :      Acquisitio                                                                                       n          o              f       th                      e           Surface-Launche                                                                                                                                                 d            Advance                                                                                         d         Medium-Rang                                                                                                            e                air-to-air




    Missil                           e         (Projec                                                                 t         Numbe                                                               r      D2007-D000AE.0060                                                                                                                                                                                        )




    DCM                          A           COMMENTS                                                                                                                          :   partiall                                                                         y        Concur                                                                     .   DCM                                                              A               ID                           S           wil                             l        establis                                                          h             a              lette                                r           o                 f       delegatio                                             n




    a        t       Thale                               s       Raytheo                                                                                     n        System                                                                     s       (TRS                                                )   t           o           suppor                                                          t       th                               e       upcomin                                                                                        g           Softwar                                                          e     Qualificatio                                                                                      n




Testin                                   g          (SQT)                                                          .   Thi                                   s        testin                                              g           i              s      currentl                                                             y         delaye                                                            d               base                                                 d             o                 n              th                          e          lat                  e       deliver                                                   y           o                 f




 Governmen                                                                                  t   Furnishe                                                                               d            Equipmen                                                                                    t       (GFE                                                )       bu                     t       wil                                   l        b                 e          complete                                                                                        d     prio                                 r     to               th                    e           en                                d       o        f   2           n    d




quarte                                   r      F                Y               08                            .




A                t    thi        s       tim                          e                th                  e               wor                                   k        at                      Raytheo                                                                      n      Networ                                                                    k        Centric                                                                       System                                                                             s             (NCS                                         )     I          s          complete                                                                                d       an               d   an           y




futur                        e       delegation                                                                                              s       woul                                           d        b                    e          limite                                         d            t           o           rewor                                                 k       o                         r       repai                                                 r        o             f           th                        e            item                            s         delivere                                                                d                 t         o




Raytheo                                                      n       IDS                                           .       Therefore                                                                                          ,       give                                     n      the                                completio                                                                                           n           o                 f        th                      e       wor                                             k            a             t   Raytheo                                                                 n       NCS                                                   ,   w            e




conside                                              r       a                 forma                                                     l       delegatio                                                                            n              t          o       no                          t   b                e           necessar                                                                                     y           o                 r        cos                              t           effective                                                                      .




                                                                                                                                                                                                                                                                                                                                                    3       o             f        5




                                                                                                                                                                                                                                                                                                                                                                                       4           2




                                                                                                                                                                 FO                                              R                        OFFICIA                                                                                                                                                                L                                US                                                      E                                   ONL                                                                                     Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Fina                  l       Repor           t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            Referenc                           e




               SUBJECT                                                                                                                  :        Acquisitio                                                                                                                               n               o                                    f       th                            e                Surface-Launche                                                                                                                                                                                                                        d                   Advance                                                                                                        d               Medium-Rang                                                                                                                                                                   e             Air-to-AI                                                                                  r




               Missil                                                       e                   (Projec                                                                                                t       Numbe                                                                                                  r                D2007-0000AE-0060                                                                                                                                                                                                                                                                                 )




            Technical                                                                                                  Comments                                                                                                                                                                                   ;




               RECOMMENDE                                                                                                                                                                                                       D                  CHANGE                                                                                                                                        S                  T                     O                 TH                                                      E                 REPOR                                                                                                                      T




           STATEMENT                                                                                                                                                                 :




            Factor                                                                  s                    causin                                                                                        g                th                             e                rebaselinin                                                                                                                                               g           an                                       d                   associate                                                                                                                             d                   cos                                         t        increas                                                                                             e           include                                                                                           d            th                           e         Arm                                              y        no                                           t




           sufficientl                                                                                                         y         definin                                                                                               g               capabilit                                                                                                                 y             requirement                                                                                                                                                         s             i                n            th                                        e            operationa                                                                                                                         l        requirement                                                                                                                                         s           documen                                                                                                              t




           use                                      d             t             o                        develo                                                                                    p                   th                              e                draf                                                           t           capabilit                                                                                                y             productio                                                                                                                               n              documen                                                                                                                  t            (CPD)                                                                                      ,      contracto                                                                                                    r     difficultie                                                                                            s                   i       n




           understandin                                                                                                                                                     g             an                                           d               allocatin                                                                                                                 g               syste                                                                    m                            requirement                                                                                                                                                             s        t               o




           subcontractors                                                                                                                                                                          ,       an                                          d                the                                            DCM                                                                                A                 commande                                                                                                                                             r           no                                      t               completel                                                                                                                  y            adherin                                                                                               g           t                o               polic                                                 y            an                                d




           guidance                                                                                                    .




          Section                                                                                    :         Backgroun                                                                                                                                                   d             (Pag                                                                          e                 2                          )
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Pag                 e       2




           Paragraph                                                                                                                    :          Progra                                                                                                       m                    R                            e                        baselin                                                                                    e




         SUGGESTE                                                                                                                                               D                        CHANGE                                                                                                                                            :


                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Revise                                  d




         Factor                                                                 s                causin                                                                                        g                   th                              e                rebaselinin                                                                                                                                               g           an                                       d                   associate                                                                                                                             d                   cos                                        t            increas                                                                                          e           include                                                                                           d           th                            e         Arm                                              y           no                                    t




         sufficientl                                                                                                       y           definin                                                                                             g               capabilit                                                                                                                 y               requirement                                                                                                                                                   s                 i                n               th                                     e               operationa                                                                                                                      l       requirement                                                                                                                                          s               documen                                                                                                          t




         use                                    d            t              o                   develo                                                                                         p                   th                              e                draf                                                           t           capabilit                                                                                                y                productio                                                                                                                            n                 documen                                                                                                               t        (CPD                                                                           )           an                                   d           contracto                                                                                                        r




      difficultie                                                                                                  s           i             n             understandin                                                                                                                                                                                     g           an                                          d             allocatin                                                                                                               g        syste                                                                                 m                     requirement                                                                                                                                            s               t                    o             subcontractors                                                                                                                                                       .




     A                facto                                                             r            tha                                           t       ma                                                  y                hav                                                  e            contribute                                                                                                                                       d            t              o                   th                                 e                   rebaselinin                                                                                                                               g                     an                                       d                associate                                                                                                              d                cos                                       t           increas                                                                             e       wa                                               s




      th                    e                 DCM                                                                  A               commande                                                                                                                                                   r       no                                                    t        completel                                                                                                                         y            adherin                                                                                                      g                   t                   o          polic                                                     y               an                                   d                 guidance                                                                                                                   .




     DCM                                                      A                 COMMENTS                                                                                                                                                                                   :




     Whil                                               e             th                                   e           lac                                          k                o                         f            adherenc                                                                                                                             e           t                   o                  polic                                                      y               ma                                                     y           hav                                                       e                limite                                                                  d           th                                e                visibilit                                                                                   y         o                    f       th                                e       SLAMRAA                                                                                                                           M




     Projec                                                                 t       Manage                                                                                                                 r            int                                     o              selecte                                                                                                       d                cos                                       t           an                                          d                schedul                                                                                                         e                   issues                                                                       ,       i                 t        bein                                                         g                   characterize                                                                                                                             d            a                    s        on                                           e




     o            f        th                           e             primar                                                                                    y               cause                                                                                      s         o                        f           th                                     e           rebaselinin                                                                                                                                              g               i            s                 probabl                                                                                                y       a                            n            overstatement                                                                                                                                                                         .           Recommen                                                                                                                           d




     th                    e              chang                                                                                e            note                                                                   d                above                                                                                      .




    STATEMENT                                                                                                                                                               :




 Th                                 e           DCM                                                                    A                official                                                                                           s               state                                                                       d                tha                                               t         performance-base                                                                                                                                                                                                                                     d           managemen                                                                                                                                                            t            enable                                                                            s       DCM                                                                A         to




    mor                                         e            efficientl                                                                                                          y             us                                          e               limite                                                                                  d            resource                                                                                                           s               t                     o            suppor                                                                                         t               progra                                                                               m                    manager                                                                                                                    s            b                    y               establishin                                                                                                           g




    performanc                                                                                                                              e              metric                                                                                          s            an                                        d                    standard                                                                                                             s              I                   n                th                                e               MO                                                   A                     t                       o          focu                                                  s           an                                         d          measur                                                                                                 e                DCMA                                                                      '    s                effort                                                     s                       i       n




    meetin                                                                      g                        customer-desire                                                                                                                                                                                                           d                   outcomes                                                                                                                            ,




 Section                                                                                    :             Defens                                                                                                        e            Contrac                                                                                                                t     Managemen                                                                                                                                                               t       Agenc                                                                                              y                Suppor                                                                                   t        t                o             SLAMRAA                                                                                                                                      M            (Pag                                                               e       12                            )




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Pag                 e       1           4
 Paragraph                                                                                                                         :        Applicabl                                                                                                                                e            Polic                                                                              y               an                                   d            Guidanc                                                                                                                       e




SUGGESTE                                                                                                                                               D                        CHANGE                                                                                                                                             :




Chang                                                                       e                   th                                 e            clause"..                                                                                                                        .       DCMA'                                                                                                        s              effort                                                                s                i                n                meetin                                                                                             g                   customer-desire                                                                                                                                                                                            d             outcomes,                                                                                                                 "       i            n                                                                                     Revise                                  d




th                     e                3rd                                 sentenc                                                                                                       e                (show                                                                                  n                   above                                                                                         )         to"..                                                        .           DCMA'                                                                                              s                effort                                                               s           in                            helpin                                                                                  g               customer                                                                                                       s                mee                                                   t   thei                                           r




desire                                                                  d               outcomes.                                                                                                                                              "




STATEMENT                                                                                                                                                               :




A                 s             a                   result                                                                         ,     DCM                                                                                A           coul                                                          d                   bette                                                                               r         suppor                                                                                       t       th                               e                progra                                                                                           m               manage                                                                                                   r            b                           y                   focusin                                                                                g   it                         s         limite                                                          d




resource                                                                                                       s       throug                                                                                           h             performanc                                                                                                                                                          e               metric                                                                                s                an                                     d                standard                                                                                                           s               to                                achiev                                                                                      e                customer-desire                                                                                                                                                                        d




outcome                                                                                                    s           an                                   d                   enabl                                                                               e           hi                                m                                t             o           provid                                                                                 e              Informe                                                                                                        d               recommendation                                                                                                                                                                                                          s                   o                      n             contracto                                                                                                   r




performance                                                                                                                                            .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  4           o                        f         5




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             4                    3




                                                                                                                                                                                                                                                           FO                                                                              R                                 OFFICIA                                                                                                                                                                                                                                             L                                       US                                                                       E                                   ONL                                                                                                                          Y
         Fina                                           l       Repor                                                         t




                    Referenc                                                                              e




                                                                                                                                              SUBJECT                                                                                              ;        Acquisitio                                                                                                                                        n                 o                        f       th                                e            Surface-Launche                                                                                                                                                                                             d                Advance                                                                                                       d                Medium-Rang                                                                                                                      e             Air-to-A|                                                                                 r




                                                                                                                                              Missil                                    e              (Projec                                                                                                t       Numbe                                                                                                          r           D2007-000AE                                                                                                                                                                              -0060                                                                            )




                                                                                                                                          Section                                                              :      Defens                                                                                                            e               Contrac                                                                                                               t        Managemen                                                                                                                                     t     Agenc                                                                                                 y         Suppor                                                                                      t        to                           SLAMRAA                                                                                          M             (Pag                                                  e        12                                    )
Pag                                       e                 1               5




                                                                                                                                          Paragraph                                                                                                     :      Cause-and-Effec                                                                                                                                                                                                                                   t   Analysi                                                                             s             Anne                                                                                 x




                                                                                                                                          SUGGESTE                                                                                                                        D                        CHANGE                                                                                                                                                    :

Revise                                                                  d




                                                                                                                                          I      n      th                      e       3rdsentenc                                                                                                                                                e             (show                                                                                            n                above)                                                                      ,           chang                                                                        e                   th                                       e              claus                                                      e            "..                             .               t                         o       achiev                                                    e           customer-desire                                                                                                                                                       d




                                                                                                                                        outcome                                                                           s               an                                      d                         enabl                                                                        e                        hi                              m                       t            o                    provid                                                            e         Informe                                                                                                    d                    recommendations                                                                                                                                                                                o                        n          contracto                                                                                  r




                                                                                                                                        performance                                                                                                                               "               to                                   "..                                           .           to                                 hel                                           p                th                         e         custome                                                                                            r           achiev                                                                                             e             It               s             desire                                                                            d             outcome                                                                  s        an                                    d              enabl                                     e                    th                              e




                                                                                                                                        progra                                                m                      manage                                                                                                                  r         t                     o               provid                                                                                    e                informe                                                                              d           recommendation                                                                                                                                                                                                   s        o                                        n            contracto                                                                      r    performance.                                                                                                                                    "




                                                                                                                                       STATEMENT                                                                                                                                      :




                                                                                                                                       Section                                                             :        Defens                                                                                                        e                   Contrac                                                                                                             t        Managemen                                                                                                                                    t         Agenc                                                                                              y            Suppor                                                                               t           t                     o           SLAMRAA                                                                                     M              (Pag                                                  e           13                                 )




Pag                                       e                 1               5

                                                                                                                                       Paragraph                                                                                                   :        Action                                                                                              s                t                        o                 Improv                                                                                   e            th                      e                Qualit                                                                  y               o                           f         Surveillanc                                                                                                                       e                        Plan                                                s




                                                                                                                                       SUGGESTE                                                                                                                       D                       CHANGE                                                                                                                                                 :




Revise                                                                  d
                                                                                                                                                                                               Capitaliz                                                                                                          e               th                                     e                   wor                                                         d            "electronic                                                                                                            "       i             n                 th                                e                 1st                                         sentence                                                                                                      ,




                                                                                                                                                                                               Chang                                                                          e                        th                                    e                 wor                                                          d             "provide                                                                                        "       i               n                th                        e                 1st                                     sentenc                                                                                               e           to                           "link.                                                                   '




                                                                                                                                       DCM                                      A            COMMENTS                                                                                                                                                                                    :




                                                                                                                                                             •         Th                                                             e                applicatio                                                                                                                            n                     is                        th                                    e                Electroni                                                                                    c           Dat                                                       a                 Managemen                                                                                                                                                 t           Syste                                                            m           (EDMS)                                                                     ,




                                                                                                                                                             •         Th                                                             e                EDM                                                                    S                   wil                                                 l       no                                         t       "provide                                                                                 "           o                  r           hous                                                                  e              al                                   l     o                     f       th                    e               informatio                                                                                                         n        note                                   d            bu                                t       wil                    l       b             e           th                                   e




                                                                                                                                                                                               lin                            k           tha                                             t        connect                                                                                                                      s          tha                                                 t        informatio                                                                                                 n                an                                               d                 enable                                                                        s                effectiv                                                                                     e        configuratio                                                                                           n                 contro                                                      l       o                           f




                                                                                                                                                                                              th                      e               same                                                                                .




                                                                                                                                   STATEMENT                                                                                                                                  :




                                                                                                                                   (3rdparagraph                                                                                                                                              ;         2nd                                                sentence)DCM                                                                                                                                                                                                                          A               di                                        d                       not                                             establis                                                                               h        a                                   mandator                                                                                y        requiremen                                                                                                  t   fo                                       r




                                                                                                                                   contrac                                                         t           managemen                                                                                                                                                                 t                office                                                                           s            t            o             us                             e               surveillanc                                                                                                                                  e                 plan                                             s          o                 r               activit                                                             y            annexe                                                            s     i              n                 th               e           Interim                                                                        ,




                                                                                                                                   Section                                                             :           Defens                                                                                                     e                  Contrac                                                                                                              t       Managemen                                                                                                                                    t         Agenc                                                                                               y              Suppor                                                                         t               t                   o             SLAMRAA                                                                                     M                (Pag                                                e           1             3                )




Pag                                       e                 1               5



                                                                                                                                   Paragraph                                                                                                   :        Action                                                                                             s             t                        o                     Improv                                                                                   e       th                           e           Qualit                                                                       y               o                         f         Surveillanc                                                                                                                     e                           Plan                                                s




                                                                                                                                  SUGGESTE                                                                                                                        D                   CHANGE                                                                                                                                                 :




No                              t             deleted                                                                 ,

                                                                                                                                   Delet                                    e           paragrap                                                                                                                      h                 3                           .




    se                  e           Audit




Respons                                                                               e           t           o
                                                                                                                                   DCM                                      A           COMMENTS                                                                                                                                                                                     :




Managemen                                                                                                                 t
                                                                                                                                  Se                    e        DCM                                                              A                    respons                                                                                                               e               t                          o           findin                                                                      g        C.                           2               wherei                                                                               n                   w                                e              no                                       n        concu                                                                          r          wit                              h      th                       e        recommendatio                                                                                                                                       n               o                       f




    Comment                                                                                           s
                                                                                                                                  addin                                             g    a                           surveillanc                                                                                                                                             e               pla                                                 n               t                 o                Anne                                                  x               E                      o                     f       th                                  e                 MOA                                                                       .




t          o           Recom                                                                  ¬




mendatio                                                                                  n




    C.                      2         o                          n              pag                               e




     1          8




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 5              o                      f           5




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           4                   4




                                                                                                                                                                                                                                                                                                                                                                    FO                                                                       R                                     OFFICIA                                                                                                                                                                                                              L                                    US                                                                       E                                         ONL                                                                                        Y
Departmen                                                                 t       o                              f                th                                    e              Army                                                                                       ,        Projec                                                                               t   Manager                                                                             ,




 Cruis       e      Missil                                                                         e                     Defens                                                                                                    e            Syste                                                                        m                                Comment                                                                                           s




                                                                                                                                                                                                                              UNCLASSIFIE                                                                 D




                                 Surfac                                                e           Launche                                                                                                     d              Advance                                                                                 d                 Mediu                                                         m                        Rang                     e




                                            Air-to-Ai                                                                                          r           Missil                                                             e         (SLAMRAAM                                                                                                                                   )         Syste                                             m




                             Comment                                                                         s            t                o          th                    e            propose                                                                          d           Do                      D                  Inspecto                                                                 r           Genera                                l




            Repor                                       t   "Acquisitio                                                                                                         n             o            f         th                     e           Surface-Launche                                                                                                                                       d            Advance                                  d




                                                                                           Mediu                                                                    m           Rang                                                    e         Air-to-Ai                                                                                     r   Missile                                                            "




                                          Projec                              t       No                             .        D2007-D000AE-0060.000                                                                                                                                                               ,   date                                     d        Augus                                     t   17              ,   200       7




                                                                                                                                                                                                   1   0           Septembe                                                                     r   200                      7




                                                                                                                                                                                                                                                                  4           5
  Fina                  l       Repor       t




         Referenc                       e




                                                                                                                                                                                                                                                                                                                                                                                                       EXECUTIV                                                                                                                                                                      E                     SUMMAR                                                                                                                                                                           Y




                                                         Comment                                                                                                                                      s           t                   o                    th                                       e                        propose                                                                                                        d              Do                                                 D                            Inspecto                                                                                                                                 r                Genera                                                                                                                 l             Repor                                                                                           t             "Acquisitio                                                                                                                                                           n




                                                          o            f            th                                   e             Surface-Launche                                                                                                                                                                                                                                                                d               Advance                                                                                                                                d                     Mediu                                                                                                          m                                   Rang                                                                                e           Air-to-Ai                                                                                                                                           r                        Missile                                                                                "




                                                                                                                                      Projec                                                                                          t             No                                                          .         D2007-D000AE-0060.000                                                                                                                                                                                                                                                                                                                                                               ,            date                                                                     d                Augus                                                                                    t           17                                                          ,         200                                                                7




                                                                                                                                                                                                                                                                                                                                                                                                                                                                              1                0          Septembe                                                                                                                           r         200                                                        7




                                                     1        .        Overvie                                                                                                                       w




                                                Th                          e            Cruis                                                                    e                Missile                                                                                 -            Defens                                                                                        e           Syste                                                   m                       (CMDS                                                                                                        )       Projec                                                                                t       Office                                                                                 ,       Produc                                                                                  t        Manage                                                                                                    r                    (PM                                                  )           fo               r




                                                th                 e            Surfac                                                                                e            Launche                                                                                                          d                         Advance                                                                                             d             Mediu                                                                              m                       Rang                                                                        e         Air-to-Ai                                                                                                                     r           Missil                                                                      e                (SLAMRAAM                                                                                                                                                                                        )




                                                -Syste                                                        m                   ha                                      s            reviewe                                                                                                 d                    th                             e               subjec                                                               t       documen                                                                                                         t        an                                      d                 offer                                                         s                th                                      e            followin                                                                                       g                 comment                                                                                                                       s              t                o             th                       e




                                                 finding                                                                      s          state                                                                d          i                  n               th                                 e                report                                                                        .




                                                Th                          e            followin                                                                                                         g           comment                                                                                                                          s           addres                                                                   s          statement                                                                                                                 s             matt                                                      e                    i          n                th                                      e               I            G                Repor                                                                      t           (i                n         italics                                                                                        )                followe                                                                        d




                                                by                th                                      e             PM-SLAMRAA                                                                                                                                                                                                            M                          rationa                                                                   l       fo                              r           non-concurrence                                                                                                                                                                                                            .       Specifi                                                                                 c               comment                                                                                                             s           t                   o                       th                           e




                                                executiv                                                                                      e           summar                                                                                                       y                 wer                                                       e               no                              t           mad                                        e            sinc                                                    e               i            t        i                    s            a                     summar                                                                                                       y                   o                f      th                             e            findings                                                                                        .




                                                1.                     IG                                             Repor                                                                                       t      -                      Backgroun                                                                                                                                                      d            Sectio                                                                        n




                                                      "Factors                                                                                    causing                                                                                                   the                                                      rebaselining                                                                                                                         and                                                         associated                                                                                                                             cost                                                             increase                                                                                                        included                                                                                          the.                                                          Army                                                                 not




                                                sufficiently                                                                                                              defining                                                                                                      capability                                                                                                                    requirements                                                                                                                                                        in                                 the                                              operational                                                                                                                                requirements                                                                                                                                                           document




                                                used                                                 to                           develop                                                                                            the                                                 draft                                                             capability                                                                                             production                                                                                                                                     document                                                                                                                                             (CPD),                                                                             contractor                                                                                                                        difficulties




                                                in                understanding                                                                                                                                                                     and                                                                  allocating                                                                                                   system                                                                                       requirements                                                                                                                                                          to                                           subcontractors,                                                                                                                                                     and                                                                       the                                                    DCMA




Pag                 e       2
                                                commander                                                                                                                                  not                                        completely                                                                                                                                      adhering                                                                                            to                                  policy                                                                       and                                                        guidance."                                                                                                                               (IG                                                   Report                                                                                  page                                                                            2)




                                                The                                      CMD                                                                      S                    Projec                                                                              t            Offic                                                                      e               non-concurs                                                                                                                        ,       wit                                            h                 thi                                      s        conclusion                                                                                                                                     .




                                                Ther                                             e                i           s          n                        o                 evidenc                                                                                               e                 t                        o        suppor                                                                         t        tha                              t          ther                                                     e           i              s                  an                              y                  correlatio                                                                                                                     n           betwee                                                                                  n            th                        e                       nee                                           d                 t                          o            re                       -




                                                baselin                                                                       e          th                                   e              SLAMRAA                                                                                                                                                           M                      progra                                                                  m                       an                                  d                the                                            capabilit                                                                                                       y                 requirements,                                                                                                                                                       system                                                                                          s             engineerin                                                                                                          g




                                                planning                                                                                          ,       o                        r             th                          e             us                                  e               o                          f              DCMA.                                                                                   Th                               e           reason                                                                                     s               fo                          r                 th                        e                re-baselin                                                                                                                   e            ar                              e          twofold                                                                                            :           1                           )                th                          e




                                                contracto                                                                                             r           faile                                                          d              t                 o                    follo                                                               w                   establishe                                                                                                      d          engineerin                                                                                                                                 g               processe                                                                                                           s               whic                                                     h                 required                                                                                                     th                                       e




                                                Governmen                                                                                                                              t         t                o              direc                                                                  t                tha                                       t          th                           e         contracto                                                                                            r            (Raytheo                                                                                                              n                    Integrate                                                                                                             d            Defens                                                                              e        Systems                                                                                                                         )        sto                                   p




                                                developmen                                                                                                                                   t           an                                d               addres                                                                                          s            th                         e            associate                                                                                         d                problems                                                                                                                  ,        an                                          d               2                           }         Congressiona                                                                                                                                      l               actio                                                                       n                  i                 n             200                                  6




                                                tha                             t        denie                                                                d                   request                                                                                          s           fo                                    r        additiona                                                                                            l       mone                                                                        y           t                      o                   cove                                                   r               th                              e                 contracto                                                                                                              r       overru                                                                          n                 an                                  d                 th                                      e            Marin                                                  e




                                                Corp                                                  s               withdrawa                                                                                                                        l         fro                                                     m                    th                               e          progra                                                              m                       i               n               2006                                                                     .




                                                Th                          e            contracto                                                                                                            r         performanc                                                                                                                                                    e           shortfal                                                                        l            wa                                      s           documente                                                                                                                                         d                 i                      n                   a                contract                                                                                        s        lette                                                   r             t                   o              th                                      e




                                                contracto                                                                                             r               date                                                   d                  Marc                                                                             h            9,                              200                                      5          (U                               S                  Arm                                                          y                Aviatio                                                                                           n                 an                                            d                   Missil                                                                  e               Comman                                                                                                      d                   AMSAM                                                                                                                   -




                                                AC-SM-                                                                                            T                   (SL-007-05))                                                                                                                                                                     .       Th                                      e           lette                                      r            documente                                                                                                                                     d                  th                                e         contractor'                                                                                                                                   s           "failur                                                                     e                 t              o                  execut                                                                                   e         a




                                                rigorou                                                                           s      syste                                                                    m                       engineerin                                                                                                                                      g            process                                                                             ,        delinquen                                                                                                                      t         o                   r                incomplet                                                                                                                    e            dat                                       a                 deliveries                                                                                                                        ,




                                                incomplet                                                                                                         e               traceabilit                                                                                                                                y            o                    f             requirement                                                                                                                      s               throug                                                                                 h                  th                                e         hardwar                                                                                                         e          an                                 d             software                                                                                                      ,       an                                            d             wha                                                t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      1




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     4                             6




                                                                                                                                                                                                                                     FO                                                                                      R                                     OFFICIA                                                                                                                                                                                                                                  L                                     US                                                                                                  E                              ONL                                                                                                                          Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Fina              l       Repor             t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         Referenc                     e




appeal                                                              s            t                        o                  b                            e                         a                         fundamenta                                                                                                                                                    l               misinterpretatio                                                                                                                                                                                                   n                      o                         f             som                                                                e           contrac                                                                                                  t                requirement                                                                                                                                                                      s               resultin                                                                                                    g       i                       n




unresolve                                                                                                         d                  issue                                                                                       s               wit                                               h                 respec                                                                                     t         t                o               th                                 e                desig                                                                       n             approaches,                                                                                                                                                                    "




Th                         e             lette                                                    r                   informe                                                                                                                      d                Raytheo                                                                                                                      n              tha                                             t             th                                e               Governmen                                                                                                                                                      t               wa                                             s               dissatisfie                                                                                                                                       d                     wit                                             h                   it                             s          manne                                                                                                 r                o            f




performanc                                                                                                                                       e                 wit                                                       h                   respec                                                                                  t       t                      o                   deliver                                                                                           y                    o                     f          syste                                                                     m                        engineerin                                                                                                                                                   g                products                                                                                                                               ,       tha                                            t               i            t           di                                   d                    no                                          t        fulfil                                           l




th                 e            entranc                                                                                                      e            criteri                                                                                              a           fo                                    r          a                    SLAMRAA                                                                                                                                                                            M                        Syste                                                                             m                     Preliminar                                                                                                                                                     y              Desig                                                                                              n             Review                                                                                                          ,         tha                                              t          i                       t




woul                                                d       no                                                t          procee                                                                                                              d             wit                                               h                softwar                                                                                                  e               developmen                                                                                                                                                                 t            unti                                                                l         authorize                                                                                                                           d                 b                              y                  th                                 e               Government                                                                                                                                                                            ,        an                           d




tha                         t           hardwar                                                                                                                    e                    manufacturin                                                                                                                                                                                g                  woul                                                                       d               no                                      t         begi                                                           n                      unti                                                     l               th                                e            requisit                                                                                                         e              desig                                                                                 n                review                                                                                                  s            ar                                  e




successfull                                                                                                                              y              completed                                                                                                                                                      .        Th                                              e                Governmen                                                                                                                                                           t          requeste                                                                                                                   d                    a                    recover                                                                                                     y                 pla                                                        n                 whic                                                                   h                    include                                                                                                   d                        a




serie                                               s   o                       f            incrementa                                                                                                                                                                     l            review                                                                                              s              leadin                                                                                     g                t                o               a                        Syste                                                                        m                         Critica                                                                                                    l       Desig                                                                                     n                   Review                                                                                                           ;           thi                                           s               recover                                                                                            y




pla                            n               wa                                    s                delivere                                                                                                                               d                 b                         y                 Raytheo                                                                                                            n                i                    n                  Apri                                                          l               2005                                                                      .




Th                         e             Governmen                                                                                                                                                                      t            lette                                                             r              documente                                                                                                                                               d               evidenc                                                                                                     e                   o                        f            thes                                                                e            facts                                                                      :           "th                                          e                    Governmen                                                                                                                                                                 t           an                                         d




Raytheo                                                                                  n                        hav                                                                           e          jointl                                                                        y                 develope                                                                                                                    d                an                                            d                 agreed                                                                                    t                        o               SPD                                                                      R                (Syste                                                                                            m                          Preliminar                                                                                                                                                       y            Desig                                                                                         n




Review                                                                          )            entry                                                                                                  criteri                                                                              a                 tha                                       t               furthe                                                                            r                  specif                                                                             y              product                                                                                                            s                   neede                                                                                d               t                    o             hol                                                    d                   a                            successfu                                                                                                                             l           review                                                                                     .           I           n




th                 e            Government'                                                                                                                                                                                          s            opinio                                                                                     n                   th                                     e               dat                                              a              an                                      d             product                                                                                                      s          delivere                                                                                                                      d           t                       o              dat                                                    e                fai                                      l           t                    o            mee                                                               t         th                                       e




requirement                                                                                                                                               s                    ..                               .       Importan                                                                                                                         t            product                                                                                                           s             require                                                                                        d                    b                            y             th                                        e                contrac                                                                                                 t         o                   r                entr                                                                    y            criteri                                                                                 a                   ar                                    e




unavailabl                                                                                                                       e               fo                                             r              revie                                                                    w                    o                       r           wer                                                            e             delivere                                                                                                         d                     incomplete                                                                                                                                                     .       Th                                              e               technica                                                                                                                      l           adequac                                                                                                               y                 o                           f               th                                  e




derive                                                      d                   requirement                                                                                                                                                                                     s             an                                     d            allocate                                                                                                               d              baselin                                                                                                 e        flo                                               w                     dow                                                                     n                i                     s           deficient                                                                                                                             .           Softwar                                                                                                           e




requirement                                                                                                                                           s                ar                                           e                no                                t                complet                                                                                                             e            o                     r               stable                                                                           .            Th                                      e                interface                                                                                                                          s        amon                                                                                       g                th                                      e               Configuratio                                                                                                                                                                            n                Item                                                         s




ar                 e            incomplet                                                                                                                                               e                 an                                      d                deficient                                                                                                                 .         Th                                          e                    ful                                         l       bi-directiona                                                                                                                                                                          l         traceabilit                                                                                                                                  y                  fo                                       r                   eac                                         h                   individua                                                                                                                                   l




softwar                                                                     e                requiremen                                                                                                                                                                             t          a                       s         require                                                                                                   d               b                            y                 th                             e            contrac                                                                                                   t         an                                                d               th                                e             contractua                                                                                                                                                    l        Softwar                                                                                                              e




Developmen                                                                                                                                                     t                    Pla                                                   n                i                s                absent                                                                                     ,            negatin                                                                                                   g                th                               e              abilit                                                                     y              t                    o                       determin                                                                                                                    e             th                                       e                   maturit                                                                                                  y                o                       f            th                                       e         softwar                                                                                     e




an                     d               safet                                                          y                  requirements"                                                                                                                                                                                                       .




O              n                Findin                                                                                       g                   B,                                                  th                                  e             I              G                            reporte                                                                                             d                 th                                e                  following                                                                                                                       :




     "      Without                                                                                           tying                                                                                        technical                                                                                                                     reviews                                                                                                               to                                     event-driven                                                                                                                                                            criteria                                                                                                      through                                                                                                                    established                                                                                                                                                             entrance




and                                    success                                                                                                                criteria                                                                                                for                                                  these                                                                                        reviews,                                                                                                        the                                                product                                                                                                     manager                                                                                                                                    cannot                                                                                                        ensure                                                                                          that                                                                  technical




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Page                    s      10-1       1
reviews                                                                         are                                                              held                                                                        only                                                              when                                                                             program                                                                                                                accomplishments                                                                                                                                                                                                                                       make                                                                                      them                                                                           warranted                                                                                                                                         and




meaningful                                                                                                                           in                                                     measuring                                                                                                                                    program results                                                                                                                                                                                                                         (IG                                                  Report                                                                                                 page                                                                           8)."




Thi                                s           statemen                                                                                                                                     t            implie                                                                                        s             tha                                         t          th                                      e         P                        M                                di                                  d            no                                        t           tie                                    technica                                                                                                                l           reviews                                                                                                        t                                o                   event-drive                                                                                                                                                    n                    criteria                                                                                      .




A             s            ca                           n               b                             e                see                                                              n                 fro                                              m                        th                                 e           contrac                                                                                                 t           lette                                                                r           jus                                            t        quoted                                                                                                 ,           tha                                        t               wa                                            s           no                                         t         th                                       e                   case                                                        .        Th                                               e              CMD                                                                                          S




Projec                                                          t       Offic                                                                                          e                        non-concur                                                                                                                                                   s           wit                                                   h               thi                                            s                implication                                                                                                                                                .




A             stron                                                             g                 syste                                                                                              m                      engineerin                                                                                                                                              g                 proces                                                                                      s                wa                                            s          i                  n          place                                                                            :               th                                    e           contracto                                                                                                                            r                   faile                                                                 d                t                 o                   follo                                                                  w                     i                     t               an                    d




th                 e            SLAMRAA                                                                                                                                                                             M                             Governmen                                                                                                                                                              t         P                            M                             use                                              d                     effectiv                                                                                                   e              managemen                                                                                                                                                                      t          control                                                                                                          s       t                            o              correc                                                                                  t           th                                e




situation                                                                                     .




Th                         e             nee                                         d                    t                          o                re-baselin                                                                                                                                             e             th                                e              SLAMRAA                                                                                                                                                                  M                                 progra                                                                                         m                                 wa                                        s                no                                           t       du                                         e              t                       o                   th                                e               capabilit                                                                                                                         y




requirements                                                                                                                                                               ,            system                                                                                                 s            engineerin                                                                                                                                              g                 planning                                                                                                            ,           o                            r           th                                  e                   us                                e            o                             f        DCMA                                                                                                               .         Thes                                                                    e                area                                                                s             ar                                   e




discusse                                                                                 d                        i                      n                th                                              e             Finding                                                                                                      s           below                                                                                     .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                4                     7




                                                                                                                                                                                                                 FO                                                                                    R                                     OFFICIA                                                                                                                                                                                                                                                                                      L                                      US                                                                                                     E                                           ONL                                                                                                                                                              Y
  Fina                  l       Repor       t




         Referenc                       e




                                                      3            .    Findin                                                                                                     g            A                              :           Definin                                                                                                 g                Capabilit                                                                                                                                       y              Requirement                                                                                                                                                                                          s




                                                      Th                            e           CMD                                                                       S                 Projec                                                                                   t         Offic                                                                    e             non-concur                                                                                                                                                    s           wit                                               h                  thi                                         s               finding                                                                                                    .




                                                           "The                                              Director                                                                                                 of                                         Combat                                                                                                      Developments                                                                                                                                                                                  (DCD),                                                                                                    U.S.                                                                     Army                                                                                   Air                                         Defense                                                                                                            Artillery                                                                                       School




                                                  did                                   not                                     sufficiently                                                                                                                                   define                                                                                       capability                                                                                                                        requirements                                                                                                                                                                                for                                         the SLAMRAAM                                                                                                                                                                                                                               in                             the                                          draft                                                             CPD




                                                      being                                                      prepared                                                                                                          for                                              Army                                                                      staffing                                                                                                          to                                  support                                                                                               the                                                LRIP                                                                         decision                                                                                                                     program                                                                                                              review                                                                                            planned




                                                for                         FY                                            2010."                                                                                     (IG                                                        Report                                                                                      page                                                                             4)


Pag                 e       4




                                                  Th                             e              CMD                                                                       S                 Projec                                                                                   t         Offic                                                                e                 non-concur                                                                                                                                                    s           wit                                               h                  (hi                                         s               statement                                                                                                                                   ,




                                                      "             A               CP                                      D                     i                s               finalized                                                                                                           afte                                             r                   desig                                                                            n                readines                                                                                                   s            revie                                                                          w                     an                                     d                i                        s           validate                                                                                                            d                       an                                d               approve                                                                                             d             befor                                                                             e




                                                      th                e                Mileston                                                                                                       e            C                             acquisitio                                                                                                                       n            decisio                                                                                                      n                (CJCS                                                                                      M                                 3170.01C)"                                                                                                                                                               .           Th                                      e                 SLAMRAA                                                                                                                                                  M                            CP                                                D                        i                   s




                                                  currentl                                                                            y                   i                   n             draf                                                   t            for                                            m               an                                           d              require                                                                                               s                additiona                                                                                                                   l             informatio                                                                                                                                           n               t                               o            suppor                                                                                         t        th                        e            Mileston                                                                                                              e               C




                                                  decisio                                                                   n                 t                   o                 procee                                                                                     d               wit                                         h                LRIP.                                                                                            SLAMRAA                                                                                                                                                      M                                 ha                                        s                 no                                t            ye                                        t        full                                                    y               transitione                                                                                                                                d            fro                                                 m                  System                                                                                       s




                                                       Integratio                                                                                                 n                 to                               Syste                                                                         m                  Demonstratio                                                                                                                                                                                 n               (a                              s         define                                                                                      d                   i                      n          DOD                                                                                   I      5000.2                                                                                                      )               a                s             th                       e            syste                                                               m                      ha                                             s            yet




                                                  t            o        perfor                                                                        m                           "adequat                                                                                                                 e         developmen                                                                                                                                                             t        testing                                                                                      "                   a                       s              required                                                                                                                  b                         y          DOD                                                                                    I            5000.2                                                                               .       Thi                                             s                testin                                                                            g               wil                           l




                                                      matur                                                          e       i                n                   FY08                                                                         ,           Durin                                                                       g                FYO8                                                                                    ,            th                           e              CP                                             D                  wil                                              l             continu                                                                                                     e                t                        o               matur                                                                                  e               t                    o               captur                                                                      e            no                                  t           onl                                               y




                                                  desig                                                      n           revie                                                                      w                 dat                                               a                but                                       als                                            o            tes                                                  t             dat                                    a               a                  s               required                                                                                                             .       Th                                             e             curren                                                                                                 t            draf                                                      t           CP                                           D               (Jul                                               y            2007                                                                          )




                                                  reviewe                                                                            d                    b                            y            th                                 e           IG                                         tea                                      m                       wa                                                s          no                                            t          mean                                                                   t          t                 o            b                          e                th                                 e            fina                                                    l            product                                                                                                               .




                                                           "Specifically,                                                                                                                                    the                                                      draft                                                    CPD                                                                                   did                                                 not                                             identify                                                                                          system                                                                                                       effectiveness                                                                                                                                                                           as                               a                         key                                         performance




Pag                 e       4
                                                 parameter                                                                                                            (IG                                                    Report                                                                                     page                                                                    4}"




                                                 Th                             e              CMD                                                                        S                Projec                                                                                   t          Offic                                                                e               non-concur                                                                                                                                                  s            tha                                              t           syste                                                                       m                       effectivenes                                                                                                                                                                     s            i                       s         require                                                                                d              t              o                      b                  e             a                               KPP                                        .




                                                  "Th                                          e         CP                                           D                       refine                                                                        s             th                                   e       threshol                                                                                                             d                     an                             d                  objectiv                                                                                                         e                value                                                                     s            fo                                        r            performanc                                                                                                                                                           e             attribute                                                                                                 s             an                                  d                   KPP                                                s




                                                 tha                                 t         wer                                        e               validate                                                                                                    d                  i                 n           th                               e               CD                                                      D                            fo                           r              th                             e           productio                                                                                                                            n                    incremen                                                                                                                                   t            (CJCS                                                                                      M                           3                  1             70.01C)"                                                                                                         .           Th                                                 e




                                                  SLAMRAA                                                                                                                                       M                          Mileston                                                                                                                e                B                          wa                                                        s              supporte                                                                                                     d                b                          y                    a                  validate                                                                                                               d                Operationa                                                                                                                                                      l         Requirement                                                                                                                                                         s




                                                  Documen                                                                                                     t               (ORD)                                                                                         ;            a                     CD                                           D                         wa                                            s                   no                                t          developed                                                                                                                                    .         Th                                            e              OR                                                            D                    di                                   d                   no                                    t           contai                                                                           n            syste                                                                   m




                                                 effectivenes                                                                                                                               s            a                         s           a                      KPP                                                          .       Th                                              e         curren                                                                                          t            CJCS                                                                           M                          3170.01                                                                                                               C                            (                    1                Ma                                                       y          2007                                                                        )               doc                                      s             no                               t               requir                                                                                     e           tha                           t




                                                 syste                                                   m                 effectivenes                                                                                                                                                        s           b                   e               a                            KPP                                                                 .            Th                                  e                 CJCS                                                                           M                             guidanc                                                                                                           e            state                                                                             s                tha                                          t           "Becaus                                                                                                 e             a                      CP                                          D                  i                           s




                                                  finalize                                                                       d                afte                                                      r         desig                                                                            n            readines                                                                                                            s                revie                                                                 w                an                                           d            afte                                                       r           th                                      e          majorit                                                                                                          y                    o              f             capabilit                                                                                                         y             development                                                                                                                                                                ,




                                                 i         t        i       s                 normall                                                                                           y               no                                     t         appropriat                                                                                                                                  e              t                   o                      introduc                                                                                                  e               ne                                       w                      requirement                                                                                                                                                                         s               at                          thi                                            s           point.                                                                "




                                                          "During                                                                    the                                                            audit.                                                                         DCD                                                                 staff                                                                    staled                                                                                  that                                                they                                                                  intende                                                                                         d                    for                                               system                                                                                                         effectiveness                                                                                                                                                 to                             be                                             a




                                                 key                                      performance                                                                                                                                              parameter                                                                                                                                   but                                                                encountered                                                                                                                                                   resistance                                                                                                                                             from                                                                      the                                                   SLAMRAAM                                                                                                                                                  Product




                                                 Office-                                                                 DCD                                                                    staff                                                                 stated                                                                           that                                                           the                                                  SLAMRAAM                                                                                                                                                               Product                                                                                                              Office                                                                                                 resisted                                                                                                      because




                                                 SLAMRAAM                                                                                                                                           system                                                                                                 effectiveness                                                                                                                                                              was                                                   directly                                                                                                      related                                                                                             to                                            proven                                                                                                 capabilities                                                                                                                            of                                             the




                                                 Government-furnished                                                                                                                                                                                                                                                  AMRAAM                                                                                                                                                   ,        which                                                                              the                                                      product                                                                                                office                                                                                       had                                                           no                                            influence                                                                                                  over                                                                 (IG




                                                 Report                                                                  page                                                                   5)."




Pag                 e       5




                                                 Th                         e                 CMD                                                                     S                  Projec                                                                                 t            Offic                                                              e               non-concur                                                                                                                                                      s            wit                                              h                 thi                                          s              statement                                                                                                                                    ,




                                                 Ther                                                e           i          s            n                            o                "resistance"                                                                                                                                            .        Th                                               e                 syste                                                                     m                         effectivenes                                                                                                                                                       s             i                   s         a                            n                    importan                                                                                                                        t           requiremen                                                                                                                               t               fo                          r             th                                           e




                                                 war-fighte                                                                                                       r                an                                    d                 a                     n                  importan                                                                                                         t                performanc                                                                                                                                                 e               requirement                                                                                                                                                                       ,       jus                                               t               no                          t             a                             KPP                                                          .     Th                                   e            syste                                                                  m




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          4




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          4                           8




                                                                                                                                                                                                                                           FO                                                                           R                                           OFFICIA                                                                                                                                                                                                                                                                                      L                                    US                                                                                                E                                            ONL                                                                                                                                               Y
  Fina                  l       Repor           t




         Referenc                           e




                                                         4.               Findin                                                                                                   g                B                           -                  Plannin                                                                                                                        g                 for                                               System                                                                                                     s             Engineerin                                                                                                                                                      g




                                                         Th                           e        CMD                                                                     S                    Projec                                                                                  t             Offic                                                                           e             non-concur                                                                                                                                                   s            wit                                            h           thi                                       s                finding.




                                                              "SLAMRAAM                                                                                                                                               Product                                                                                                                      Office                                                                                      personnel                                                                                                                            stated                                                                        they                                                                did                                        net                                                          have                                               a                        SEP                                                          to                        support                                                                                   the




                                                       systems                                                                            engineering                                                                                                                                                 process                                                                                                              for                                          the                                                  SLAMRAAM                                                                                                                                                          in                                     accordance with                                                                                                                                                                                                USD                                                                    (AT&L)                                                                               policy




                                                       and                                 guidance                                                                                                               that                                                      was                                                                    issued                                                                                       in                        2004                                                                    concerning                                                                                                                                        preparation                                                                                                                                                    of                            a                         SEP                                                         early                                                    in                               the




                                                      program                                                                               life                                                         cycle.                                                                             The                                                          SLAMRAAM                                                                                                                                                                 Product                                                                                                     Office                                                                                          staff                                                         stated                                                                      that                                                      while                                                              they                                               had




                                                       Started                                                                 working                                                                                                      towards                                                                                                                  a                             SEP,                                                                       they                                                  did                                                 not                                         have                                                                        a                    draft                                                              version                                                                                      of                                 the                                           SEP for                                                                               us                                         to




                                                         review                                                         (IG                                                Report                                                                                           page 8). "

Pag                 e       1           0




                                                       Th                             e        CMD                                                                     S                    Projec                                                                                  t             Offic                                                                           e             non-concur                                                                                                                                                   s            wit                                            h           thi                                       s                statement                                                                                                                         .




                                                       Th                             e        US                                     D                      (AT&L                                                                                                    )             polic                                                                        y                    state                                                                   s         tha                                         t         "Program                                                                                                                   s             shal                                                               l           develo                                                                                           p           a               System                                                                                    s             Engineerin                                                                                                                        g                Pla                                    n




                                                       (SEP                                           )            fo                            r           Mileston                                                                                                                       e              Decisio                                                                                                         n                   Authorit                                                                                                              y              (MDA                                                                           )               approva                                                                                                          l        i                        n                    conjunctio                                                                                                             n               wit                                       h        eac                                               h




                                                       Mileston                                                                                      e               review..."                                                                                                                                (US                                                                      D                       (AT&L                                                                                                    )         Memorandum                                                                                                                                                                                    ,        "Polic                                                                                  y                    fo                    r         System                                                                                         s           Engineerin                                                                                                                          g              i           n




                                                       DoD,                                                "             Februar                                                                                                        y              20,                                            2004)                                                                                     .             Th                                          e             SLAMRAA                                                                                                                                                     M                        Progra                                                                                                m                      underwen                                                                                                                    t         a                     Mileston                                                                                             e            B                                  review




                                                       i      n       Septembe                                                                                                                      r           2003                                                                    ;            thi                                            s           polic                                                                      y              wa                                        s           no                                       t               publishe                                                                                                  d                     unti                                                  l         Februar                                                                                                   y         2004                                                              ,        Th                                       e            Syste                                                                m




                                                         Engineerin                                                                                                                g                Pla                                            n             wil                                                    l           b                       e             develope                                                                                                                  d                   t                   o                suppor                                                                               t          th                                     e               Mileston                                                                                                                   e               C                   decisio                                                                              n                  i               n            earl                                        y              F                        Y                    10                          .




                                                       Tha                                 t        decisio                                                                                         n             i                  s          tw                                          o              year                                                                   s           of                               f           thu                                              s               a                 complet                                                                                                     e           draf                                                            t          wa                                         s             no                                  t                 availabl                                                                                      e           fo                               r           review                                                                     .            Th                                         e




                                                       SE                             P         i              s         currentl                                                                                                       v           bein                                                                    g                 drafte                                                                           d                     an                               d                 a                     n                 initia                                                               l       draf                                                      t            fo                                r               revie                                                           w                                shoul                                                      d                 be                                  availabl                                                                                e                 b                         y




                                                       Marc                                            h                2008                                                                        .




                                                       in             the                                          meantime,                                                                                                                               the                                                 SLAMRAAM                                                                                                                                                                   Product                                                                                                            Office                                                                                  staff                                                          was                                                               using                                                      the                                                 contractor-




                                                      developed                                                                                                      "Surfaced                                                                                                                                     Launched                                                                                                                                        AMRAAM                                                                                                                               (SLAMRAAM)                                                                                                                                                                                       Systems                                                                                                           Engineering




                                                      Management                                                                                                                                          Plan                                                              (SEMP),"                                                                                                                                  October                                                                                                                    10,                                                     2005,                                                                 to                                         support                                                                                     the                                                    systems                                                                                             engineering




                                                     process                                                                      for                                  the                                                          program.                                                                                                                    This                                                                           SEMP                                                                               did                                                   not                                      fully                                                         meet                                                                         the                                       requirements                                                                                                                                                         of                               the                                SEP




                                                      because                                                                               it                   did                                                  not                                         include                                                                                                             key                                                          information                                                                                                                                    tha                                         t        DoD                                                                            systems                                                                                                                  engineering                                                                                                                       policy                                                             and




                                                     guidance                                                                                        requires                                                                                                          or                                              encourages                                                                                                                                                    project                                                                                            managers                                                                                                                              so                                        define                                                                                     (IG                               Report                                                                                       page                                                 8                          ).                   "




Pag                 e       1           0




                                                     The                                  CMD                                                                     S                     Projec                                                                                  t               Offic                                                                         e               non-concur                                                                                                                                                 s               wit                                             h          thi                                    s                   statement                                                                                                                          .




                                                     Th                           e       contrac                                                                                           t           specifie                                                                                                   d                    tha                                             t           th                                 e              contracto                                                                                                                     r         prepar                                                                               e                 a                       SEM                                                                P                 a                                s           a             dat                                  a                 ite                                 m                       deliverabl                                                                                                             e         to




                                                      th              e               Government                                                                                                                                               .           Th                                              e                initia                                                                        l        versio                                                                               n                wa                                               s             release                                                                            d                    i                    n               Apri                                                           l        "2004                                                                 ,    tw                                  o                 month                                                                            s       afte                                            r




                                                     contrac                                                                  t           awar                                                                    d                 an                                d                     wa                                                s         refine                                                                                  d                 ove                                           r             the                                                   followin                                                                                                     g                  year                                                    .         Th                                                  e                SEM                                                    P                     addresse                                                                                            d        th                                    e           area                                                  s




                                                     containe                                                                              d                 i                 n                    th                              e           US                                                   D                          (AT&L                                                                                                          )          Memorandum                                                                                                                                                                          ,       "Polic                                                                                          y            fo                               r            System                                                                                   s               Engineerin                                                                                                                       g            i                      n             DoD,                                                                "




                                                      Februar                                                                         y              20                                         ,        2004                                                               :               th                                  e                 system                                                                                             s            engineerin                                                                                                                                 g               processe                                                                                                                 s        t                 o              b                     e                        applie                                                             d                 t                o             th                              e           program                                                                                             ,        th                           e




                                                     system'                                                                      s              technica                                                                                                         l         baselin                                                                                                         e                 approach                                                                                                              ,           an                                        d             th                          e             integratio                                                                                                                          n                 o                     f                system                                                                           s             engineerin                                                                                                                g              int                                       o              th                           e




                                                     program'                                                                                            s           integrate                                                                                                                   d                 produc                                                                                              t           team                                                                     s           (IPTs)                                                                               ,       Specifically                                                                                                                                                 ,        th                                         e                    SEM                                                P                 contain                                                                                       s        th                       e                progra                                                                              m




                                                     description                                                                                                               ,        technica                                                                                                               l            baselin                                                                                                e                 plannin                                                                                                 g                 an                             d               controls                                                                                                         ,          progra                                                                                           m             plannin                                                                                    g                 an                               d             controls                                                                                         ,        th                        e




                                                      IP                  T               structure                                                                                                        ,          th                               e         system                                                                                                  s              engineerin                                                                                                                                      g                processe                                                                                                      s                   t                    o            b                            e        used                                                                   ,        engineerin                                                                                                                g                  specialt                                                                                   y




                                                     integration                                                                                                           ,           an                                   d                 produc                                                                                                t       transition                                                                                                                          .




                                                         "The                                        SEMP                                                                                       did                                           not                                                 include                                                                                                      event-driven                                                                                                                                                             technical                                                                                                               reviews,                                                                                                                      with                                           entrance                                                                                                          and                                        success




                                                    criteria                                                            (IG                                                        Report                                                                                            page                                                                            8)".




Pag                 e       1           0




                                                    Th                        e           CMD                                                                    S                     Projec                                                                                   t           Offic                                                                         e                 non-concur                                                                                                                                               s                   wit                                         h           thi                                   s                   statement                                                                                                                      .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 5               0




                                                                                                                                                                                                                                         FO                                                                                     R                                        OFFICIA                                                                                                                                                                                                                                                                  L                                        US                                                                                         E                                       ONL                                                                                                                                       Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Fina              l   Repor       t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Referenc               e




 Technica                                                                                                l           review                                                                                                 s             ar                                          e            specifie                                                                                                      d                     i                     n                  th                                 e                SEM                                                                     P                  an                             d                   ar                                  c            als                                              o                specifie                                                                                                         d               i              n           the                                                  Integrate                                                                                                                       d




     Maste                                   r                     Schedule                                                                                                                                           .         Whil                                                                         e               th                              e                   entranc                                                                                                              e             an                                        d             succes                                                                                s             criteri                                                                                     a               ar                                  e             not                                                   containe                                                                                                      d                     i                 n                    th                               e              SEM                                                        P




     itself                             ,   ther                                                                           e             ar                                  e                   tw                                       o                    importan                                                                                                                        t        document                                                                                                                                                  s         incorporate                                                                                                                                            d                    int                                           o                th                                     e                SEM                                                               P               b                          y               reference                                                                                                                         :           th                          e




     Raytheo                                                                            n                        integrate                                                                                                                             d               Defens                                                                                                    e                 System                                                                                                              s            (IDS                                                                   )          "System                                                                                                              s             Engineerin                                                                                                                                                        g              Practice                                                                                                       s                an                                    d




  Procedures                                                                                                                            "                  an                                     d               Raytheon'                                                                                                                                              s             "Integrate                                                                                                                                                  d                  Produc                                                                              t             Developmen                                                                                                                                                                                t            Syste                                                                     m                 (IPDS)"                                                                                                                        .         Thes                                                      e




 outlin                                      e                 th                                                 e                detaile                                                                                            d                    event-drive                                                                                                                                                        n                technica                                                                                                                     l      revie                                                              w                             proces                                                                                              s            tha                                              t               wa                                          s             use                                    d                    o                         n




     SLAMRAAM                                                                                                                                                                        ,           Th                                            e                technica                                                                                                               l           revie                                                                                w                      proces                                                                                          s             contain                                                                                           s               a                           serie                                                                  s               o                     f               te                            n         "gates                                                                                       "                1                     ha                             t       a




     progra                                                m                                 goe                                                               s            through                                                                                                                ,     spannin                                                                                                                  g             progra                                                                                                  m                       startu                                                                p                         throug                                                                                          h                progra                                                                                                 m                      closure                                                                                      ,           Gate                                                                       s           on                               e




  throug                                               h                        fou                                                           r                are                                                interna                                                                                            l            t              o                 Raytheo                                                                                                                            n                    an                                     d             outlin                                                                        e                 thei                                                   r                proposa                                                                                                                l       generatio                                                                                                                  n                     an                                          d               review




  process                                                                   .           Gate                                                                            s                fiv                                          e                an                                          d             beyon                                                                                   d                    ar                                           e            custome                                                                                                            r                 reviews                                                                                               .




  Gat                           e   5                  :            Progra                                                                                                                   m                    Startu                                                                                         p                    Readines                                                                                                                                 s             Revie                                                                                w




 Gat                            e   6               :               Syste                                                                                               m                         Requirement                                                                                                                                                                              s            an                                               d                     Concep                                                                                                  t           Desig                                                                          n                    Revie                                                                                   w




 Gat                           e    7                  :            Preliminar                                                                                                                                                             y                   Desig                                                                             n                 Revie                                                                                                   w                     (PDR                                                                              )




  Gat                          e    8                  :            Critica                                                                                                                  l        Desig                                                                                    n             Revie                                                                                   w                            (CDR                                                                                                  )




  Gat                          e    9                  :            Test/Shi                                                                                                                                  p                  Readines                                                                                                                            s                Revie                                                                                            w




 Gat                           e    10:                                                     Productio                                                                                                                                              n                Readines                                                                                                                             s                Revie                                                                                             w                     (functiona                                                                                                                               l           audits                                                                                    )




     Eac                       h        o                      f                thes                                                                       e            gate                                                              s                contain                                                                                               s                   detaile                                                                                                 d                 criteri                                                                                 a              fo                          r           conductin                                                                                                                                    g                    th                                      e              review,                                                                                     Thes                                                                               e              criteri                                                                    a




  includ                                           e                    area                                                                           s            t                        o          b                        e              assessed                                                                                                                     ,        entr                                                                   y                 an                                       d                   exi                                    t           criteria                                                                                            ,      an                                        d              revie                                                                          w                        product                                                                                             s                required.                                                                                                                       Th                                    e




  criteri                                    a                     ar                                             e                crosse                                                                                        d                 reference                                                                                                                               d                 t                         o             th                                      e                Raytheo                                                                                                          n            IPD                                                              S            an                                           d                thei                                                      r                   Capabilit                                                                                                         y                   Maturit                                                                                                        y          Mode                                                                l




     Integratio                                                                                                  n                     (CMMI                                                                                                               )        programs                                                                                                                                     .        Fo                                               r            example                                                                                                                ,         a                  typica                                                                             l               desig                                                                            n                 revie                                                                         w               contain                                                                                                       s            ove                                                 r          5                     0




  scored                                           criteria                                                                                                                          .




  I         n     addition                                                                                                         ,         th                                      e            SLAMRAA                                                                                                                                                                        M                           Progra                                                                                                         m                           Manage                                                                                            r                 issue                                                                       d                  a                          Desig                                                                                 n                   Revie                                                                   w                     Campaig                                                                                                                                 n         pla                               n




 i      n         Augus                                                                         t                200                                                             5                t                   o               furthe                                                                                      r        addres                                                                                                    s                th                                  e             desig                                                                      n                 revie                                                                 w                     proces                                                                                            s             t                        o                b                        e            use                                         d             b                            y                 Raytheo                                                                                                             n




 following                                                                                          completin                                                                                                                                                        g                    it                         s                Recover                                                                                                                     y                  effor                                                                t            t                   o               correc                                                                              t          th                                   e              initia                                                                      l           contrac                                                                                            t       overrun                                                                                                                 .     Th                                     e                   pla                             n




  include                                                           d                           desig                                                                                    n              revie                                                                             w                  guidelines                                                                                                                                                    ,         agend                                                                                  a              topics                                                                           ,         entr                                                          y             an                                       d                    exi                                                t        criteria                                                                                    ,           an                                       d                    a                          detaile                                                                      d




  assessmen                                                                                                            t               checklis                                                                                                                 t            (i                          n               additio                                                                                                       n                 t                      o                th                                 e              Raytheo                                                                                            n                         Gat                                                        e             checklists)                                                                                                                                                  .        Thi                                         s            pla                                                      n                wa                                            s          mad                                                    e




 availabl                                                                           e                t                         o              th                                     e            IG                                           team                                                                      .




Th                     e        SLAMRAA                                                                                                                                                                       M                                Produc                                                                                                    t       Offic                                                                                       e                 als                                              o                 followe                                                                                     d                   th                                      e           Progra                                                                                                m                             Executiv                                                                                                         e                Offic                                                                               e              (PEO                                                                   )




 Managemen                                                                                                                                         t               Contro                                                                                                l            Checklis                                                                                                                       t            fo                                   r               conductin                                                                                                                                   g        reviews                                                                                                           ,        PE                                               O                         Polic                                                                         y            04-36                                                                              .           Thi                                                     s           polic                                                         y




containe                                                                                    d                     importan                                                                                                                             t            requirement                                                                                                                                                                      s                fo                                  r             conductin                                                                                                                     g                 event-drive                                                                                                                                                           n                       reviews                                                                                          .           Th                                               e                PE                                                   O




chartere                                                                            d                        a                     n                   Independen                                                                                                                                                            t          Assessmen                                                                                                                                                              t            Tea                                                   m                            (TAT                                                                    )           t              o                overse                                                                                             e               th                                    e                SLAMRAA                                                                                                                                                           M                              revie                                                       w




 process                                                                .               Th                                                    e                IA                                       T                       wa                                                s            chaire                                                                                  d                b                                  y                 th                                   e                PE                                             O                    Directo                                                                                             r             o                 f               Independen                                                                                                                                                              t           Assessment                                                                                                                                                       s             an                                      d




containe                                                                                d                        subjec                                                                                           t             matte                                                                            r                expert                                                                                          s            fro                                                    m                         outsid                                                                               e                 th                     e                  SLAMRAA                                                                                                                                                                      M                                 program                                                                                                       .            Thi                                                           s          tea                                           m




ensure                                           d                          tha                                                          t             entr                                                           y              an                                           d                exi                                     t             criteri                                                                                             a                 wer                                                          e           me                                         t            an                             d                  scored.                                                                                                  Th                                               e             tea                                                   m                         briefe                                                                    d                 th                                      e                PE                                          O                      o              n            th                      e




 revie                              w                  results                                                                                                               .




 Al                l       review                                                                                              s          wer                                                            e                supporte                                                                                                                   d                   b                          y                    th                                      e              require                                                                                            d                   documentation                                                                                                                                                                                           ,        actio                                                                               n             items                                                                 ,        an                                          d                afte                                                 r         actio                                                    n




reports                                                    .            Th                                                         e               IA                                             T                       report                                                                                 s               wer                                                       e            provide                                                                                                                     d               t                   o          th                                 e                PE                                       O                        an                                     d                 th                                 e             SLAMRAA                                                                                                                                                          M                                 Produc                                                                                                    t




 Manage                                                                         r                   receive                                                                                                   d                      out-briefs.




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               5                     1




                                                                                                                                                                                                 FO                                                                                       R                                           OFFICIA                                                                                                                                                                                                                                                                                          L                               US                                                                                                  E                                       ONL                                                                                                                                                 Y
  Fina                       l       Repor               t




         Referenc                                e




                                                                   "Technical                                                                                                       reviews                                                                                                measure                                                                                                contractor                                                                                                            progress                                                                                                  toward                                                                         attaining                                                                                          well-defined                                                                                                                                  technical,




                                                              cost,                                                and                                          schedule                                                                                                    goals,                                                                   assess                                                                                        system                                                                                 technical                                                                                      maturity                                                                                   and                                              risk;                                                   and                                               provide




                                                              information                                                                                                             to                                    support                                                                                     program                                                                                                      decisions.                                                                                                                    Without                                                                             tying                                                     technical                                                                                            reviews                                                                                    to                              event-




                                                              driven                                                            criteria                                                                            through                                                                                                 established                                                                                                                               entrance                                                                                                       and                                         success                                                                                 criteria                                                              for                                           these                                                                 reviews,                                                                                    the




                                                             product                                                                              manager                                                                                                  cannot                                                                                  ensure                                                                                   that technical                                                                                                                                                reviews                                                                           are                                       held                                              only                                                 when                                                                program




                                                              accomplishments                                                                                                                                                                          make                                                                       them                                                            warranted                                                                                                             and                                                         meaningful                                                                                                         in                            measuring                                                                                                          program                                                                                           results.




Pag                 e            1           0


                                                              (IG                                     Report                                                                        page                                                        9)."




                                                              Th                                  e        CMD                                                                  S           Projec                                                                          t          Offic                                                         e            concur                                                                                    s         wit                                         h                 thi                                  s          statement                                                                                           .       Tha                                           t         i           s         wh                                     y           SLAMRAA                                                                                                                                         M




                                                             employe                                                                                      d             a                      detailed                                                                                          ,       in-depth                                                                                       even                                                           t      drive                                                                   n                revie                                                 w                 proces                                                                    s          base                                            d              o                     n              industr                                                                           y            bes                                       t




                                                              practice                                                                               ,    wit                                         h        senio                                                                  r              leadershi                                                                                               p                   independen                                                                                                                                  t      oversight                                                                                      .        Thi                                           s       proces                                                                     s          wa                                   s        full                                             y




                                                              documented                                                                                                                          ,       althoug                                                                                        h          no                                    t       i         n                 th                                 e           SEMP                                                                           .




                                                                  "The                                                  SEMP                                                                     did                                  not                                                      include                                                                         the                                                   system's                                                                                                  technical                                                                                     baseline                                                                                         approach.                                                                                                     The                                                   technical




                                                              baseline                                                                                   approach                                                                                                      describes                                                                                                             how                                                       the                                      project                                                                              manager                                                                                            will                                        develop,                                                                                       manage,                                                                                                 and                                           use                                      the




                                                              technical                                                                                       baseline                                                                                             to                                    control                                                                     system                                                                                        requirements,                                                                                                                                             design,                                                                             integration,                                                                                                               verification,                                                                                                                           and




                                                              validation.                                                                                                   Without                                                                                                  identifying                                                                                                             the                                                  planned                                                                                              technical                                                                                       baseline,                                                                                            approach,                                                                                                the                                               product




Tex                     t   Delete                   d

                                                              manager                                                                                         cannot                                                                    effectively                                                                                                                     control                                                                                   system                                                                                            requirements,                                                                                                                             design,                                                                          and                                              integration                                                                                                             from                                                      an




                                                             engineering                                                                                                                   perspective                                                                                                                                (IG                                         Report                                                                                    page                                                                   9)."




                                                              Th                              e           CMD                                                               S              Projec                                                                           t          Offic                                                         e            non-concur                                                                                                                                  s             wit                                          h            thi                                s       statement                                                                                                .




                                                             Th                               e           SEM                                                       P                 outline                                                                                s             th                           e         technica                                                                                              l         baselin                                                                                      e          approac                                                                                 h            i          n             a                   summar                                                                             y                fashion                                                                            .         I                    n             additio                                                                n           t        o




                                                             th                  e                    informatio                                                                                                    n            containe                                                                                                      d              i            n                 th                              e              SEMP                                                                        ,           th                             e             technica                                                                          l       performanc                                                                                                                      e             baselin                                                                         e            i                s          containe                                                                              d




                                                              i     n            th                                e        Governmen                                                                                                                          t             controlle                                                                                                   d              Syste                                                                m                      Performanc                                                                                                                           e            Specificatio                                                                                                                  n          an                                   d                 variou                                                                      s         contracto                                                                                   r




                                                              specifications                                                                                                                                  .         A                          detaile                                                                               d               specificatio                                                                                                                           n                 tre                                         e              i         s             maintained                                                                                                      .       Al                             l       documentatio                                                                                                                                              n             i             s           availabl                                                                          e




                                                             o           n               th                             e       SLAMRAA                                                                                                                                          M                        Integrate                                                                                                    d               Dat                                             a            Environmen                                                                                                                                t        an                               d              requirement                                                                                                                       s         ar                            e         accesse                                                                                   d




                                                             throug                                                              h                 requirement                                                                                                                                       s         databas                                                                                   e                 tools                                                   .       Th                                             e          developmen                                                                                                                     t          effor                                                t       i                 s      furthe                                                                 r         controlle                                                                                              d              b                      y   a




                                                             detaile                                                                 d              Integrate                                                                                              d                Maste                                                                        r            Schedule                                                                                                     .




                                                                  "The                                                 contractor-developed                                                                                                                                                                                                                       SEMP                                                                                          did                                      not                                               fully                                           define                                                              all                                systems                                                                                      engineering                                                                                                                       processes




                                                             applied                                                                         to                             the                                   SLAMRAAM.                                                                                                                                                Specifically,                                                                                                                                                 the                                               SEMP                                                             only                                             identified                                                                                             (the                                               processes                                                                                                     that                                   the




                                                             contractor                                                                                                 initially                                                                                  planned                                                                                                  to                                   complete                                                                                                           during                                                                     the                                      system                                                                      development                                                                                                                             and




                                                             demonstration                                                                                                                                        phase                                                                                  of                        the                                     acquisition                                                                                                                    process                                                                                                  and                                      the                                    contractor                                                                                                  had                                                    not                                        updated                                                                                  it                to




                                                             implement                                                                                                      the                                      results                                                                                  of                         the                                      completed                                                                                                                    engineering                                                                                                                            processes,                                                                                                            such                                                   as                           the                                    system




                                                              requirements                                                                                                                                review.                                                                                        Prepared                                                                                                          and                                               validated                                                                                                          as                            required                                                                               the product                                                                                                                          office                                                                      SEP                                                   would




                                                             have                                                  identified                                                                                        key                                                         systems                                                                                    engineering                                                                                                                                 processes                                                                                                            during                                                               the                                           system                                                                        development                                                                                                                                and




                                                             demonstration                                                                                                                                        phase.,                                                                                           included                                                                                                updates                                                                                                  based                                                                    on                        completed                                                                                                       technical                                                                                           reviews,                                                                                          and




                                                             described                                                                                             how                                                  the                                            systems                                                                                          engineering                                                                                                                               process                                                                                            would                                                         support                                                                                  the                                      technical                                                                                        products                                                                                         of




Pag                 e            1           1
                                                             each                                                  acquisition                                                                                                    phase                                                                                     (IG                                         Report page                                                                                                                                                  9),"




                                                             Th                           e               CMD                                                               S              Projec                                                                       t            Offic                                                           e            non-concur                                                                                                                              s              wit                                            h             thi                                s       statement                                                                                            .




                                                             A               s            discusse                                                                                         d              above                                                                        ,        th                          e            progra                                                                             m                      initiall                                                                          y               ha                               d               n                  o        requirement                                                                                                                    no                            r               wa                                 s          resource                                                                                         d              t                  o




                                                             produc                                                                      e          o               r               updat                                                              e           a                           SE                                 P                unti                                             l     th                                  e         nex                                          t            progra                                                                               m                 milestone                                                                                           .       Th                                 e          contracto                                                                                               r           develope                                                                                                d




                                                             SEMP                                                                ,           th                     e               Raytheo                                                                                                n             integrate                                                                                                 d                  Defens                                                                                e                 System                                                                         s          (IDS                                                   )        "System                                                                                        s        Engineerin                                                                                                                        g           Practice                                                                          s




                                                             an                      d                  Procedures"                                                                                                                         ,          Raytheon'                                                                                                                     s            "Integrate                                                                                                                    d                  Produc                                                                    t       Developmen                                                                                                                               t     Syste                                                               m                   (IPDS)                                                                                ,     th                          e          join                                 t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            8




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         5                  2




                                                                                                                                                                                                                                  FO                                                                                R                                    OFFICIA                                                                                                                                                                                                                                          L                        US                                                                        E                                ONL                                                                                                                      Y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    Fina                  l       Repor               t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Referenc                               e




      Raytheo                                                                                    n              -                    Governmen                                                                                                                                                t        Gat                                                     e             revie                                                          w                       proces                                                                                            s            an                               d              Desig                                                                            n            Revie                                                                                  w                        Campaig                                                                                                    n               plan                                             ,    PE                                     O




      policies                                                                           ,        th                                 e                    Independen                                                                                                                               t           Assessmen                                                                                                                                 t          Team                                                                                 ,        an                                   d                th                       e                Governmen                                                                                                                                                     t               controlle                                                                                              d               technica                                                                                     l




      baselin                                                                   e                take                                                         n                  togethe                                                                                     r         me                                             t         th                              e         inten                                                              t       o                         f          th                             e                   SE                                        P                 guidance                                                                                                        .         Thes                                                                         e                processes                                                                                                        ,        whe                                      n                 looke                                                   d




      a          t        a                s      a                    whole                                                                                  ,         provide                                                                                          d             th                                      e          produc                                                                             t           manage                                                                                                      r            wit                                           h               well-define                                                                                                                              d                        system                                                                                     s          engineerin                                                                                                                    g




      proces                                                           s            an                                       d                       technica                                                                                            l         baselin                                                                                         e            approac                                                                                                h              fo                             r                   th                               e           SLAMRAAM                                                                                                                                                                            ,         I                           n                 addition                                                                                     ,           ther                                          e        wer                                               e




  event-drive                                                                                                                            n                  technica                                                                                                 l           review                                                                                 s           wit                                          h              wel                                                   l            define                                                                              d                entranc                                                                                              e       an                                 d                         succes                                                                          s          criteria                                                                                 ,       thu                                     s




      helpin                                                           g            th                                   e               produc                                                                                     t         manage                                                                                             r            to                          effectivel                                                                                                                 y              manag                                                                                           e           th                                e                 system                                                                                    s             engineerin                                                                                                                     g                    process                                                                               .




      Thes                                            e            system                                                                                               s         engineerin                                                                                                                               g              processe                                                                                                   s             permitte                                                                                                              d             th                           e           progra                                                                                    m                        to                                   recove                                                                          r            fro                                   m                            a                 major




      contracto                                                                                            r             performanc                                                                                                                                              e          shortfal                                                                                          l        on                                   e                yea                                               r            int                                               o          th                                 e      progra                                                                                    m                     t               o          a                                 highl                                                         y             successfu                                                                                                        l    Critica                                                                     l




      Desig                                                   n                 Revie                                                                                   w                  1                        5                   month                                                                              s         later                                                        .     Th                                      e                progra                                                                                      m                          currentl                                                                                              y            ha                             s            a                     lin                                                    n                 technica                                                                                         l        baselin                                                                       e            an                     d




      i      s           executin                                                                                                g                    t             o               cos                                         t            an                                  d           schedule                                                                                                        ,    i                  f          fundin                                                                                       g                 wer                                                   e            mad                                                              e            availabl                                                                                                    e               i               n          2006                                                         ,     th                                 e        curren                                                                    t       re                -




      baselin                                                                   e                effor                                                              t            woul                                                              d              hav                                                      e          bee                                           n                 unnecessary                                                                                                                                                         .




          "Recommendation                                                                                                                                                                                                       B                             :          We                                                    recommend                                                                                                                                  that                                                      the                                                      Product                                                                                              Manager,                                                                                                                          Surface-Launched




 Advanced                                                                                                       Medium-Range                                                                                                                                                                                           Air-to-Air                                                                                                         Missile                                                                                                            revise                                                                           the                                                      draft                                                   systems                                                                                                        engineering                                                                                                                          plan                                                      to




      establish                                                                                        a                             comprehensive                                                                                                                                                                                 systems                                                                                               engineering                                                                                                                                                 plan                                                         (in                                               accordance                                                                                                                                         with                                                       Under




      Secretary                                                                                                of                                         Defense                                                                                             for                                 Acquisition                                                                                                                                        ,           Technology, and                                                                                                                                                                                                                  Logistics                                                                                                        memorandums                                                                                                                                                                          "Policy




for                             Systems                                                                                                              Engineering                                                                                                                                  in                                       DoD,"                                                                      February                                                                                                                                20,                                                   2004;                                                                          "Policy                                                                                          Addendum                                                                                                                              for                                      Systems




  Engineering,"                                                                                                                                                   October                                                                                                              22,                                                 2004;                                                                 and                                                      "Implementing                                                                                                                                                                                Systems                                                                                                                     Engineering                                                                                                                                  Plans                                                                   in                                DoD




      -          Interim                                                                                Guidance,"                                                                                                                                                March                                                                                      30, 2004)                                                                                                                         that                                                      includes                                                                                                 planning                                                                                                    for:                                                                   technical                                                                                                        reviews                                                                               that




  are                                  event-driven,                                                                                                                                                         with                                                        entrance                                                                                                          and                                                  success                                                                                                          criteria;                                                                                technical                                                                                                                               baseline                                                                                                     approach                                                                                                     for




      developing                                                                                                             the                                                       system,                                                                                        and                                                    systems                                                                                                engineering                                                                                                                                            processes                                                                                                                         applied                                                                                                   to                         the                                       Surface-




      Launched                                                                                                   Advanced                                                                                                                              Medium-Range                                                                                                                                                                                 Air-to-Air Missile.                                                                                                                                                                                                                                  (IG                                           Report                                                                                                   page                                                      10)."
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Pag                 e       1               2




      Th                          e            CMD                                                                       S                   Projec                                                                                 t         Offic                                                                e               concurs                                                                                       :         Th                                              e          SE                                             P                        ha                                s           bee                                            n                  an                                 d           wil                                              l         continu                                                                                        e             to                                b                     e        prepare                                                                            d




      fo                   r          th                      e            Mileston                                                                                                                  e              C                             decisio                                                                                  n             i                  n             accordanc                                                                                                                             e         wit                                                    h              Unde                                                                  r                 Secretar                                                                                                    y                   o                   f      Defens                                                                                  e            fo                          r




          Acquisition                                                                                                                            ,        Technology                                                                                                                                       ,           an                                d                  Logistic                                                                                               s               memorandum                                                                                                                                                                             s             "Polic                                                                        y                     fo                                   r          System                                                                                 s            Engineerin                                                                                                        g




      i      n                 DoD,                                                          "                 Februar                                                                                                  y               20                                   ,       2004                                                            ;         "Polic                                                                           y                Addendu                                                                                                                         m                       fo                          r            System                                                                                           s        Engineering,                                                                                                                                                           "                  Octobe                                                                      r         22                        ,




      2004                                            ;           an                                 d               "Implementin                                                                                                                                                                      g                   System                                                                                     s          Engineerin                                                                                                                                                  g         Plan                                                            s          i                    n                Do                                     D                  -                             Interi                                                                  m                      Guidance,                                                                                                          "




      Marc                                                h                30                                    ,        2004                                                                   .




      5              .        Findin                                                                                             g                    C                            -                 Establishin                                                                                                                                               g                Defens                                                                                     e                   Contrac                                                                                                              t           Managemen                                                                                                                                                                   t           Agenc                                                                              y              Suppor                                                                                        t




                                               Responsibilitie                                                                                                                                                                               s




      Th                          e            CMD                                                                       S                   Projec                                                                                 t         Offic                                                                e               non-concur                                                                                                                                  s               wit                                               h                thi                                       s            finding                                                                                         .




          "the                                   commander                                                                                                                                                   did                                            not                                        fully                                                       describe                                                                                                        DCMA                                                                                                 activities                                                                                                             to                                  support                                                                                                  the                                      SLAMRAAM




 program                                                                                     in                                              a                    surveillance                                                                                                                                         plan                                                             and                                                establish                                                                                                                          letters                                                                    of                                       delegation.                                                                                                                                     (LOD)                                                               with                                                           other




      DCMA                                                                 contract                                                                                                             management                                                                                                                                                             offices                                                                           for                                        surveillance                                                                                                                                                  at                                           three                                                         of                                     four                                               SLAMRAAM




      subcontractors                                                                                                                                                              (IG                                                   Repor                                                                          t           page                                                                11),"
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  Pag                 e       1           3




      Th                          e            CMD                                                                       S                   Projec                                                                             t            Offic                                                                 e               non-concur                                                                                                                                  s               wit                                           h                    thi                                       s           statement                                                                                                              .




      Regardles                                                                                                      s           o                            f             th                           e              content                                                                                ,           o                r        structur                                                                                            e           o                         f          th                             e                   MO                                                         A               o                     r                existenc                                                                                               e                 o                           f            LOD'                                                            s          t             o




      subcontractors                                                                                                                                                               ,       th                               e            SLAMRAA                                                                                                                                              M                           Produc                                                                                            t       Manage                                                                                                  r             receive                                                                                          d            and                                                                 i               s      receivin                                                                                            g           excellen                                                                                  t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     5                            3




                                                                                                                                                                                          FO                                                                        R                                      OFFICIA                                                                                                                                                                                                                                                                 L                                US                                                                                          E                              ONL                                                                                                                                               Y
Final Report
 Reference




               support from DCMA. Representatives from various functional areas within DCMA
               participate in all IPTs and DCMA support was and continues to be focused based on
               current program need and phase.

               The program was able to access DCMA at Raytheon TRS via the Sentinel program, part
               of the CMDS Project Office, as needed. An LOD was established with DCMA in Norway
               and was used frequently to keep the SLAMRAAM Product Manager informed.

               "Specifically, while a DCMA support program integrator at Boeing Huntsville stated that
               he provided the project manager with regular reports and analysis of Boeing's progress
               on the IFCS, he stated that, without an approved LOD, his reporting was Informal and
               did not include earned value management cost and schedule analysis. ... Therefore, we
               believe that the formalized reporting, to include earned value management, that the
               DCMA support program integrator at Boeing Huntsville could have provided under an
               LOD would have given the project manager more meaningful information on the
               subcontractors' progress towards satisfying SLAMRAAM cost, schedule, and
               performance requirements (IG Report page 14). "
Page 16
               The CMDS Project Office non-concurs with this statement,

               DCMA located at Boeing supported the IPT even though the LOD was not established. A
               DCMA Support Program Integrator (SPI) was at the Boeing Huntsville, AL plant. This
               position is listed in Annex D of the MOA. The monthly reports provided to the Project
               Office reflected status received from the DCMA Boeing SPI, The SPI and SLAMRAAM
               Product Office personnel interfaced on a near daily basis since both were located in
               Huntsville. This daily interface enhanced overall involvement of DCMA Boeing's
                                                               1
               support to the program. The Program Integrator provided the Project Manager with
               meaningful information on the subcontractor's progress towards satisfying SLAMRAAM
               cost, schedule, and performance requirements.

               Boeing Earned Value Management {EVM) data were available to the IPT; the
               SLAMRAAM PM did not have to task DCMA to provide these data. Boeing data was
               also contained in the monthly EVM report delivered per the contract, The Boeing effort
               was in a separate Work Breakdown Structure (WBS) element and the Raytheon program
               management learn provided whatever EVM data on Boeing that the SLAMRAAM PM
               requested.

               In summary, even without an LOD in place, the SLAMRAAM PM received the required
               level of support from DCMA in regard to the Boeing subcontract. There is no evidence to
               suggest that the lack of an LOD affected the quality or quantity of information
               concerning subcontractor progress or status. There is no quantifiable evidence to correlate
               that a lack of the LOD affected the support provided, only qualitative opinion,

                "DCMA did not have information needed to provide the project manager with informed
               recommendations regarding contractor progress toward attaining contract cost,
               schedule, and performance requirements (IG Report page 11)."
Page 13
               The CMDS Project Office non-concurs with this statement,


                                                                                                       10




                                                          54
                              FOR OFFICIAL USE ONLY
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       Fina                  l       Repor           t




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Referenc                           e




    DCM                                                        A                            wa                                          s            an                                     d                i                   s           a                     membe                                                                                   r           o                        f           al                                   l             SLAMRAA                                                                                                                                                           M                     IPT                                                    s        an                                          d             th                                   e                SLAMRAA                                                                                                                                                               M                       Progra                                                                             m




    Managemen                                                                                                                                        t         Tea                                                       m                                (PMT)                                                                                  .   DCM                                                                                     A                       participate                                                                                                                                    s            i            n              al                          l         PM                                                     T                    meetings                                                                                                                      ,        DCM                                                                                    A               deliver                                                                                s




    monthl                                                                             y                 report                                                                             s            t               o                   th                                 e         P                        M                         tha                                   t            cover                                                                                s         technica                                                                                                                 l       issues                                                                    ,       programmati                                                                                                                                                                            c            issues                                                                                  ,       contrac                                                                                   t




    status                                                     ,          an                                      d                 Earne                                                                            d                Valu                                                                   e               analyses                                                                                                        .        DCM                                                                          A                       representative                                                                                                                                                                           s             wer                                                         e             invite                                                                            d                 t                        o          man                                                        y




    Raytheo                                                                                           n               interna                                                                                        l           review                                                                                           s        an                              d               th                                   e                    afte                                        r         actio                                                                          n             report                                                                           s             provide                                                                                              d                         to the                                                                              SLAMRAA                                                                                                                                                           M                   P            M




    wer                           e                   timel                                                                         y               an                                  d                provide                                                                                                   d                   critica                                                                           l      insigh                                                                           t             int                                              o               progra                                                                             m                      executio                                                                                                                     n                   statu                                                               s




    DCM                                                        A                            di                                d             provid                                                                                           e             timel                                                                   y            an                             d                meaningfu                                                                                                                                      l           insight                                                                                           s            consistentl                                                                                                                                     y                 an                                    d              routinel                                                                                                         y          t                 o               the




 SLAMRAA                                                                                                                                             M                              P                            M                               an                                 d               th                                 e         Projec                                                                                 t            Manager                                                                                                            ,           CMDS                                                                                       ,         Al                                    l           request                                                                                                     s           b                       y                 th                             e                SLAMRAA                                                                                                                                                M




    P             M           t                        o                 r                       e             focu                                                     s           DCM                                                                             A                     effort                                                                 s         o                            r                resource                                                                                                       s              t                    o                 bette                                                          r            reflec                                                                    t             progra                                                                                               m                   need                                                                      s            wer                                                e




 accomplishe                                                                                                                                             d                  i               n                a                       timel                                                                   y                manner                                                                                            .            An                                          y            issue                                                                         s           associate                                                                                                         d                    wit                                            h              th                                        e               MOA                                                                          ,           th                                  e                surveillanc                                                                                                             e




 plan                                     ,           or                                         LOD                                                                s              di                                d                no                                        t        stan                                                    d         i           n                   th                                  e                 wa                                      y            o                        f              DCM                                                                                    A                providin                                                                                                             g          th                                          e            require                                                                                          d                    support                                                                                         ,        a                       s        an                d




 whe                                  n                    needed                                                                                                 .




        "Without                                                                                           a                                focused                                                                                                   and                                                        comprehensive MOA,                                                                                                                                                                                                                                                                     supported                                                                                                                          by                                         a                     surveillance                                                                                                                                                            plan                                                           and




 LODs,                                                                   DCMA                                                                                                   staff                                                                 were                                                                   not                                in                                  a                          position                                                                                              to                                         provide                                                                                        the                                                     Project                                                                                              Manager,                                                                                                                                CMDS                                                                                           with




 timely                                                            and                                                             meaningful                                                                                                                                           insights                                                                                           and                                                                 recommendations                                                                                                                                                                                                                   regarding                                                                                                                                 the                                                   contractor                                                                                                                              progress




 toward                                                                              attaining                                                                                                           cost,                                                                           schedule,                                                                                                           and                                                             performance                                                                                                                                                          contract                                                                                                         requirements                                                                                                                                                                           for                                            SLAMRAAM




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Pag                 e       1           7
 (IG                      Report                                                                                                    page                                                                     15).                                                           "




Th                    e           CMD                                                                                         S              Projec                                                                                      t            Offic                                                                   e            non-concur                                                                                                                                            s        wit                                                  h                    thi                                          s       conclusion                                                                                                                                   .




Ther                                              e            i                        s            n                        o             quantifiabl                                                                                                                                       e              evidenc                                                                                             e                  t                      o            sho                                          w                        tha                                               t           an                                    y              issue                                                             s             with                                                            th                                        e           MO                                                          A                     affecte                                                                                   d               the




 suppor                                                                          t          provide                                                                                                 d                b                            y            DCM                                                                           A             o                       r                the                                                qualit                                                                   y                  o                        r                 quantit                                                                                y              o                      f           informatio                                                                                                                                         n                  provide                                                                                                    d




concernin                                                                                                                 g             contracto                                                                                                                       r               progres                                                                                    s            an                                           d                     status                                                                 ,        Th                                               e               qualit                                                                   y            o                        f            a                      n           MO                                                                  A                    doc                                                     s           no                                      t            necessaril                                                                                                          y




equat                                                      e                 t                    o             qualit                                                                          y                support                                                                                                 ,            no                        r          ca                                    n                      on                                       e           conclud                                                                                                        e                 tha                                     t      problem                                                                                                          s          wit                                                       h              a                      n                    MO                                                        A




 automaticall                                                                                                                                            y              equat                                                                              e        t                     o              problem                                                                                                     s          wit                                                  h           th                                 e              support                                                                                              ,         I                n               thi                                       s            cas                                           e                 ther                                                        e              i                    s         n                            o                evidenc                                                                                           e                tha                     t




 suc                      h                   a                          conclusio                                                                                                                           n               i                        s        valid                                                                   .




        "Recommendation                                                                                                                                                                                                              C1: We                                                                                                          recommend                                                                                                                                            that                                                          the                                                     Commander,                                                                                                                                                        Defense                                                                                                                     Contract




Management                                                                                                                                                   Agency                                                                                                     Space                                                                             Sensors                                                                                                           and                                          Communications                                                                                                                                                                                                                 Operations,                                                                                                                                                           Raytheon




 Integrated                                                                                                               Defense                                                                                                                     Systems                                                                                                  and                                                       the                                                Project                                                                                     Manager,                                                                                                                         Cruise                                                                                         Missile                                                                                                      Defense                                                                                                             Systems




 revise                                                            the                                                memorandum                                                                                                                                                                             of                               agreement                                                                                                                                  for                                   the                                                            Surface-Launched                                                                                                                                                                                                                          Advanced                                                                                                                                     Medium-




Range                                                                     Air-to-Air                                                                                                                Missile                                                                                                        to:                                     a.                               Reference                                                                                                                                    the current                                                                                                                                   Defense                                                                                                               Contract                                                                                                                   Management




Agency                                                                                 Instruction                                                                                                                                   and                                                             Defense                                                                                                     Contract                                                                                                            Management                                                                                                                                                                   Agency                                                                                                          Guidebook,                                                                                                                                                    b.                               Include                                                                                an




annex                                                              that                                                           documents                                                                                                                                         a                        cause-and-effect                                                                                                                                                                                                analysis                                                                                                              linking                                                                                 Defense                                                                                                                         Contract                                                                                                             Management




Agency                                                                                 performance                                                                                                                                                             metrics                                                                                          and                                                            standards                                                                                                                           to                                       the                                         customer-desired                                                                                                                                                                                                                  outcome,                                                                                                                          in




accordance                                                                                                                               with                                                                the                                                   Defense                                                                                            Contract                                                                                                                 Management                                                                                                                                                                    Agency                                                                                                Instruction                                                                                                                                          (IG                                                          Report                                                                                         page




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Pag                 e       1           7
    15)."




Th                    e           CMD                                                                                         S             Projec                                                                                    t               Offic                                                                  e             concurs                                                                                                     .           CMD                                                                    S                an                                           d                     DCM                                                                  A                  ar                                      e            i              n                 th                                     e               proces                                                                                    s                o                  f            establishin                                                                                                            g




a            ne                       w                            MO                                                              A                     throug                                                                                           h          th                                  e          newly                                                                       selecte                                                                                           d              DCM                                                                                        A                        Progra                                                                            m                            Integrato                                                                                                                  r               tha                                          t            wil                                             l        reflec                                                                        t




curren                                                               t                200                                                   7                DCM                                                                                  A                guidance                                                                                                            .        Thi                                                            s            MO                                                 A                       wil                                                  l               reflec                                                            t         th                                  e             mor                                                             e                recen                                                                      t            change                                                                                        s         t                   o              th                           e




 Performanc                                                                                                                                     e            Base                                                                    d                    Managemen                                                                                                                                              t             proces                                                                                    s              tha                                               t         hav                                                e              bee                                          n                   mad                                                          e                 sinc                                                            e          th                                     e               previou                                                                                            s             Ma                                         y




 200                          6                       MO                                                              A                     wa                                          s               issued                                                                                  ,        includin                                                                                                    g                  lesson                                                                           s              learne                                                                                       d            throug                                                                               h                 th                               e             maturatio                                                                                                                                   n                o                     f         PB                                        M                          withi                                                  n




 DCMA                                                                                   .        DCM                                                                                A                    Raytheo                                                                                                             n              ID                                 S                plan                                                                    s            o                n              gettin                                                                                     g                thi                                  s       ne                                  w                        MO                                                       A                             signe                                                                          d             i                    n                    th                          e            fai                                  l       o                        f           2007                                     ,




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         1       1




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           5                        5




                                                                                                                                                                                            FO                                                                                      R                                  OFFICIA                                                                                                                                                                                                                                                                      L                                    US                                                                                    E                                        ONL                                                                                                                                                         Y
  Fina                  l       Repor           t




         Referenc                           e




                                                    Th                              e     CMD                                                                      S                   Projec                                                                        t      Offic                                                             e                 ha                                s           n                  o           commen                                                                               t         o                        n            Recommendation                                                                                                                                                                     s         C                          2                    an                                  d           C                           3        sinc                                   e         thes                         e




                                                    d              o               no                       t       appl                                                               y           t             o         CMDS                                                                                   .




                                                     6.                    F                   indin                                                           g               D                                 -               Implementin                                                                                                                                                              g            Informatio                                                                                                                n                  Assuranc                                                                                                          e             Guidanc                                                                             e




                                                           "The.                                                SLAMRAAM                                                                                                                                                 Product                                                                                               Office                                                                  changed                                                                                    to an                                                        information                                                                                                            assurance                                                                                                                        strategy                                                                      tha                        t




                                                    does                                         not.                                               comply                                                                                  with                                                     issued                                                                                 and                                           approved                                                                                    DoD                                                           information                                                                                                              assurance                                                                                                                     requirements.




                                                    Specifically,                                                                                                                          the                                      product                                                                                        office,                                                                        at                           the                                direction                                                                                       of                             the                                     U.S.                                                    Army                                            Chief                                                                         Information




                                                     Officer,                                                                     began                                                                              following                                                                                        the,                                                                  unapproved                                                                                                            DoD                                                             Information                                                                                                                    Assurance                                                                                                               Certification                                                                                                               and




                                                    Accreditation                                                                                                                                      Process                                                                                               (DIACAP)                                                                                                                guidance                                                                                         tha                                              t     was                                            in                          coordination                                                                                                            within                                                                                       DoD.                                                but                            not




                                                    approved                                                                                        for                                           implementation.                                                                                                                                                                               The                                                    DoD                                        Information                                                                                                                    Technology                                                                                                                         Security                                                                                                Certification




                                                    and                                  Accreditation                                                                                                                                           Process                                                                                                              (DITSCAP)                                                                                                       remains                                                                                              the                                   official                                                                       DoD                                              information                                                                                                                                   assurance




Pag                 e       2           0
                                                    guidance.                                                                                             (IG                                                Report                                                                              page                                                                 16).                                             "




                                                    Th                              e     CMD                                                                      S                   Projec                                                                        t      Offic                                                                 e                 concur                                                                      s        wit                             h            thi                                 s               statemen                                                                                       t      a                         s           written                                                            .   However                                                                                                               ,       th                  e




                                                     SLAMRAA                                                                                                                                 M                       Progra                                                                              m                     i                 s              followin                                                                                     g       th                       e        directio                                                                                     n           issue                                                         d               by                        th                        e        Departmen                                                                                                                         t         o                   f   th                e             Arm                            y




                                                     an                        d         mus                                              t         continu                                                                                        e           t                      o          d                o                 s                       o           unti                                           l        directe                                                           d              otherwise                                                                                                   .      Th                                            e           SLAMRAA                                                                                                                     M                           Produc                                                                        t   Manage                                                        r




                                                     i      s          takin                                                      g            al                          l               step                                         s            possibl                                                                                  e                 t              o            ensur                                                        e        tha                             t     th                            e               I                  A                 progra                                                                   m                         doe                                 s        no                        t       plac                                                         e           th                           e              informatio                                                                          n




                                                     containe                                                                             d                i                   n                  th                      e         SLAMRAA                                                                                                                                                 M                     syste                                                   m             at                         greate                                                                       r       risk                                         o                    f           loss                                    ,       misuse                                                                  ,            o                      r            unauthorize                                                                                                  d




                                                     acces                                              s           t                 o             o                  r                   modificatio                                                                                                                     n                 o                           f         th                         e            informatio                                                                                             n                  containe                                                                                    d              i                     n              th                 e         system                                                              .




                                                          "D.l.                                  We                                                            recommend                                                                                                                                that                                                    the                                       Army                                                    Chief                                                         Information                                                                                                                  Officer                                                                            rescind                                                                                  all                                 verbal




                                                    or                     written                                                                        direction                                                                                                       given                                                                        to                               Army                                                        acquisition                                                                                                       program                                                                                            managers                                                                                              to                             follow                                                                   the




                                                     interim                                                            guidance                                                                                                            on                                            DoD                                                         Information                                                                                                             Assurance                                                                                                                     Certification                                                                                                                  and                                                  Accreditation




                                                    Program                                                                                   in                                       developing                                                                                                                weapon                                                                                                    systems,




                                                    D.2.                                    We                                                 recommend                                                                                                                                      that                                                the                                           Product                                                                        Manager,                                                                                                          Surface                                                                                  -Launched                                                                                 Advanced




                                                    Medium-Range.                                                                                                                                                             Air-to-Air                                                                                                     Missile                                                                                        return                                                          to                                  following                                                                                   the                                                           DoD                                         Information




                                                     Technology                                                                                                                        Security                                                                                           Certification                                                                                                                               and                                             Accreditation                                                                                                                                Process                                                                                            in                     developing                                                                                                                          the




                                                    Surface-Launched                                                                                                                                                                                    Advanced                                                                                                                            Medium-Range                                                                                                                                                   Air-to-Air                                                                                           Missile,                                                                                    as                              documented




                                                    in                  the                                     information                                                                                                                      assurance                                                                                                                                  strategy                                                                          and                                      in                                  accordance                                                                                                                          with                                        DoD                                              Instruction




                                                    5260.40,                                                                                   "DoD                                                                       Information                                                                                                                                        Technology                                                                                                                     Security                                                                                        Certification                                                                                                                  and                                                  Accreditation




                                                    Process                                                                            (DITSCAP),                                                                                                                                         "                    December                                                                                                               30,                                 1997.                                                           (IG                                          Report                                                                       page                                                     19}"




Pag                 e       2           3




                                                          The                              CMD                                                                     S                   Projec                                                                    t          offic                                                       e               ha                                  s         n                    o          commen                                                                                t         o                         n            th                         e        Recommendations                                                                                                                                                                                      .            Recommendatio                                                                                                                                          n




                                                    D                  l           doc                                        s           no                                       t          appl                                               y           t                    o             CMDS                                                                                    .       Recommendatio                                                                                                                                                                n              D                     2         woul                                                                d            requir                                                      e     tha                                             t         th                             e          SLAMRAA                                                                                                M




                                                     Produc                                                             t             Manage                                                                                        r                ignor                                                             e                officia                                                                    l           Departmen                                                                                                         t          o                     f        th                      e        Arm                                                           y               direction                                                                         .




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                APPROVED                                                                                                                                  :                     Edwar                                                                                                             d                  L                         .       Mulli                                                        n




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                COL                                     ,         A                                       D




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 Projec                                                   t                Manage                                                                                     r




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                CMD                                              S                        Projec                                                                               t    Offic                                        e




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      5                  6




                                                                                                                                                                                                                                            FO                                                                    R                                             OFFICIA                                                                                                                                                                                                                L                          US                                                                                  E                      ONL                                                                                                                           Y
Departmen                                                                                                       t                     o                                                        f                 th                                           e                              Army                                                                                                                                             ,               Directo                                                                                                                                                           r               o                              f             Comba                                                                                      t




Developments                                                                                                                                                                               ,               U.S                                                                                       .                    Arm                                                                                                             y                             Ai                                                          r                       Defens                                                                                                                           e                    Artiller                                                                  y




Schoo          l    Comment                                                                                                                                                                                                                           s




                                                                                                                                                                                                                                                                                                         DEPARTMEN                                                                                                            T               O                     F              TH                          E        ARM                                          Y




                                                                                                         HEADQUARTERS                                                                                                                                                                ,       U.S                                                        .   ARM                             Y                AI                                   R                DEFENS                                                                       E           ARTILLER                                                                            Y             SCHOO                                                            L




                                                                                                                                                                                                                                                                                                                                                    5800                            CARTE                                                                               R                   ROA                                     D




                                                                                                                                                                                                                                                                       FOR                                                T                 BLISS                                               ,      TEXA                                                             S               79916-380                                                                                           2




                                                                                                 REPL                                                Y               T                     O




                                                                                                ATTENTIO                                                                                                     N           OF                   :




                    ATSA-C                                                        D




                   MEMORANDU                                                                       M                FO                                      R                Department                                                                                              o                                f            Defens                                                   e              Inspecto                                                                                                r   Genera                                                           l       Office                                                  ,      400                               Arm                                       y           Nav              y




                   Driv                                e      (Room                                                             801                                                   )            Arlington                                                                                        ,         V                                A            22202-470                                                                                     4




                    SUBJECT                                                           ;      USAADASC                                                                                                            H            DCD                                     Comment                                                                                 s      t               o              DRAF                                                  T              Repor                                                  t       o                       n        th                       s          Acquisitio                                                                          n         o                        f




                    Surface-Launche                                                                                                                                      d                Advance                                                                          d                 Medium-Range                                                                                                                    Air-to-Ai                                                                                                  r            Missile                                                          (Projec                                                            t       No.                                       D2007                                    -




                   D000XE-0060                                                                                                                    .000)                                                ,     Augus                                                t        17                                              ,          200                                7




                    1          .   Reference                                                                                                  s




                                                                       a      .           DRAFT Report                                                                                                                                    o                   n                 th                                    e               Acquisitio                                                                                          n           O                             f             Surface-Launche                                                                                                                       d           Advance                                                                d       Medim                                            -




                   Range                                   Air-to-Ai                                                                                                         r            Missil                                                      e                (Project                                                                             No.                                        D                              2007-D000AE-0060.000                                                                                                                                                                          )       ,                 Augus                                        t          17                           ,         200                7




                   2       .       Enclosure                                                                                                            :




                                                                       USAADASC                                                                                 H                DC                              D            Respons                                                                             e            t                    o         DoDI                                           G               Draft                                                          Audi                                            t       Repor                                                t      ref                                 (                 A            }   contain                                                               s     th       e




                                       finding                                             an                       d                 recommendation                                                                                                                                                      .




                   3       .       M                          y        poin                                                 t         o                          f       cantact                                                                          s           fo                                      r                this                                          draf                                                 t       audi                                                          t    are •                                                            •                                                                                           at                             (915                                                )




                                                                                                   o        r           b                            y           emai                                                     l          at                                                       @us.amy.mi                                                                                                                                                       l             and        •                                                                                                   a                                                                                                        t         {915                                          )




                                                                                                                                          b         y           emai                                                      l      a                t                                      •                                                                                                                                                                @us.army.mil




                    FO              R            THE                       COMMANDANT                                                                                                                                :




                   Enc                           l




                                                                                                                                                                                                                                                                                                                                                                                                                                              ,       A                      D




                                                                                                                                                                                                                                                                                                                                                                                                           DIRECTO                                                                          R         COMBAT                                                             DEVELOPMENTS




                                                                                                                                                                                                                                          -UNCLASSIFIED/**                                                                                                                                                               *




                                                                                                                                                                                                                                                                                                                                                                                                                     5                7




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                b[6   )
         58
FOR OFFICIAL USE ONLY
         59
FOR OFFICIAL USE ONLY
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
John E. Meling
Harold C. James
Andrew D. Greene
Breon E. Dehoux
Douglas W. Slaughter
Steven P. Mazur
Caryn M. Chambers
Jaime A. Bobbio
Charles S. Dekle
Meredith H. Johnson
